<html>
<title> - S. 3742, THE DATA SECURITY AND BREACH NOTIFICATION ACT OF 2010</title>
<body><pre>[Senate Hearing 111-1040]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1040
 
                      S. 3742, THE DATA SECURITY 
                  AND BREACH NOTIFICATION ACT OF 2010

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
67-687                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

MARK PRYOR, Arkansas, Chairman       ROGER F. WICKER, Mississippi, 
BYRON L. DORGAN, North Dakota            Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             JOHNNY ISAKSON, Georgia
TOM UDALL, New Mexico                DAVID VITTER, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 22, 2010...............................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Wicker......................................    36
Statement of Senator Klobuchar...................................    41

                               Witnesses

Maneesha Mithal, Associate Director of the Division of Privacy 
  and Identity Protection, Federal Trade Commission..............     3
    Prepared statement...........................................     5
Mark Bregman, Chief Technology Officer, Symantec Corporation on 
  Behalf of Symantec Corporation and TechAmerica.................    10
    Prepared statement...........................................    12
Ioana Rusu, Policy Counsel, Consumers Union......................    21
    Prepared statement...........................................    22
Stuart K. Pratt, President and CEO, Consumer Data Industry 
  Association....................................................    24
    Prepared statement...........................................    25
Melissa Bianchi, Hogan Lovells U.S. LLP, on Behalf of the 
  American Hospital Association..................................    32
    Prepared statement...........................................    33

                                Appendix

Hon. John D. Rockefeller IV, prepared statement..................    51
Confidentiality Coalition, prepared statement....................    51
Response to written questions submitted by Hon. Mark Pryor to:
    Maneesha Mithal..............................................    55
    Ioana Rusu...................................................    58
    Stuart K. Pratt..............................................    59
    Melissa Bianchi..............................................    61
Letter, dated December 7, 2010 to Senator Roger Wicker, from 
  Stuart K. Pratt, Consumer Data Industry Association............    63


                      S. 3742, THE DATA SECURITY 
                  AND BREACH NOTIFICATION ACT OF 2010

                              ----------                              


                     WEDNESDAY, SEPTEMBER 22, 2010

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
                             Safety, and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. I'll go ahead and call us to order here. I 
want to thank everyone for being here today on this hearing on 
S. 3742, the Data Security and Breach Notification Act of 2010. 
I know we have a couple of Senators that are on the way, 
whether literally or figuratively, but they'll be here shortly. 
So I think what I will do is go ahead and do my opening 
statement, and if they want to make opening statements when 
they come that would be great, or we'll jump right into 
statements and questions.
    But let me go ahead and start today, to say that the 
Privacy Rights Clearinghouse recently estimated that since 2005 
a half billion sensitive records have been breached. So I think 
that is worth repeating: The Privacy Rights Clearinghouse 
recently estimated that since 2005 a half billion sensitive 
records have been breached.
    The TJMaxx case is one of the more high profile cases, but 
the truth is, even though that one did involve 45 million 
names, credit cards, driver's license information, et cetera, 
there are a slew of other examples of entities large and small 
who've had these data breaches. In fact, just recently in 
Arkansas an employee of one of our State universities 
inadvertently released personal information on more than 2,000 
university employees to a list of nearly 150 individuals.
    So obviously this is an issue that touches all of us. 
Studies have shown the average victim of identity theft pays 
between $400 and $880 and devotes between 400 and 300 hours to 
remedy problems due to identity theft. Just think about someone 
spending 40 hours trying to fix this. That's an entire week's 
worth of work that they could be working, could be productive, 
could be with their families or whatever else they're doing, 
but they're fooling around with this thing because someone has 
stolen their identity.
    This has become such a problem, and my sense is the current 
state of the law is not sufficient to handle it. I think we 
need to do more. As we all know, data security breaches can 
lead to identity theft and other types of fraud. They say each 
year--and I'm not quite sure how solid this statistic is, but 
they say each year approximately 9 million Americans have their 
identities stolen.
    So if their information is compromised due to inadequate 
security measures or insufficient safeguards, those entities 
responsible should be held accountable and should notify 
customers when a breach has occurred. If a customer's personal 
information falls into the wrong hands, it's only fair that 
companies be expected to give quick warning to affected 
consumers.
    So I've drafted a bill along with Senator Rockefeller that 
we filed on August 5 of this year. It's S. 3742, the Data 
Security and Breach Notification Act of 2010. It will require 
entities that own or possess data containing personal 
information to establish reasonable security policies and 
procedures to protect that data. If a security breach occurs, 
entities would have to notify each individual whose information 
was acquired or accessed as a result of the breach within 60 
days.
    Affected consumers would be entitled to receive consumer 
credit reports and credit monitoring services for 2 years, as 
well as instructions on how to request these services.
    As a former attorney general, I'm very comfortable with 
allowing the State AGs to protect their residents from harm and 
so my bill grants the State attorneys general important powers 
enabling them to do just that.
    Before I turn it over to our witnesses for their opening 
statements, I would like to thank the Chairman for his 
steadfast support of the bill. He and I have worked closely on 
this, and I look forward to continuing those conversations. I 
also want to thank Chairman Inouye, who graciously allowed me 
to pick up this issue and to carry it forward. Finally, I want 
to thank my friends on the House side, including Congressmen 
Rush and Stern, for their hard work on this issue. The House 
passed by voice vote last December a companion measure which 
we've used as some of our base text here, and I think that one 
of the good things about the Commerce Committee is we have a 
record of working across the aisle and down the hall with the 
House as well. So I just want to let my Republican colleagues 
know that I look forward to the dialogue and look forward to 
working on this and trying to get this to a fairly rapid 
conclusion. I'm certainly receptive to more input and 
suggestions.
    Again, I want to thank the Chairman for this opportunity to 
take the lead on this very critical matter.
    So what I thought we would do here is, when Senator Wicker 
comes we'll ask him if he wants to give an opening statement. I 
know he's in another committee tied up right now, but I think 
he's on his way at some point.
    Also what I'd like to do is just go ahead and introduce our 
witnesses very quickly and try to introduce everybody. What I'd 
like to ask everyone to do is limit your opening statements to 
5 minutes if possible, and we'll make your written statement 
part of the record and then we'll dive in and ask questions.
    So I guess in the order--I guess you guys are lined up in 
the order that we have you listed here. So why don't we first 
go with Maneesha Mithal. She's the Associate Director, Division 
of Privacy and Identity Protection, Bureau of Consumer 
Protection, Federal Trade Commission.
    Then we'll have: Mr. Mark Bregman, Chief Technology Officer 
of Symantec, and on behalf of TechAmerica; and then Ms. Ioana 
Rusu, Policy Counsel, Consumers Union; and then Mr. Stuart 
Pratt. He's President, Consumer Data Industry Association. And 
then Ms. Melissa Bianchi. Am I getting that right?
    Ms. Bianchi. Yes.
    Senator Pryor. American Hospital Association. And I guess 
you're with a law firm, Hogan Lovells; is that right?
    Ms. Bianchi. Yes.
    Senator Pryor. On behalf of the American Hospital 
Association.
    So, Ms. Mithal, why don't we start with you, and we'll just 
try to do 5 minutes and then we'll just go from there. Go 
ahead. Thank you.

    STATEMENT OF MANEESHA MITHAL, ASSOCIATE DIRECTOR OF THE 
  DIVISION OF PRIVACY AND IDENTITY PROTECTION, FEDERAL TRADE 
                           COMMISSION

    Ms. Mithal. Thank you, Mr. Chairman. My name is Maneesha 
Mithal and I'm an Associate Director at the Federal Trade 
Commission, and I'm delighted to be here today to talk about 
our data security program and also to provide comments on S. 
3742.
    The FTC promotes data security through law enforcement, 
education, and policy initiatives. On the law enforcement 
front, we've brought 29 cases against businesses that failed to 
safeguard consumers' personal information. Let me give you a 
couple of recent examples.
    First, we sued Rite-Aid because they disposed of sensitive 
health, financial, and employee information into open 
dumpsters. We alleged that they didn't implement reasonable 
security to dispose of this information.
    Second, we sued the social media service Twitter for, among 
other things, failing to require its employees to use strong 
passwords. Because of its security failures, a hacker was able 
to use a simple automated password-guessing tool to access 
employee accounts and send fake tweets.
    Third, we sued LifeLock for inadequate data security. 
LifeLock sold consumers an identity theft protection service. 
You may recall LifeLock's ads, which prominently displayed the 
CEO's real Social Security number to show how confident he was 
in LifeLock's service. As it turns out, the CEO later became a 
victim of identity theft. Despite the fact that LifeLock 
collected Social Security numbers from consumers, it didn't 
maintain reasonable security for them.
    In each of these cases, the Commission's orders required 
the companies to maintain reasonable security and to get 
periodic independent audits of their security practices.
    In addition to law enforcement, we've launched educational 
campaigns directed to consumers on how to avoid identity theft 
and what to do if they become victims. We've released general 
data security guidance for businesses and we've also created 
business education materials on specific topics. For example, 
earlier this year, we sent letters notifying several entities 
that customer information from their computers had been made 
available through P2P file sharing networks. In the letter we 
included educational materials about the risks associated with 
P2P file sharing and companies' obligations to protect consumer 
and employee information from these risks.
    Finally, we engage in policymaking efforts to promote data 
security and stay abreast of new issues in this area. For 
example, over the past several months, the FTC has hosted three 
privacy roundtables to explore consumer privacy issues. 
Panelists discussed the impact of new technologies, such as 
cloud computing and mobile services, on data security. The 
Commission staff expects to issue a report on the roundtables 
later this year.
    Let me now turn to our legislative recommendations. We 
strongly support the goals of S. 3742. In particular, we 
support the general requirement to maintain reasonable 
security, the requirement to provide notice to consumers when 
their information is breached, and the grant of civil penalty 
authority to the FTC. We also support the provisions giving 
State attorneys general authority to sue companies for 
violations of the bill.
    In addition, S. 3742 contains specific provisions governing 
data brokers, including provisions giving consumers the right 
to access data that data brokers have about them. The 
Commission believes these provisions can help to alleviate 
concerns raised at our privacy roundtables about the 
invisibility of practices of the data broker industry.
    On a related note, just today, the Commission announced a 
case against a data broker named US Search. This company had a 
public-facing search engine that allowed consumers to search 
for information about other consumers. The company allowed 
consumers to opt out of having their information appear in 
search results for a fee of $10. Although 4,000 consumers opted 
out of the service, their names still appeared in search 
results. The Commission's settlement with the company requires 
US Search to disclose limitations on its opt-out and to refund 
consumers who had previously opted out.
    Although the Commission has used its authority under the 
FTC Act to sue data brokers, S. 3742's data broker provisions 
would give the Commission additional authority in this area.
    Finally, let me provide some comments about the scope of 
the bill. We're pleased that it covers nonprofits, as many of 
the security breaches we've heard about in the past several 
years involve universities and other nonprofits. We believe the 
bill should also apply to telecom common carriers, many of 
which maintain significant quantities of personal information.
    In addition, we'd like to see the bill's breach 
notification provisions apply to paper as well as electronic 
records. Many cases we've seen, including the Rite-Aid case I 
mentioned earlier, involved inadequate security for paper 
records, which could cause significant harm to consumers.
    We look forward to working with this committee as the bill 
moves forward. I thank you, Mr. Chairman. I'd be happy to 
answer any questions.
    [The prepared statement of Ms. Mithal follows:]

   Prepared Statement of Maneesha Mithal, Associate Director of the 
 Division of Privacy and Identity Protection, Federal Trade Commission
I. Introduction
    Chairman Pryor, Ranking Member Wicker, and members of the 
Subcommittee, I am Maneesha Mithal, Associate Director of the Division 
of Privacy and Identity Protection at the Federal Trade Commission 
(``FTC'' or ``Commission''). I appreciate the opportunity to present 
the Commission's testimony on data security and to provide the 
Commission's thoughts on legislation in this area.\1\
---------------------------------------------------------------------------
    \1\ This written statement represents the views of the Federal 
Trade Commission. My oral presentation and responses are my own and do 
not necessarily reflect the views of the Commission or of any 
Commissioner.
---------------------------------------------------------------------------
    As the Nation's consumer protection agency, the FTC is committed to 
protecting consumer privacy and promoting data security in the private 
sector. Data security is of critical importance to consumers. If 
companies do not protect the personal information they collect and 
store, that information could fall into the wrong hands, resulting in 
fraud and other harm, and consumers could lose confidence in the 
marketplace. Accordingly, the Commission has undertaken substantial 
efforts to promote data security in the private sector through law 
enforcement, education, and policy initiatives. The Commission's 
testimony begins by describing these initiatives. It also sets forth 
the Commission's support of the proposed data security legislation 
introduced by Chairman Pryor and Chairman Rockefeller along with 
certain recommendations on the legislation.

II. The Commission's Data Security Program

A. Law Enforcement
    To promote data security through law enforcement, the Commission 
brings enforcement actions against businesses that fail to implement 
reasonable security measures to protect consumer data. The FTC enforces 
several laws and rules imposing data security requirements. The 
Commission's Safeguards Rule under the Gramm-Leach-Bliley Act (``GLB 
Act''), for example, provides data security requirements for financial 
institutions.\2\ The Fair Credit Reporting Act (``FCRA'') requires 
consumer reporting agencies to use reasonable procedures to ensure that 
the entities to which they disclose sensitive consumer information have 
a permissible purpose for receiving that information,\3\ and imposes 
safe disposal obligations on entities that maintain consumer report 
information.\4\ In addition, the Commission enforces the FTC Act's 
proscription against unfair or deceptive acts or practices \5\ in cases 
where a business makes false or misleading claims about its data 
security procedures, or where its failure to employ reasonable security 
measures causes or is likely to cause substantial consumer injury.
---------------------------------------------------------------------------
    \2\ 16 CFR Part 314, implementing 15 U.S.C.  6801(b). The Federal 
Deposit Insurance Corporation, National Credit Union Administration, 
Securities and Exchange Commission, Office of the Comptroller of the 
Currency, Board of Governors of the Federal Reserve System, Office of 
Thrift Supervision, Secretary of the Treasury, and state insurance 
authorities have promulgated comparable safeguards requirements for the 
entities they regulate.
    \3\ 15 U.S.C.  1681e.
    \4\ Id. at  1681w. The FTC's implementing rule is at 16 CFR Part 
682.
    \5\ 15 U.S.C.  45(a).
---------------------------------------------------------------------------
    Since 2001, the Commission has used its authority under these laws 
to bring 29 cases against businesses that allegedly failed to protect 
consumers' personal information appropriately.\6\ These cases 
illustrate several general principles.
---------------------------------------------------------------------------
    \6\ See In re Rite Aid Corp., FTC File No. 072-3121 (July 27, 2010) 
(consent approved subject to public comment); In re Twitter, Inc., FTC 
File No. 092-3093 (June 24, 2010) (consent approved subject to public 
comment); Dave & Buster's, Inc., FTC Docket No. C-4291 (May 20, 2010) 
(consent order); FTC v. LifeLock, Inc., No. 2:10-cv-00530-NVW (D. Ariz. 
Mar. 15. 2010) (stipulated order); United States v. ChoicePoint, Inc., 
No. 1:06-CV-0198-JTC (N.D. Ga. Oct. 14, 2009) (stipulated order); In re 
James B. Nutter & Company, FTC Docket No. C-4258 (June 12,2009) 
(consent order); United States v. Rental Research Servs., No. 0:09-CV-
00524 (D. Minn. Mar. 6, 2009) (stipulated order); FTC v. Navone, No. 
2:08-CV-001842 (D. Nev. Dec. 29, 2009) (stipulated order); United 
States v. ValueClick, Inc., No. 2:08-CV-01711 (C.D. Cal. Mar. 13, 2008) 
(stipulated order); United States v. American United Mortgage, No. 
1:07-CV-07064 (N.D. Ill. Dec. 18, 2007) (stipulated order); In re CVS 
Caremark Corp., FTC Docket No. C-4259 (Jun. 18, 2009) (consent order); 
In re Genica Corp., FTC Docket No. C-4252 (Mar. 16, 2009) (consent 
order); In re Premier Capital Lending, Inc., FTC Docket No. C-4241 
(Dec. 10, 2008) (consent order); In re The TJX Cos., FTC Docket No. C-
4227 (July 29, 2008) (consent order); In re Reed Elsevier Inc., FTC 
Docket No. C-4226 (July 29, 2008) (consent order); In re Life is good, 
Inc., FTC Docket No. C-4218 (Apr. 16, 2008) (consent order); In re Goal 
Fin., LLC, FTC Docket No. C-4216 (Apr. 9, 2008) (consent order); In re 
Guidance Software, Inc., FTC Docket No. C-4187 (Mar. 30, 2007) (consent 
order); In re CardSystems Solutions, Inc., FTC Docket No. C-4168 (Sept. 
5, 2006) (consent order); In re Nations Title Agency, Inc., FTC Docket 
No. C-4161 (June 19, 2006) (consent order); In re DSW, Inc., FTC Docket 
No. C-4157 (Mar. 7, 2006) (consent order); In re Superior Mortgage 
Corp., FTC Docket No. C-4153 (Dec. 14, 2005) (consent order); In re 
BJ's Wholesale Club, Inc., FTC Docket No. C-4148 (Sept. 20, 2005) 
(consent order); In re Nationwide Mortgage Group, Inc., FTC Docket No. 
C-9319 (Apr. 12, 2005) (consent order); In re Petco Animal Supplies, 
Inc., FTC Docket No. C-4133 (Mar. 4, 2005) (consent order); In re 
Sunbelt Lending Servs., Inc., FTC Docket No. C-4129 (Jan. 3, 2005) 
(consent order); In re MTS Inc., d/b/a Tower Records/Books/Video, FTC 
Docket No. C-4110 (May 28, 2004) (consent order); In re Guess?, Inc., 
FTC Docket No. C-4091 (July 30, 2003) (consent order); In re Microsoft 
Corp., FTC Docket No. C-4069 (Dec. 20, 2002) (consent order).
---------------------------------------------------------------------------
    First, businesses that make claims about data security should be 
sure that they are accurate. The Commission has brought several cases 
against companies that allegedly misrepresented their own security 
procedures. A recent example is our action against LifeLock, in which 
the Commission challenged the company's claims that it took stringent 
security measures to protect consumer data and that it encrypted such 
data.\7\ The FTC charged that Lifelock's data was in fact not encrypted 
and that its data system was vulnerable and could have been exploited 
by identity thieves or others seeking access to customer information. 
Similarly, in actions against Microsoft,\8\ Petco,\9\ Tower 
Records,\10\ Life is good,\11\ and Premier Capital Lending,\12\ the FTC 
challenged claims on the companies' websites that each had strong 
security procedures in place to protect consumer information. In these 
cases the FTC alleged that, contrary to their claims, the companies did 
not employ many of the most basic security measures.
---------------------------------------------------------------------------
    \7\ FTC v. LifeLock, Inc., No. 2:10-cv-00530-NVW (D. Ariz. Mar. 15. 
2010) (stipulated order).
    \8\ In re Microsoft Corp., FTC Docket No. C-4069 (Dec. 20, 2002) 
(consent order).
    \9\ In re Petco Animal Supplies, Inc., FTC Docket No. C-4133 (Mar. 
4, 2005) (consent order).
    \10\ In re MTS Inc., d/b/a Tower Records/Books/Video, FTC Docket 
No. C-4110 (May 28, 2004) (consent order).
    \11\ In re Life is good, Inc., FTC Docket No. C-4218 (Apr. 16, 
2008) (consent order).
    \12\ In re Premier Capital Lending, Inc., FTC Docket No. C-4241 
(Dec. 10, 2008) (consent order).
---------------------------------------------------------------------------
    Second, businesses should protect against well-known, common 
technology threats. In a number of cases, the Commission has alleged 
that companies failed to protect their customer information from a 
simple and well-known type of attack--an SQL injection--designed to 
install hacker tools on the companies' computer networks.\13\ Most 
recently, the Commission announced its first data security case against 
social networking company Twitter, alleging that it failed to implement 
simple measures to counteract basic technology threats. For example, 
the Commission alleged that the company failed to require strong 
administrative passwords and to suspend passwords after a reasonable 
number of log-in attempts, and further alleged that this failure 
resulted in a hacker being able to use a simple automated password-
guessing tool to gain administrative control of Twitter.
---------------------------------------------------------------------------
    \13\ See, e.g., In re Genica Corp., FTC Docket No. C-4252 (Mar. 16, 
2009) (consent order); In re Guidance Software, Inc., FTC Docket No. C-
4187 (Mar. 30, 2007) (consent order).
---------------------------------------------------------------------------
    Third, businesses must know with whom they are sharing customers' 
sensitive information. One of the Commission's most well-known security 
cases involved ChoicePoint, a data broker that sold 160,000 consumer 
files to identity thieves posing as clients. In its complaint, the 
Commission alleged that ChoicePoint lacked reasonable procedures to 
verify the legitimacy of its customers.\14\ In settling the case, 
ChoicePoint agreed to pay $10 million in civil penalties for alleged 
violations of the FCRA and $5 million in consumer redress for identity 
theft victims. The company also agreed to undertake substantial new 
data security measures. Last year, the Commission charged that the 
company violated the earlier court order and obtained a stipulated 
modified order under which ChoicePoint agreed to expand its data 
security obligations and pay penalties in the amount of $275,000.\15\
---------------------------------------------------------------------------
    \14\ United States v. ChoicePoint, Inc., No. 1:06-CV-0198 (N.D. Ga. 
Feb. 15, 2006) (stipulated order).
    \15\ United States v. ChoicePoint, Inc., No. 1:06-CV-0198-JTC (N.D. 
Oct. 14, 2009) (stipulated order).
---------------------------------------------------------------------------
    Fourth, businesses should not retain sensitive consumer information 
that they do not need. In cases against BJ's Warehouse,\16\ DSW Shoe 
Warehouse,\17\ and CardSystems Solutions,\18\ for example, the 
Commission alleged that the companies stored unencrypted, full magnetic 
stripe information on payment cards \19\ unnecessarily--long after the 
time of the transaction, when the companies no longer had a business 
need for the information. The Commission further alleged that, as a 
result, when thieves gained access to the companies' systems, they were 
able to obtain hundreds of thousands--in some cases millions--of credit 
card numbers and security codes.
---------------------------------------------------------------------------
    \16\ In re BJ's Wholesale Club, Inc., FTC Docket No. C-4148 (Sep. 
20, 2005) (consent order).
    \17\ In re DSW, Inc., FTC Docket No. C-4157 (Mar. 7, 2006) (consent 
order).
    \18\ In re CardSystems Solutions, Inc., FTC Docket No. C-4168 (Sep. 
5, 2006) (consent order).
    \19\ Magnetic stripe information is particularly sensitive because 
it can be used to create counterfeit credit and debit cards that appear 
genuine in the authorization process.
---------------------------------------------------------------------------
    Finally, businesses should dispose of sensitive consumer 
information properly. The Commission's most recent data security case 
against Rite Aid illustrates this principle.\20\ In that case, the 
Commission alleged that Rite Aid failed to implement reasonable and 
appropriate procedures for handling personal information about 
customers and job applicants, particularly with respect to its 
practices for disposing of such information. The FTC's action followed 
media reports that Rite Aid pharmacies across the country were throwing 
pharmacy labels and employment applications into open dumpsters. The 
FTC coordinated its investigation and settlement with the Department of 
Health and Human Services (``HHS''), which investigated Rite Aid's 
handling of health information under the Health Insurance Portability 
and Accountability Act. Under its settlement order with the FTC, Rite 
Aid agreed to establish a comprehensive information security program 
and obtain biennial audits of this program for the next 20 years. HHS 
announced a separate agreement with Rite Aid in which the company 
agreed to pay a $1 million fine.\21\
---------------------------------------------------------------------------
    \20\ See In re Rite Aid Corp., FTC File No. 072-3121 (July 27, 
2010) (consent approved subject to public comment).
    \21\ The FTC brought a similar case against CVS Caremark alleging 
that the company failed to properly dispose of sensitive customer and 
employee information. See In re CVS Caremark Corp., FTC Docket No. C-
4259 (Jun. 18, 2009) (consent order). The FTC also has brought cases 
involving mortgage companies' alleged improper disposal of sensitive 
customer financial information. See FTC v. Navone, No. 2:08-CV-001842 
(D. Nev. Dec. 29, 2009) (stipulated order); United States v. American 
United Mortgage, No. 1:07-CV-07064 (N.D. Ill. Dec. 18, 2007) 
(stipulated order).
---------------------------------------------------------------------------
    Some of the Commission's data security actions described above 
involve unfair or deceptive practices under the FTC Act, while others 
involve the GLB Act and related Safeguards Rule or the FCRA. Although 
the Commission brings its cases under different laws, all of its cases 
stand for the principle that companies must maintain reasonable and 
appropriate measures to protect sensitive consumer information.\22\
---------------------------------------------------------------------------
    \22\ The Commission recognizes that what is ``reasonable'' under 
these laws will depend on the size and complexity of the business, the 
nature and scope of its activities, and the sensitivity of the 
information at issue. The principle recognizes that there cannot be 
``perfect'' security, and that data breaches can occur even when a 
company maintains reasonable precautions to prevent them. At the same 
time, companies that put consumer data at risk can be liable even in 
the absence of a known breach.
---------------------------------------------------------------------------
B. Education
    The Commission also promotes better data security practices through 
extensive use of consumer and business education. On the consumer 
education front, the Commission sponsors OnGuard Online, a website 
designed to educate consumers about basic computer security.\23\ 
OnGuard Online was developed in partnership with other government 
agencies and the technology sector. Since its launch in 2005, OnGuard 
Online and its Spanish-language counterpart Alerta en Linea have 
attracted nearly 12 million unique visits.
---------------------------------------------------------------------------
    \23\ See www.onguardonline.gov.
---------------------------------------------------------------------------
    In addition, the Commission has engaged in wide-ranging efforts to 
educate consumers about identity theft, one of the harms that could 
result if their data is not adequately protected. For example, the 
FTC's identity theft primer \24\ and victim recovery guide \25\ are 
widely available in print and online. Since 2000, the Commission has 
distributed more than 10 million copies of the two publications, and 
recorded over 5 million visits to the Web versions. In addition, in 
February 2008, the U.S. Postal Service--in cooperation with the FTC--
sent copies of the Commission's identity theft consumer education 
materials to more than 146 million residences and businesses in the 
United States. Moreover, the Commission maintains a telephone hotline 
and dedicated website to assist identity theft victims and collect 
their complaints, through which approximately 20,000 consumers contact 
the FTC every week.
---------------------------------------------------------------------------
    \24\ Avoid ID Theft: Deter, Detect, Defend, available at http://
www.ftc.gov/bcp/edu/pubs/consumer/idtheft/idt01.htm.
    \25\ Take Charge: Fighting Back Against Identity Theft, available 
at http://www.ftc.gov/bcp/edu/pubs/consumer/idtheft/idt04.htm.
---------------------------------------------------------------------------
    The Commission recognizes that its consumer education efforts can 
be even more effective if it partners with local businesses, community 
groups, and Members of Congress to educate their employees, 
communities, and constituencies. For example, the Commission has 
launched a nationwide identity theft education program, ``Avoid ID 
Theft: Deter, Detect, Defend,'' which contains a consumer education kit 
that includes direct-to-consumer brochures, training materials, 
presentation slides, and videos for use by such groups. The Commission 
has developed a second consumer education toolkit with everything an 
organization needs to host a ``Protect Your Identity Day.'' Since the 
campaign launch in 2006, the FTC has distributed nearly 110,000 
consumer education kits and over 100,000 Protect Your Identity Day 
kits.
    The Commission directs its outreach to businesses as well. The FTC 
widely disseminates its business guide on data security, along with an 
online tutorial based on the guide.\26\ These resources are designed to 
provide diverse businesses--and especially small businesses--with 
practical, concrete advice as they develop data security programs and 
plans for their companies.
---------------------------------------------------------------------------
    \26\ See www.ftc.gov/infosecurity.
---------------------------------------------------------------------------
    The Commission also has released articles for businesses relating 
to basic data security issues for a non-legal audience,\27\ which have 
been reprinted in newsletters for local Chambers of Commerce and other 
business organizations.
---------------------------------------------------------------------------
    \27\ See http://business.ftc.gov/privacy-and-security.
---------------------------------------------------------------------------
    The FTC also creates business educational materials on specific 
topics, often to address emerging issues. For example, earlier this 
year, the Commission sent letters notifying several dozen public and 
private entities--including businesses, schools, and local 
governments--that customer information from their computers had been 
made available on peer-to-peer (``P2P'') file sharing networks. The 
purpose of this campaign was to educate businesses and other entities 
about the risks associated with P2P file sharing programs and their 
obligations to protect consumer and employee information from these 
risks. As part of this initiative, the Commission developed a new 
business education brochure--Peer-to-Peer File Sharing: A Guide for 
Business.\28\
---------------------------------------------------------------------------
    \28\ See http://www.ftc.gov/bcp/edu/pubs/business/idtheft/
bus46.shtm.
---------------------------------------------------------------------------
C. Policy
    The Commission's efforts to promote data security also include 
policy initiatives. Over the past several months, the FTC has convened 
three public roundtables to explore consumer privacy.\29\ Panelists at 
the roundtables repeatedly noted the importance of data security in 
protecting privacy. Many participants stated that companies should 
incorporate data security into their everyday business practices, 
particularly in today's technological age. For example, participants 
noted the increasing importance of data security in a world where cloud 
computing enables companies to collect and store vast amounts of data 
at little cost.\30\ In addition, participants noted that the falling 
cost of data storage enables companies to retain data for long periods 
of time, again at little cost. Even if old data is not valuable to a 
particular company, it could be highly valuable to an identity thief. 
This is one of the reasons why businesses should promptly and securely 
dispose of data for which they no longer have a business need.\31\
---------------------------------------------------------------------------
    \29\ See generally FTC Exploring Privacy web page, www.ftc.gov/bcp/
workshops/privacyround
tables.
    \30\ See, e.g., Privacy Roundtable, Transcript of January 28, 2010, 
at 182, Remarks of Harriet Pearson, IBM (noting the importance of data 
security as an issue for new computing models, including cloud 
computing).
    \31\ See, e.g., Privacy Roundtable, Transcript of January 28, 2010, 
at 310, Remarks of Lee Tien, Electronic Frontier Foundation (``And 
having the opposite of data retention, data deletion as a policy, as a 
practice is something that, you know, really doesn't require any fancy 
new tools. It is just something that people could do, would be very 
cheap, and would mitigate a lot of privacy problems.''); Privacy 
Roundtable, Transcript of March 17, 2010, at 216, Remarks of Pam Dixon 
(supporting clear and specific data retention and use guidelines). The 
Commission has long supported this principle in its data security 
cases. Indeed, at least three of the Commission's data security cases--
against DSW Shoe Warehouse, BJ's Wholesale Club, and Card Systems--
involved allegations that companies violated data security laws by 
retaining magnetic stripe information from customer credit cards much 
longer than they had a business need to do so. Moreover, in disposing 
of certain sensitive information, such as credit reports, companies 
must do so securely. See FTC Disposal of Consumer Report Information 
and Records Rule, 16 CFR  682 (2005).
---------------------------------------------------------------------------
    The Commission staff expect to issue a report later this year 
seeking comment on these and other topics. Among other things, the 
report will encourage companies to incorporate sound data security and 
data retention practices into their business models in a reasonable and 
cost-effective way.

III. Legislative Recommendations
    The Commission appreciates the opportunity to comment on the 
proposed legislation introduced by Chairman Pryor and Chairman 
Rockefeller. The Commission supports the goal of improving the security 
of consumer data. The proposed legislation contains several important 
components.
    First, it would require a broad array of companies to implement 
reasonable security policies and procedures, including both commercial 
and nonprofit entities. Problems with data security and breaches affect 
businesses and nonprofit organizations alike. Requiring reasonable 
security policies and procedures of this broad array of entities is a 
goal that the Commission strongly supports, as illustrated by its 
robust data security enforcement program described above.
    Second, it would require covered companies to notify consumers when 
there is a security breach. The Commission believes that notification 
in appropriate circumstances can be beneficial.\32\ Indeed, various 
states have already passed data breach notification laws which require 
companies to notify affected consumers in the event of a data breach. 
These laws have further increased public awareness of data security 
issues and related harms, as well as data security issues at specific 
companies.\33\ Breach notification at the Federal level would extend 
notification nationwide and accomplish similar goals.
---------------------------------------------------------------------------
    \32\ This recommendation is consistent with prior Commission 
recommendations. See Prepared Statement of the Federal Trade Commission 
Before the S. Comm. on Commerce, Science, and Transportation, 109th 
Cong. (Jun. 16, 2005), available at http://www.ftc.gov/os/2005/06/
050616databreaches.pdf; Prepared Statement of the Federal Trade 
Commission Before the S. Comm. on Commerce, Trade, and Consumer 
Protection, 1 1 1th Cong. (May 5, 2009), available at http://
www.ftc.gov/os/2009/05/P064504peertopeertestimony.pdf.
    \33\ See, e.g., Samuelson Law, Technology, & Public Policy Clinic, 
University of California-Berkeley School of Law, Security Breach 
Notification Laws: Views from Chief Security Officers (Dec. 2007), 
available at http://www.law.berkeley.edu/files/cso_study.pdf; Federal 
Trade Commission Report, Security in Numbers: SSNs and ID Theft (Dec. 
2008), available at http://www.ftc.gov/os/2008/12/P075414ssnreport.pdf.
---------------------------------------------------------------------------
    Third, the Commission learned from its privacy roundtables that 
data brokers often gather consumer data from a variety of sources, 
combine it, and use it for purposes that consumers may never have 
anticipated when it was collected. Given the invisibility of these 
practices, consumers are unaware of and thus unable to control them. If 
information from data brokers is inaccurate--for example, if a data 
broker provides inaccurate information to a business for purposes of 
verifying a job applicant's identity--consumers can be harmed by the 
lack of access to, and ability to correct, that information. The 
Commission believes that S. 3742's provisions on access can help to 
alleviate these concerns.
    At the same time, the Commission acknowledges that providing access 
can be costly, and that the right to suppress data rather than correct 
it may be sufficient in certain circumstances--if the data is used, for 
example, to make marketing decisions. The proposed rulemaking authority 
for the Commission will allow it to scale the legislative provisions on 
access, weighing its costs and benefits in particular circumstances.
    Finally, the Commission supports the legislation's robust 
enforcement provisions, which would: (1) give the FTC the authority to 
obtain civil penalties for violations \34\ and (2) give state attorneys 
general concurrent enforcement authority.\35\
---------------------------------------------------------------------------
    \34\ See supra at n. 32.; see also Prepared Statement of the 
Federal Trade Commission Before the Subcomm. on Interstate Commerce, 
Trade, and Tourism of the S. Comm. on Commerce, Science, and 
Transportation Committee, 110th Cong. (Sep. 12, 2007) available at 
http://www.ftc.gov/os/testimony/070912reauthorizationtestimony.pdf; 
Prepared Statement of the Federal Trade Commission Before the S. Comm. 
on Commerce, Science, and Transportation, 110th Cong. (Apr. 10, 2007), 
available at http://www.ftc.gov/os/testimony/P040101FY2008Budget
andOngoingConsumerProtectionandCompetitionProgramsTestimonySenate0410200
7.pdf. These recommendations also were made in an April 2007 report 
released by the President's Identity Theft Task Force, which was co-
chaired by the Attorney General and the FTC Chairman, as well as in a 
report on Social Security numbers released in December 2008. See The 
President's Identity Theft Task Force Report, Sep. 2008, available at 
http://idtheft.gov/reports/IDT
Report2008.pdf; FTC Report, ``Recommendations on Social Security Number 
Use in the Private Sector,'' (Dec. 2008), available at http://
www.ftc.gov/opa/2008/12/ssnreport.shtm.
    \35\ See The President's Identity Theft Task Force, ``Combating 
Identity Theft: A Strategic Plan,'' (Apr. 2007), available at http://
www.idtheft.gov/reports/StrategicPlan.pdf.
---------------------------------------------------------------------------
    The Commission has three main recommendations for the legislation 
at this time. First, it recommends that the provision requiring 
notification in the event of an information security breach not be 
limited to entities that possess data in electronic form, because the 
breach of sensitive data stored in paper format can be just as harmful 
to consumers.\36\ Second, as the proposed legislation is currently 
drafted, its requirements do not apply to telecommunications common 
carriers, many of which maintain significant quantities of highly 
personal information. The Commission believes that the legislation 
should cover these entities and that the Commission should have 
authority to enforce the legislation as to them. Third, the bill 
requires the Commission to establish a process for small businesses to 
request a waiver from having to provide free credit reports or credit 
monitoring to consumers following a breach. The Commission believes 
that such a business-by-business waiver process would be resource 
intensive for both the Commission and small businesses. Instead, the 
Commission suggests that the bill grant it rulemaking authority to 
determine circumstances under which the provision of free credit 
reports or credit monitoring may not be warranted.\37\ The Commission 
would be pleased to work with this Committee to address these issues.
---------------------------------------------------------------------------
    \36\ According to one survey, a significant number of breaches 
involve paper documents. See Ponemon Institute, Security of Paper 
Documents in the Workplace (Oct. 2008), available at http://
www.ponemon.org/data-security. In addition, the Commission has brought 
several data security cases involving improper disposal of paper 
documents, including the Rite Aid case discussed above. The facts of 
these cases illustrate how breaches of sensitive data stored in paper 
format may create a serious potential for consumer harm.
    \37\ The Commission notes that, as drafted, S. 3742 would preempt 
state law. In light of this, the Commission encourages this Committee 
to closely examine relevant state law, such as state data breach 
notification laws, to ensure that any Federal legislation in this area 
continues to provide consumers with a high level of protection.
---------------------------------------------------------------------------
IV. Conclusion
    Thank you for the opportunity to provide the Commission's views on 
the topic of data security. We remain committed to promoting data 
security and look forward to continuing to work with you on this 
important issue.

    Senator Pryor. Mr. Bregman.

          STATEMENT OF MARK BREGMAN, CHIEF TECHNOLOGY

           OFFICER, SYMANTEC CORPORATION ON BEHALF OF

              SYMANTEC CORPORATION AND TechAmerica

    Mr. Bregman. Mr. Chairman, Ranking Member Wicker: I am Mark 
Bregman, Chief Technology Officer for Symantec Corporation. 
Thank you for inviting me to appear before you to discuss the 
Data Security and Breach Notification Act.
    As a global information security leader, Symantec welcomes 
the opportunity to provide our insights on this important 
legislation. Today I will also be testifying on behalf of 
TechAmerica, which is the technology industry's largest 
advocacy organization, representing over 1,500 member 
companies.
    Mr. Chairman, TechAmerica commends you and Chairman 
Rockefeller for your thoughtful leadership in addressing the 
pervasive threat of data breaches through the introduction of 
the Data Security and Breach Notification Act. Over the past 
few years, the frequency and severity of significant data 
breaches has increased dramatically, along with the costs of 
responding to such incidents. One survey estimates that between 
80 and 90 percent of Fortune 500 companies and government 
agencies have experienced security breaches.
    Additionally, as the Chairman mentioned in his opening 
remarks, the Privacy Rights Clearinghouse disclosed that over 
510 million records containing sensitive personal information 
have been exposed by data breaches since 2005.
    For organizations that possess critical information assets, 
such as customer data, intellectual property, and trade 
secrets, the risk of a data breach is now higher than ever 
before, especially for those organizations that store and 
manage large amounts of personal information. Not only can 
compromises result in the loss of personal data, they also 
undermine customer and institutional confidence. Breaches often 
lead to damage that is financially debilitating to 
organizations, while leaving consumers open to identity theft.
    The root causes of a data breach are of three main types: 
well-meaning insiders, targeted attacks, and malicious 
insiders. In fact, in many cases breaches are caused by a 
combination of these factors. For example, targeted attacks are 
often enabled inadvertently by well-meaning insiders who fail 
to comply with security policies.
    Company employees who inadvertently violate data security 
policies represent the largest population of data breaches. 
Other breaches are as a result of targeted attacks by organized 
crime, which are increasingly aimed at stealing information for 
the purposes of identity theft. Such attacks are often 
automated by using malicious code that can penetrate into an 
organization undetected and export data to remote hacker sites.
    TechAmerica believes that consumers should have the highest 
confidence that any personal information they share with 
government agencies or business entities will remain private 
and secure in a trusted environment. We have long advocated 
that Congress include three essential core elements in data 
security legislation. First of all, the scope should apply 
equally to government and private sector entities that collect, 
maintain, or sell significant numbers of records containing 
sensitive personal information. Second, implementing reasonable 
pre-breach security measures and risk assessments should be 
central to any legislation in order to minimize the likelihood 
of the breach. And third, encryption or other proven security 
measures that render data unreadable or unusable should be a 
key element to establish the risk-based threshold for 
notification.
    TechAmerica strongly supports the Data Security and Breach 
Notification Act. We believe that it's a well-considered piece 
of legislation on a very complex topic. The bill would 
establish a much-needed national law for all holders of 
sensitive personal information, requiring organizations to 
safeguard data and establish uniform notification mechanisms 
when a security breach presents a real risk of harm.
    In addition to protecting consumers, the bill provides a 
clear roadmap for compliance for nearly all businesses by 
requiring organizations to take common sense steps to protect 
personally identifiable information both at rest and in motion. 
This bill prudently promotes reasonable preventative security 
measures, practices, and policies in order to ensure that 
confidentiality and integrity of consumers' personally 
identifiable information is maintained.
    We commend the inclusion of a provision in the bill that 
provides a rebuttable presumption that loss of data has been 
rendered unusable, unreadable, or undecipherable through the 
use of encryption or other acceptable means should not be 
subject to the breach disclosure requirements.
    This is precisely the kind of roadmap to compliance that 
will reduce the burden on consumers and businesses while 
achieving the bill's goal of greater security.
    Finally, it's important to note that, through effective 
preemption, this legislation will unify and simplify the 
existing 46 State data breach laws now in effect, making the 
current patchwork of compliance efforts less burdensome and 
costly.
    In closing, TechAmerica urges Congress to act to enact a 
national data breach law this year.
    Thank you for considering the views of Symantec and 
TechAmerica on this important measure. I'd be happy to answer 
any questions.
    [The prepared statement of Mr. Bregman follows:]

     Prepared Statement of Mark Bregman, Chief Technology Officer, 
 Symantec Corporation on Behalf of Symantec Corporation and TechAmerica

Introduction
    Chairman Pryor, Ranking Member Wicker, members of the Committee, 
good afternoon. Thank you very much for the opportunity to testify here 
today. My name is Mark Bregman and I am the Chief Technology Officer at 
Symantec Corporation. I will be testifying here today on behalf of 
TechAmerica.
    Symantec \1\ is the world's Information security leader with over 
25 years of experience in developing Internet security technology. 
Today we protect more people and businesses from more online threats 
than anyone in the world. Symantec's best-in-class Global Intelligence 
Network \2\ allows us to capture worldwide security intelligence data 
that gives us an unparalleled view of emerging cyber attack trends. We 
utilize over 240,000 attack sensors in 200 countries to track malicious 
activity 24 hours a day, 365 days a year. In short, if there is a class 
of threat on the Internet, Symantec knows about it.
---------------------------------------------------------------------------
    \1\ Symantec is a global leader in providing security, storage and 
systems management solutions to help consumers and organizations secure 
and manage their information-driven world. Our software and services 
protect against more risks at more points, more completely and 
efficiently, enabling confidence wherever information is used or 
stored. More information is available at www.symantec.com.
    \2\ Symantec has established some of the most comprehensive sources 
of Internet threat data in the world through the Symantec Global 
Intelligence Network. This network captures worldwide security 
intelligence data that gives Symantec analysts unparalleled sources of 
data to identify, analyze, deliver protection and provide informed 
commentary on emerging trends in attacks, malicious code activity, 
phishing, and spam. More than 240,000 sensors in 200+ countries monitor 
attack activity through a combination of Symantec products and services 
as well as additional third-party data sources.
---------------------------------------------------------------------------
    TechAmerica \3\ is the leading voice for the U.S. technology 
industry, which is the driving force behind productivity, growth and 
job creation in the United States, as well as the foundation of the 
global innovation economy. Representing approximately 1,500 member 
companies of all sizes, along with their millions of employees from the 
public and commercial sectors, TechAmerica is the industry's largest 
advocacy organization.
---------------------------------------------------------------------------
    \3\ TechAmerica is the technology industry's only grassroots-to-
global advocacy network, with offices in state capitals around the 
United States, Washington, D.C., Europe (Brussels) and Asia (Beijing). 
TechAmerica was formed by the merger of AeA (formerly the American 
Electronics Association), the Cyber Security Industry Alliance (CSIA), 
the Information Technology Association of America (ITAA) and the 
Government Electronics & Information Association (GEIA).
---------------------------------------------------------------------------
    Further, TechAmerica's CxO Council is the only advocacy group 
dedicated to ensuring the privacy, reliability and integrity of 
information systems through public policy, technology, education and 
awareness. The Council is led by CEOs of the world's top security 
providers who offer the technical expertise, depth and focus needed to 
encourage a better understanding of security issues. A comprehensive 
approach to ensuring the security and resilience of information systems 
is fundamental to global protection, national security and economic 
stability.

The Recent Proliferation of Data Breaches
    TechAmerica appreciates the opportunity to discuss the serious 
issue of data security. For organizations that have critical 
information assets such as customer data, intellectual property, trade 
secrets, and proprietary corporate data, the risk of a data breach is 
now higher than ever before. In fact, more electronic records were 
breached in 2008 than in the previous 4 years combined.\4\
---------------------------------------------------------------------------
    \4\ Verizon Business Risk Team, 2009 Data Breach Investigations 
Report.
---------------------------------------------------------------------------
    Identity theft continues to be a high-profile security issue. In a 
recent survey, 65 percent of U.S.-based poll respondents said that they 
were either ``very concerned'' or ``extremely concerned'' about 
identity theft.\5\ Furthermore, 100 percent of enterprise-level 
respondents surveyed for the Symantec State of Enterprise Security 
Report 2010 experienced loss or theft of data.\6\ The danger of data 
breaches is of particular importance for organizations that store and 
manage large amounts of personal information. Not only can compromises 
that result in the loss of personal data undermine customer and 
institutional confidence, result in costly damage to an organization's 
reputation, and result in identity theft that may be costly for 
individuals to recover from, they can also be financially debilitating 
to organizations.\7\ In 2009, the average cost per incident of a data 
breach in the United States was $6.75 million, which is slightly higher 
than the average for 2008. Considering that the average cost per 
incident has also been rising in recent years (having risen from $4.5 
million in 2005, for example), it is reasonable to assume that average 
costs will continue to rise in coming years. Reported costs of lost 
business ranged from $750,000 to $31 million.\8\
---------------------------------------------------------------------------
    \5\ http://arstechnica.com/security/news/2009/10/americans-fear-
online-robberies-more-than-meatspace-muggings.ars.
    \6\ http://www.symantec.com/content/en/us/about/presskits/
SES_report_Feb2010.pdf.
    \7\ http://www.wired.com/threatlevel/2009/11/
pos?utm_source=feedburner&utm_medium=
feed&utm_campaign=Feed%3A+wired%2Findex+%28Wired%3A+Index+3+%28Top+Stori
es+2%
29%29.
    \8\ http://www.encryptionreports.com/download/
Ponemon_COB_2009_US.pdf.
---------------------------------------------------------------------------
    Over the past several years, the frequency and severity of 
significant database security breaches has increased dramatically as 
well as the costs of responding to such incidents. One recent survey 
found that nearly 80 to 90 percent of Fortune 500 companies and 
government agencies have experienced security breaches. The stakes are 
high for consumers and getting higher all the time. Hardly a week 
passes without a news story about the theft of personal data from a 
computer database of a major company or organization. According to the 
Privacy Rights Clearinghouse, since 2005, over 365 million records 
containing sensitive personal information have been exposed by database 
breaches at companies and organizations that keep such information.
    The Identity Theft Resource Center (ITRC) reports that the number 
of personal records--data such as Social Security numbers, medical 
records and credit card information tied to an individual--that hackers 
exposed has skyrocketed to 220 million records in 2009, compared with 
35 million in 2008. That represents the largest collection of lost data 
on record. Symantec's 2010 Internet Security Threat Report also found 
that 60 percent of the data records exposed were compromised as a 
result of hacking, up from 22 percent in 2008.

Why Data Breaches Happen
    While the continuing onslaught of data breaches is well documented, 
what is far less understood is why data breaches happen and what can be 
done to prevent them. In order to prevent a data breach, it is 
essential to understand why they occur. Third-party research into the 
root causes of data breaches, gathered from the Verizon Business Risk 
Team \9\ and the Open Security Foundation,\10\ reveals three main 
types: well-meaning insiders, targeted attacks, and malicious insiders. 
In many cases, breaches are caused by a combination of these factors. 
For example, targeted attacks are often enabled inadvertently by well-
meaning insiders who fail to comply with security policies, which can 
lead to a breach.\11\
---------------------------------------------------------------------------
    \9\ Ibid.
    \10\ http://datalossdb.org/
    \11\ Verizon Business Risk Team, op. cit.
---------------------------------------------------------------------------
Well-Meaning Insiders
    Company employees who inadvertently violate data security policies 
represent the largest population of data breaches. According to the 
Verizon report, 67 percent of breaches in 2008 were aided by 
``significant errors'' on the part of well-meaning insiders.\12\ In a 
2008 survey of 43 organizations that had experienced a data breach, the 
Ponemon Institute found that over 88 percent of all cases involved 
incidents resulting from insider negligence.\13\ An analysis of 
breaches caused by well-meaning insiders yields five main types:
---------------------------------------------------------------------------
    \12\ Ibid.
    \13\ Ponemon Institute, 2008 Annual Study: Cost of a Data Breach, 
February 2009.

  <bullet> Data exposed on servers and desktops. Daily proliferation of 
        sensitive information on unprotected servers, desktops, and 
        laptops is the natural result of a highly productive workforce. 
        Perhaps the most common type of data breach occurs when well-
        meaning insiders, unaware of corporate data security policies, 
        store, send, or copy sensitive information unencrypted. In the 
        event a hacker gains access to a network, confidential files 
        stored or used without encryption are vulnerable and can be 
        captured by hackers. As a result of data proliferation, most 
        organizations today have no way of knowing how much sensitive 
        data exists on their systems. Systems that held data the 
        organization did not know was stored on them accounted for 38 
        percent of all breaches in 2008--and 67 percent of the records 
        breached.\14\
---------------------------------------------------------------------------
    \14\ Verizon Business Risk Team, op. cit.

  <bullet> Lost or stolen laptops. The 2008 Ponemon Institute study 
        found that lost laptops were the top cause of data breaches, 
        representing 35 percent of organizations polled.\15\ In a 
        typical large enterprise, missing laptops are a weekly 
        occurrence. Even when such cases do not result in identity 
        theft, data breach disclosure laws make lost laptops a source 
        of public embarrassment and considerable expense.
---------------------------------------------------------------------------
    \15\ Ponemon Institute, op. cit.

  <bullet> E-mail, web mail, and removable devices. Risk assessments 
        performed by Symantec for prospective customers show that on 
        average approximately one in every 400 e-mail messages contains 
        unencrypted confidential data.\16\ Such network transmissions 
        create significant risk of data loss. In a typical scenario, an 
        employee sends confidential data to a home e-mail account or 
        copies it to a memory stick or CD/DVD for weekend work. In this 
        scenario, the data is exposed to attack both during 
        transmission and on the potentially unprotected home system or 
        removable media device.
---------------------------------------------------------------------------
    \16\ Symantec Data Loss Prevention Risk Assessments.

  <bullet> Third-party data loss incidents. Business relationships with 
        third-party business partners and vendors often require the 
        exchange of confidential information such as with a 401(k) 
        plan, outsourced payment processing, supply chain order 
        management, and many other types of operational data. When data 
        sharing is overly extensive or when partners fail to enforce 
        data security policies, the risk of data breaches increases. 
        The Verizon report implicated business partners in 32 percent 
        of all data breaches.\17\
---------------------------------------------------------------------------
    \17\ Verizon Business Risk Team, op. cit.

  <bullet> Automated business processes. One reason for proliferation 
        of confidential data is that inappropriate or out-of-date 
        business processes automatically distribute such data to 
        unauthorized individuals or unprotected systems, where it can 
        be easily captured by hackers or stolen by malicious insiders. 
        Onsite risk assessments by Symantec find that in nearly half of 
        these cases, outdated or unauthorized business processes are to 
        blame for exposing sensitive data on a routine basis.

Targeted Attacks
    In today's connected world--where data is everywhere and the 
perimeter can be anywhere--protecting information assets from 
sophisticated hacking techniques is an extremely tough challenge. 
Driven by the rising tide of organized cyber-crime, targeted attacks 
are increasingly aimed at stealing information for the purpose of 
identity theft. More than 90 percent of records breached in 2008 
involved groups identified by law enforcement as organized crime.\18\ 
Such attacks are often automated by using malicious code that can 
penetrate into an organization undetected and export data to remote 
hacker sites.
---------------------------------------------------------------------------
    \18\ Ibid.
---------------------------------------------------------------------------
    What makes large scale data breaches so dangerous is that modern 
organized crime has developed efficient mechanisms for the sale and 
wide spread distribution of large quantities of identities and personal 
financial information. In 2008, Symantec created more than 1.6 million 
new malicious code signatures--more than in the previous 17 years 
combined--and blocked on average 245 million attempted malicious code 
attacks worldwide per month.\19\ Measured by records compromised, by 
far the most frequent types of hacker attacks in 2008 were unauthorized 
access using default or shared credentials, improperly constrained 
access control lists (ACLs), and Structured Query Language (SQL) 
injection attacks.\20\ In addition, 90 percent of lost records were 
attributed to the deployment of malware.\21\ The first phase of the 
attack, the initial incursion, is typically perpetrated in one of four 
ways:
---------------------------------------------------------------------------
    \19\ Symantec Internet Security Threat Report XIV.
    \20\ Verizon Business Risk Team, op. cit.
    \21\ Ibid.

  <bullet> System vulnerabilities. Many times laptops, desktops and 
        servers do not have the latest security patches deployed, which 
        creates a gap in an overall security posture. Gaps or system 
        vulnerabilities can also be created by improper computer or 
        security configurations. Cybercriminals search for and exploit 
        these weaknesses in order to gain access to the corporate 
---------------------------------------------------------------------------
        network and confidential information.

  <bullet> Improper credentials. Passwords on Internet-facing systems 
        such as e-mail, Web, or FTP servers are often left on factory 
        default settings, which are easily obtained by hackers. Under-
        constrained or outdated ACLs provide further opportunities for 
        both hackers and malicious insiders.

  <bullet> Structured Query Language (SQL) injection. By analyzing the 
        URL syntax of targeted websites, hackers are able to embed 
        instructions to upload spyware that gives them remote access to 
        the target servers.

  <bullet> Targeted malware. Hackers use spam, e-mail and instant 
        message communications often disguised as being from known 
        entities to direct users to websites that are compromised with 
        malware. Once a user visits a compromised website, malware can 
        be downloaded with or without the user's knowledge. Gimmicks 
        such as free software often deceive users into downloading 
        spyware that can be used to monitor user activity on the web 
        and capture frequently used credentials such as corporate 
        logins and passwords. Remote access tools (RATs) are an example 
        of spyware that is automatically downloaded to a user's machine 
        without their knowledge, silently providing the hacker control 
        of the user's computer and access to corporate information from 
        a remote location.

The Malicious Insider
    Malicious insiders constitute drivers for a growing segment of data 
breaches, and a proportionately greater segment of the cost to business 
associated with those breaches. The Ponemon study found that data 
breaches involving negligence cost $199 per record, whereas those 
caused by malicious acts cost $225 per record.\22\ Breaches caused by 
insiders with intent to steal information fall into four groups:
---------------------------------------------------------------------------
    \22\ Ponemon Institute, op. cit.

  <bullet> White collar crime. The employee who knowingly steals data 
        as part of an identity theft ring has become a highly notorious 
        figure in the current annals of white collar crime. Such 
        operations are perpetrated by company insiders who abuse their 
        privileged access to information for the purpose of personal 
---------------------------------------------------------------------------
        gain.

  <bullet> Terminated employees. Given the current economic crisis--
        where layoffs are a daily occurrence--data breaches caused by 
        disgruntled former employees have become commonplace. Often, 
        the employee is notified of his or her termination before 
        entitlements such as Active Directory and Exchange access have 
        been turned off, leaving a window of opportunity for the 
        employee to access confidential data and e-mail it to a private 
        account or copy it to removable media. A recent study of the 
        effects of employee terminations on data security revealed that 
        59 percent of ex-employees took company data, including 
        customer lists and employee records.\23\
---------------------------------------------------------------------------
    \23\ Ponemon Institute, ``Data Loss Risks During Downsizing: As 
Employees Exit, So Does Corporate Data,'' 2008.

  <bullet> Career building with company data. It is common for an 
        employee to store company data on a home system in order to 
        build a library of work samples for future career 
        opportunities. While the motives for such actions may not be 
        considered malicious on the order of identity theft, the effect 
        can be just as harmful. If the employee's home system is hacked 
        and the data stolen, the same damage to the company and its 
---------------------------------------------------------------------------
        customers can ensue.

  <bullet> Industrial espionage. The final type of malicious insider is 
        the unhappy or underperforming employee who plans to defect to 
        the competition and sends examples of his or her work to a 
        competing company as part of the application and review 
        process. Product details, marketing plans, customer lists, and 
        financial data are all liable to be used in this way.

Data Breaches That Could Lead to Identity Theft, by Sector
    Using publicly available data, Symantec was able to determine the 
sectors that were most often affected by breaches and the most common 
causes of data loss.\24\ Using the same data, we also explored the 
severity of each breach in question by measuring the total number of 
identities exposed to attackers.\25\
---------------------------------------------------------------------------
    \24\ Open Security Foundation (OSF) Dataloss DB, see http://
datalossdb.org.
    \25\ An identity is considered to be exposed if personal or 
financial data related to the identity is made available through the 
data breach.
---------------------------------------------------------------------------
    It should be noted that some sectors might need to comply with more 
stringent reporting requirements for data breaches than others. For 
instance, government organizations are more likely to report data 
breaches, either due to regulatory obligations or in conjunction with 
publicly accessible audits and performance reports.\26\ Conversely, 
organizations that rely on consumer confidence may be less inclined to 
report such breaches for fear of negative consumer, industry, or market 
reaction. As a result, sectors that are not required or encouraged to 
report data breaches are consistently under-represented.
---------------------------------------------------------------------------
    \26\ Please see http://www.privacyrights.org/fs/fs6a-facta.htm and 
http://www.cms.hhs.gov/HealthPlansGenInfo/12_HIPAA.asp.
---------------------------------------------------------------------------
    The education sector accounted for the highest number of known data 
breaches that could lead to identity theft, accounting for 20 percent 
of the total. This was a decrease from 27 percent in 2008, when the 
education sector also ranked first. Institutions in the education 
sector often store a wide range of personal information belonging to 
students, faculty, and staff. This information may include government-
issued identification numbers, names, or addresses that could be used 
for identity theft. Finance departments in these institutions also 
store bank account information for payroll purposes and may hold credit 
card information for people who use this method to pay for tuition and 
fees.
    Educational institutions are faced with the difficult task of 
standardizing and enforcing security across dispersed locations, as 
well as educating everyone with access to the data on the security 
policies. This may increase the opportunities for an attacker to gain 
unauthorized access to data because there are multiple points of 
potential security weakness or failure.
    Although the education sector accounted for the largest percentage 
of data breaches in 2009, those breaches accounted for less than 1 
percent of all identities exposed during the reporting period and 
ranked fourth. This is similar to 2008, when a significant percentage 
of breaches affected the education sector, but only accounted for 4 
percent of all identities exposed that year. This is mainly attributed 
to the relatively small size of data bases at educational institutions 
compared to those in the financial or government sectors. Each year, 
even the largest universities in the United States only account for 
students and faculty numbering in the tens of thousands, whereas 
financial and government institutions store information on millions of 
people.\27\ As such, data breaches in those sectors can result in much 
larger numbers of exposed identities.
---------------------------------------------------------------------------
    \27\ http://www.osu.edu/osutoday/stuinfo.php.
---------------------------------------------------------------------------
    In 2009, the health care sector ranked second, accounting for 15 
percent of data breaches that could lead to identity theft. In 2008, 
this sector also accounted for 15 percent, but ranked third. This rise 
in rank is most likely due to the decreased percentage of breaches that 
could lead to identity theft in the government sector. The health care 
sector accounted for less than 1 percent of exposed identities in 
2009--a decrease from 5 percent in 2008. Like the education sector, 
health care institutions store data for a relatively small number of 
patients and staff compared to some organizations in the financial and 
government sectors.
    Additionally, health care organizations often store information 
that may be more sensitive than that stored by organizations in other 
sectors and this may be a factor in the implementation of certain 
regulatory measures. For instance, as of 2010, greater responsibility 
for data breaches will be enforced for health care organizations in 
United States because of regulations introduced by the Health 
Information Technology for Economic and Clinical Health Act 
(HITECH).\28\
---------------------------------------------------------------------------
    \28\ http://findarticles.com/p/articles/mi_hb4365/is_21_42/
ai_n47569144/.
---------------------------------------------------------------------------
    The government sector accounted for 13 percent of breaches that 
could lead to identity theft in 2009 and ranked third. This is a 
decrease from 20 percent in 2008, when the government sector ranked 
second. Although the percentage of these breaches has decreased in 
recent years, they account for a larger percentage of exposed 
identities. In 2009, data breaches in the government sector exposed 35 
percent of reported identities exposures, an increase from 17 percent 
in 2008.
    The increase in percentage of identity exposures in the government 
sector is primarily due to a breach attributed to insecure policy from 
the National Archives and Records Administration in the United 
States.\29\ A faulty hard drive containing unencrypted personal 
information on 76 million military veterans was sent to a third-party 
electronics recycler without first removing the data. This was the 
largest ever exposure of personal information by the U.S. Government. 
Earlier in 2009, another hard drive belonging to the National Archives 
and Records Administration was either lost or stolen; it is believed to 
have contained highly sensitive information about White House and 
Secret Service operating procedures, as well as data on more than 
100,000 officials from the Clinton Administration.\30\
---------------------------------------------------------------------------
    \29\ http://www.wired.com/threatlevel/2009/10/probe-targets-
archives-handling-of-data-on-70-million-vets/.
    \30\ http://fcw.com/Articles/2009/05/20/Web-NARA-missing-hard-
drive.aspx.
---------------------------------------------------------------------------
    The financial sector was subject to one of the most notable data 
breaches reported in 2009. This sector ranked fifth for breaches with 
10 percent of the total, but accounted for the largest number of 
identities exposed with 60 percent. The majority of this percentage was 
the result of a successful hacking attack on a single credit card 
payment processor.\31\ The attackers gained access to the company's 
payment processing network using an SQL-injection attack. They then 
installed malicious code designed to gather sensitive information from 
the network on the compromised computers, which also allowed them to 
easily access the network at their convenience. The attack resulted in 
the theft of approximately 130 million credit card numbers. An 
investigation began when the company began receiving reports of 
fraudulent activity on credit cards that the company itself had 
processed. The attackers were eventually tracked down and charged by 
Federal authorities.
---------------------------------------------------------------------------
    \31\ http://voices.washingtonpost.com/securityfix/2009/01/
payment_processor_breach_may
_b.html.
---------------------------------------------------------------------------
    Notably, one of the hackers was Albert ``Segvec'' Gonzalez, who had 
been previously convicted of other attacks. He plead guilty to 19 
counts of conspiracy, wire fraud and aggravated identity theft charges 
in March 2010 and was sentenced to serve up to 25 years in prison. He 
had also worked as an FBI informant at one point, providing information 
about the underground economy.\32\ These attacks and the events 
surrounding them are referenced in the Symantec Report on the 
Underground Economy.\33\
---------------------------------------------------------------------------
    \32\ See http://www.wired.com/threatlevel/2009/12/gonzalez-
heartland-plea/ and http://yro.
slashdot.org/article.pl?sid=10/03/26/124256.
    \33\ http://eval.symantec.com/mktginfo/enterprise/white_papers/b-
whitepaper_underground
_economy_report_11-2008-14525717.en-us.pdf.
---------------------------------------------------------------------------
    This attack is evidence of the significant role that malicious code 
can play in data breaches. Although data breaches occur due to a number 
of causes, the covert nature of malicious code is an efficient and 
enticing means for attackers to remotely acquire sensitive information. 
Furthermore, the frequency of malicious code threats that expose 
confidential information, underscores the significance of identity 
theft to attackers who author and deploy malicious code.
Practical Security Considerations to Avoid a Security Breach
    While a company's information security system may be unique to its 
situation, there are recognized basic components of a comprehensive, 
multi-layered program to protect personal information from unauthorized 
access. At the outset, companies should review their privacy and 
security policies and inventory records systems, critical computing 
systems, and storage media to identify those containing personal 
information.
    It is important to categorize personal information in records 
systems according to sensitivity. Based on those classifications, 
physical and technological security safeguards must be established to 
protect personal information, particularly higher-risk information such 
as Social Security numbers, driver's license numbers, financial account 
numbers, and any associated passwords and PIN numbers, as well as 
health information. This involves establishing policies that provide 
employees with access to only the specific categories of personal 
information their job responsibilities require, use technological means 
to restrict access to specific categories of personal information, 
monitor employee access to higher-risk personal information, and remove 
access privileges of former employees and contractors immediately.
    Companies should promote awareness of security and privacy policies 
through ongoing employee training and communications. They should also 
require third-party service providers and business partners that handle 
personal information on behalf of the company to follow specified 
security procedures. This can be accomplished by making privacy and 
security obligations of third parties enforceable by contract. 
Internally, companies must employ the use of intrusion-detection 
technology to ensure rapid detection of unauthorized access to higher-
risk personal information and, wherever feasible, must use data 
encryption, in combination with host protection and access control, to 
protect sensitive information. Data encryption should meet the National 
Institute of Standards and Technology's Advanced Encryption Standard. 
Companies should also dispose of records and equipment containing 
personal information in a secure manner, such as shredding paper 
records and using a program to ``wipe'' and overwrite the data on hard 
drives.

TechAmerica's Federal Data Security Legislative Principles
    TechAmerica believes that consumers should have confidence that any 
personal information they provide to government agencies or business 
entities will remain private and secure, and we consider privacy and 
security to be key components of business operations for the public and 
private sectors. We have advocated for three essential elements to any 
data security and breach notification bill:

        1. Data security legislation should apply equally to all. The 
        scope of the legislation should include all entities that 
        collect, maintain, or sell significant numbers of records 
        containing sensitive personal information. Requirements should 
        impact government and the private sector equally, and should 
        include educational institutions and charitable organizations 
        as well.

        2. Implementing pre-breach security measures should be central 
        to any legislation. An ounce of prevention is worth a pound of 
        cure. New legislation should not simply require notification of 
        consumers in case of a data breach. It should also require 
        reasonable security measures to ensure the confidentiality and 
        integrity of sensitive personal information in order to 
        minimize the likelihood of a breach. New legislation should not 
        direct the creation of new standards, but draw upon existing 
        standards set out under Gramm-Leach-Bliley, the Fair Credit 
        Reporting Act, and industry-developed standards such as the 
        Payment Card Data Security Standard and ISO 27001. Directing 
        the creation of new standards could unnecessarily create 
        conflicting or duplicative standards, increasing the burden on 
        business and increasing confusion for consumers.

        3. The use of encryption or other security measures that render 
        data unreadable and unusable should be a key element in 
        establishing the threshold for the need for notification. Any 
        notification scheme should minimize ``false positives.'' A 
        clear reference to the ``usability'' of information should be 
        considered when determining whether notification is required in 
        case of a breach. Consistent with the position of consumer and 
        financial groups, TechAmerica believes a provision similar to 
        California's SB 1386 promoting the voluntary use of encryption 
        as a best practice without a mandate would significantly reduce 
        the number of ``false positives,'' reducing the burden on 
        consumers and business.

Additional Federal Data Breach Public Policy Issues
    TechAmerica recognizes that there are a number of other critical 
issues to the data security debate. These are issues on which we may be 
called to give an opinion, but are not issues that are TechAmerica's 
top priorities. They may, however, be critical to whether a bill gets 
enacted, and are therefore important to TechAmerica.

        1. Enforcement. Enforcement should be by the Federal functional 
        regulators. TechAmerica would acknowledge that the State 
        Attorneys General could enforce data notification requirements 
        on entities that do not have a Federal functional regulator. 
        Entities already covered by a Federal law such as the Health 
        Insurance Portability and Accountability Act, Fair Credit 
        Reporting Act, or the Gramm-Leach-Bliley Act, would not need to 
        be additionally covered by a new law.

        2. Pre-emption. New legislation should preempt relevant State 
        and local laws and regulation. In the absence of such a 
        provision, multiple conflicting standards for security and 
        notification will emerge, unnecessarily increasing the burden 
        on business and confusing consumers.

        3. Information Broker. Special provisions for information 
        brokers have emerged in data breach legislation over the last 
        few Congresses. This was in large part a response to the 
        scandal involving ChoicePoint a number of years ago. Any 
        special Information Broker provisions should be carefully 
        targeted to those engaged in the data broker business, which 
        have otherwise slipped through the cracks of laws such as the 
        Gramm-Leach-Bliley Act and the Fair Credit Reporting Act. Where 
        there is a gap in regulation, it should be filled; but 
        overlapping requirements are counter-productive. Particular 
        care must be taken not to inadvertently sweep in companies 
        collecting information in the normal course of business, such 
        as businesses monitoring their own websites. In general, we 
        believe information broker provisions are not core to an 
        effective data security and breach notice bill, and therefore 
        should be dropped, as they have become a complication and 
        impediment to the enactment of a bill. We think this provision 
        certainly merits further analysis and may warrant legislation 
        as a separate bill.

        4. Public Records. A breach notice should not be required for a 
        breach involving only information that is already publicly 
        available. This is a related issue to the issue of the 
        ``threshold'' for notice.

The Data Security and Breach Notification Act of 2010
    Mr. Chairman, I commend you and Chairman Rockefeller for your 
leadership in addressing the pervasive threat of data breaches through 
the introduction of the Data Security and Breach Notification Act (S. 
3742). TechAmerica strongly supports this legislation which, if 
enacted, would establish a much-needed national law for all holders of 
sensitive personal information requiring organizations to safeguard 
data and establish uniform notification requirements when a security 
breach presents a risk of harm. We urge the Committee to expedite 
passage of this important legislation in order to create a strong, 
uniform national data breach notification law.
    The Data Security and Breach Notification Act is a well-considered 
piece of legislation on a complex topic. The bill not only protects 
consumers in that it requires nearly all businesses to take steps to 
protect personally identifiable information at rest and in motion. The 
legislation prudently promotes reasonable, preventative security 
measures, practices and policies to ensure the confidentiality and 
integrity of consumers' personal identifiable information.
    Besides providing extensive consumer protection, the Data Security 
and Breach Notification Act also provides businesses a reasonable 
``rebuttable presumption'' by declaring loss of data that is 
``unusable, unreadable, or indecipherable'' by the use of encryption or 
other technology, not subject to the breach disclosure requirements. 
This bill also, of course, will unify the existing 47 state data breach 
bills now in effect. TechAmerica believes that the Data Security and 
Breach Notification Act effectively addresses several key areas 
necessary to secure consumer sensitive personal information, 
specifically:

        1. Federal Pre-emption. S. 3742 would preempt relevant State or 
        local laws or regulation. In the absence of such a provision, 
        multiple conflicting standards for notification will emerge, 
        unnecessarily increasing the burden on business and confusing 
        consumers. Without Federal pre-emption, businesses will 
        continue to face a web of potentially conflicting breach 
        notification requirements in forty-six states. TechAmerica 
        believes that your bill takes the appropriate approach to pre-
        emption.

        2. Scope. A breach notification requirement should apply to any 
        agency or person, as defined in Title V of the U.S. Code, who 
        owns or licenses computerized data containing the sensitive 
        personal information of others and should not be limited to 
        ``data brokers.'' Legislation should address ``gaps'' in 
        existing laws related to the security of personal information, 
        not add another layer on those already bound by an existing 
        Federal law. Security breaches have been confirmed in a variety 
        of organizations, ranging from data brokers, to banks, 
        hospitals, educational institutions and other large employers. 
        TechAmerica believes that S. 3742 is generally applicable to 
        the correct scope of persons and organizations. Some 
        clarification may be necessary on the carve-out for those bound 
        by another Federal law.

        3. Reasonable Security Practices. S. 3742 goes beyond simple 
        notification requirements to consumers in case of data breach; 
        it importantly also requires reasonable security measures to 
        ensure the confidentiality and integrity of sensitive personal 
        information. For data breach legislation to be effective in 
        safeguarding consumers' sensitive information, all business 
        entities operating in the U.S., as well as Federal and state 
        agencies, should follow a consistent set of security standards. 
        We note that some Federal laws already exist that require 
        private entities to establish security programs for protecting 
        the privacy and security of consumer information. Legislation 
        should not duplicate or impose conflicting obligations for 
        private entities that already are bound by these Federal data 
        security requirements.

        4. Threshold for Notification. TechAmerica believes that the 
        Data Security and Breach Notification Act's notification 
        requirement will minimize ``false positives.'' The bill's 
        language contains a clear understanding that the ``usability'' 
        of information should be considered when determining whether 
        notification is required in case of a breach. Consistent with 
        the position of consumer groups and the financial services 
        sector, TechAmerica believes a provision similar to CA's SB 
        1386 promoting the voluntary use of encryption as a best 
        practice without specifically mandating it would significantly 
        reduce the number of ``false positives,'' reducing the burden 
        on consumers and business. TechAmerica applauds the inclusion 
        of section 3(f), which creates a presumption that, when used 
        properly, encryption can provide a strong tool to prevent the 
        misuse of personal information. S. 3742 also prudently 
        recognizes the use of redaction, truncation or other methods of 
        rendering data unreadable or unusable as a best practice 
        without creating a technology mandate.

        5. Global Harmonization. The passage of S. 3742 will also have 
        important implications internationally as it is likely to form 
        the basis upon which the Federal Trade Commission will commence 
        negotiations to create consistency in breach regulations with 
        the European Union. The European Union continues to lead the 
        way in enforcing some of the most stringent privacy regulations 
        on the Internet. With regulators in Europe moving ahead on 
        their plans to provide even more privacy safeguards for their 
        citizens, it's critical that U.S. regulators finalize the data 
        breach requirements so they can focus on some of the more 
        current issues.

Conclusions
    TechAmerica urges Congress to enact a national data breach bill 
this year for several key reasons:

  <bullet> Identity Theft Tops the Federal Trade Commission's List of 
        U.S. Consumers Complaints: The increasing number of data 
        breaches is a major threat to privacy, consumers' identities 
        and our Nation's economic stability. Data bases of sensitive 
        personal information are prime targets of hackers, identity 
        thieves and rogue employees as well as organized criminal 
        operations. According to the Better Business Bureau identity 
        theft affects an estimated 10 million U.S. victims per year. 
        For the ninth year in a row, identity theft tops the list of 
        complaints that consumers filed with the Federal Trade 
        Commission.

  <bullet> Massive Data Leakage Will Continue Unless the Public and 
        Private Sectors are Required by Congress to Implement Strong 
        Security Measures to Prevent Breaches: According to the non-
        partisan Privacy Rights Clearinghouse, a staggering 365 million 
        records containing sensitive personal information have been 
        breached since 2005. Congressional action is urgently needed to 
        ensure the security and resilience of information systems 
        fundamental to consumer confidence, homeland security, e-
        commerce and economic growth.

  <bullet> Data Breaches Continue to Undermine Consumer Confidence in 
        the Internet for E-Commerce: Consumers are beginning to rethink 
        doing business online--and with good reason. In the wake of 
        massive data breaches at businesses, educational institutions 
        and medical facilities, consumers are modifying their 
        purchasing behavior, including online buying, out of concern 
        for the security of their personal information. The 2007 
        Consumer Survey on Data Security from Vontu and the Ponemon 
        Institute found that 62 percent of respondents have been 
        notified that their confidential data has been lost. 84 percent 
        of those respondents reported increased concern or anxiety due 
        to data loss events. These data breaches have had a direct 
        impact on consumer buying behavior, including reluctance to use 
        their credit or debit card to make a purchase with a Web 
        merchant they don't know, and unwillingness to provide their 
        Social Security number online. Congress needs to act to stop 
        the erosion of public trust in the Internet.

  <bullet> The Increasingly Expensive Financial Impact of Data Breaches 
        on Business and Government: In 2008, the average cost per 
        incident of a data breach in the United States was $6.7 
        million, an increase of 5 percent from 2007, and lost business 
        amounted to an average of $4.6 million.

  <bullet> A Pre-emptive, National Data Security Law Makes Compliance 
        Less Burdensome: Currently, businesses with nation-wide 
        operations face a challenging patchwork quilt of state data 
        breach laws regarding both steps required to safeguard personal 
        data as well as steps to be taken in the event of a breach. 
        With regard specifically to post-breach notifications, 46 
        states, the District of Columbia, Puerto Rico and the Virgin 
        Islands all have enacted their own data breach laws requiring 
        notification of security breaches involving personal 
        information. Therefore, for large enterprises, which are also 
        subject to complex Federal rules such as HIPAA, data security 
        planning can be a daunting undertaking making compliance a 
        difficult and burdensome.

    In conclusion, TechAmerica believes that the United States urgently 
needs to pass a national data breach law. We urge the Committee to 
expeditiously approve S. 3742, The Data Security and Breach 
Notification Act.
    TechAmerica appreciates the opportunity to testify today. Thank you 
for considering TechAmerica's views on this important measure. I'd be 
happy to answer any questions the Committee may have at this time.

    Senator Pryor. Thank you.
    Ms. Rusu.

           STATEMENT OF IOANA RUSU, POLICY COUNSEL, 
                        CONSUMERS UNION

    Ms. Rusu. Good afternoon, Chairman Pryor, Ranking Member 
Wicker, and distinguished members of the Subcommittee. My name 
is Ioana Rusu, Policy Counsel for Consumers Union, the 
nonprofit publisher of Consumer Reports. We appreciate this 
opportunity to share our perspective on the Data Security and 
Breach Notification Act of 2010.
    In January of this year, over 600,000 Citigroup customers 
were shocked to discover that their Social Security numbers had 
been printed on the outside of envelopes containing annual tax 
statements. In July, a Lincoln National Life Insurance vendor 
made available on its public website a user name and password 
for agents and authorized brokers. The log-in information 
allowed access to anyone to medical records, Social Security 
numbers, addresses, policy numbers, and driver's license 
numbers of individuals seeking life insurance. Only last June, 
in one of the largest data security breaches recorded, 
malicious spyware compromised around 130 million credit card 
transactions processed by Heartland Payment Systems, a U.S. 
payments processing company.
    These incidents are not unique or isolated. Almost every 
day new data breach incidents lead to identity theft, lost 
revenue, and decreased consumer confidence in the marketplace. 
Sometimes these incidents affect 10 or 20 consumers. At other 
times the private information of hundreds of millions of 
Americans is compromised.
    The ubiquity of security breach incidents today renders the 
Data Security and Breach Notification Act of 2010 particularly 
timely and relevant. Consumers Union strongly supports the 
provisions of this bill. I would like to highlight a number of 
the bill's provisions which we believe will best promote 
consumer data privacy.
    First of all, we are pleased that the bill covers not only 
business entities, but also nonprofit organizations, including 
private universities. Consumers face the same risks when their 
information is compromised whether or not the source of the 
compromise is a for-profit entity. As a result, we commend the 
bill's scope. This provision will provide more meaningful 
protection for consumer information.
    In addition, we applaud the bill's notification provisions, 
which require covered entities to provide notice of security 
breach within 60 days. The sooner consumers are made aware of 
the breach, the quicker they can take remedial action such as 
closely monitoring their credit, checking their financial 
statements frequently, placing a Federal fraud alert on their 
credit files, and placing a security freeze on their consumer 
credit files. The instances in which a covered entity may 
exceed the 60-day deadline are appropriate and narrowly 
tailored.
    We also support the bill's requirements that covered 
entities that provide at least 2 years of free credit reports 
or credit monitoring following a notice of breach. Consumers 
should not have to bear the cost of securing personal 
information when a data breach is caused by a company's 
inadequate data security practices.
    The exemption in the bill allowing covered entities to 
avoid the bill's requirements only as long as there is no 
reasonable risk of identity theft, fraud, or other unlawful 
conduct is also narrowly tailored. However, we do have some 
concern that under this bill all data breach incidents 
involving encrypted information, defined in the bill as 
information that has been rendered unusable, unreadable, or 
indecipherable, would automatically be presumed to present no 
reasonable risk of identity theft, fraud, or other unlawful 
conduct. While that may be true in most cases, data that has 
been initially rendered unusable or unreadable can sometimes be 
reconstructed. We encourage the bill's sponsors to address this 
issue by directing the Federal Trade Commission to clearly 
identify which technologies do indeed render consumer data 
indecipherable and unusable.
    We are particularly pleased that the bill focuses on the 
activities of information brokers, defined as commercial 
entities whose business is to collect, assemble, or maintain 
personal information concerning individuals with the purpose of 
selling such information to unaffiliated third parties. We 
agree that information brokers should maximize the accuracy and 
accessibility of their records, as well as provide consumers 
with a process to dispute information. In addition, the 
provisions requiring information brokers to submit their 
security policies to the FTC, as well as to undergo potential 
FTC post-breach audits, will foster accountability and 
enforcement of this bill.
    We strongly favor the provision that permits State 
attorneys general and other officials or agencies of the State 
to bring enforcement actions against any entity that engages in 
conduct violating this bill. High profile cases such as 
ChoicePoint and TJX have demonstrated that State attorneys 
general, in particular, have been at the forefront of notice of 
data breach issues and have played an invaluable role in 
addressing identity theft and data breach. This bill arms State 
officials with strong enforcement tools to ensure compliance 
with the law. Consumers' personal information will be better 
protected.
    In closing, I want to thank you for the opportunity to 
speak before you today in support of the Data Security and 
Breach Notification Act of 2010. Consumers Union appreciates 
the Subcommittee's interest in addressing issues of data 
security and consumer privacy. We believe that the passage of 
this bill will give rise to responsible data security policies 
and will increase consumer confidence in the marketplace.
    Thank you.
    [The prepared statement of Ms. Rusu follows:]

   Prepared Statement of Ioana Rusu, Policy Counsel, Consumers Union

    Good afternoon Chairman Rockefeller, Ranking Member Hutchinson, and 
distinguished members of this Committee. My name is Ioana Rusu, Policy 
Counsel for Consumers Union, the non-profit publisher of Consumer 
Reports. We appreciate the invitation by the Senate Committee on 
Commerce, Science, and Transportation to share our perspective on the 
Data Security and Breach Notification Act of 2010.
    In January of this year, over 600,000 Citigroup customers were 
shocked to discover that that their Social Security numbers had been 
printed on the outside of envelopes containing annual tax statements. 
In July, a Lincoln National Life Insurance vendor printed a user name 
and password for agents and authorized brokers in a brochure, which was 
made readily available on the agent's public website. The login 
information allowed access to a website containing the medical records, 
Social Security numbers, addresses, policy numbers, and driver's 
license numbers of individuals seeking life insurance. And only last 
year, in one of the largest data security breaches recorded, malicious 
spyware compromised around 130 million credit card transactions 
processed by Heartland Payment Systems, a U.S. payments processing 
company.
    These incidents are not unique or isolated. Almost every day, new 
data breach incidents lead to identity theft, lost revenue, and 
decreased consumer confidence in the way their personal information is 
handled in the marketplace. The incidents often occur through 
inadvertent disclosures, physical loss of stored paper or electronic 
records, data theft by company insiders, and data breach by third 
parties through hacking or malware. Sometimes, these incidents affect 
ten or twenty consumers. Other times, the private information of 
hundreds of millions of Americans is compromised.
    The ubiquity of security breach incidents today renders the Data 
Security and Breach Notification Act of 2010 particularly timely and 
relevant. Consumers Union strongly supports the provisions of this 
bill. I would like to highlight a number of the bill's provisions, 
which we believe will best promote consumer data privacy.
    First of all, we are pleased that the bill covers not only business 
entities, but also non-profit organizations, including private 
universities. Personal consumer data must be safeguarded by all those 
to whom it is entrusted, without regard to for-profit or non-profit 
status. Consumers face the same risks when their information is 
compromised, whether or not the source of the compromise is a for-
profit entity. As a result, we commend the bill's scope. This provision 
will provide more meaningful protection for consumer information.
    In addition, we applaud the bill's notification provisions, which 
require covered entities to provide notice of security breach within 60 
days of the breach. The sooner consumers are made aware of the breach, 
the quicker they can take remedial action such as closely monitoring 
their credit, checking their financial statements frequently, placing a 
Federal fraud alert on their credit files, and placing a security 
freeze on their consumer credit files. The instances in which a covered 
entity may exceed the 60-day deadline are appropriate and narrowly 
tailored.
    We also support the bill's requirements that covered entities 
provide at least 2 years of free credit reports or credit monitoring 
following a notice of breach. Consumers should not have to bear the 
costs of securing personal information when a data breach is caused by 
a company's inadequate data security practices.
    The exemption in the bill, allowing covered entities to avoid the 
bill's requirements only as long as there is ``no reasonable risk of 
identity theft, fraud, or other unlawful conduct,'' is also narrowly 
tailored.
    However, we have some concern that, under this bill, all data 
breach incidents involving encrypted information, defined in the bill 
as information that has been rendered ``unusable, unreadable, or 
indecipherable,'' would automatically be presumed to present ``no 
reasonable risk of identity theft, fraud, or other unlawful conduct.'' 
While that may be true in most cases, data rendered ``unusable or 
unreadable'' can sometimes be reconstructed. We encourage the bill's 
sponsors to address this issue by directing the Federal Trade 
Commission to clearly identify which technologies do, indeed, render 
consumer data indecipherable and unusable.
    We also support the bill's definition of ``personally identifiable 
information,'' which includes not only an individual's name, in 
combination with one other listed data element, but also an 
individual's address or phone number, combined with one of the listed 
data elements. We believe including an individual's address and phone 
number is important due to the use of reverse search directories, which 
can reveal the person's name as long as an address or phone number is 
provided.
    We are particularly pleased that the bill focuses on the activities 
of information brokers, defined as commercial entities whose business 
is to collect, assemble, or maintain personal information concerning 
individuals with the purpose of selling such information to 
unaffiliated third parties. We strongly support the provisions 
instructing information brokers to maximize the accuracy and 
accessibility of their records, as well as to provide consumers with a 
process to dispute information. In addition, the provisions requiring 
information brokers to submit their security policies to the FTC, as 
well to undergo potential FTC post-breach audits, will foster 
accountability and enforcement of this bill.
    We strongly favor the provision that permits State Attorneys 
General and other officials or agencies of the state to bring 
enforcement actions against any entity that engages in conduct 
violating the bill. High-profile cases such as ChoicePoint and TJX have 
demonstrated that state attorneys general, in particular, have been at 
the forefront of notice of data breach issues, and have played an 
invaluable role in addressing identity theft and data breach. This bill 
arms state officials with strong enforcement tools to ensure compliance 
with the law. Consumers' personal information will be better protected.
    In closing, I want to thank you for the opportunity to speak before 
you today in support of the Data Security and Breach Notification Act 
of 2010. Consumers Union appreciates this committee's interest in 
addressing issues of data security and consumer privacy. We believe 
that the passage of this bill will give rise to responsible data 
security policies and will increase consumer confidence in the 
marketplace.

    Senator Pryor. Thank you.
    Mr. Pratt.

       STATEMENT OF STUART K. PRATT, PRESIDENT AND CEO, 
               CONSUMER DATA INDUSTRY ASSOCIATION

    Mr. Pratt. Chairman Pryor and Ranking Member Wicker: thank 
you for this opportunity to discuss S. 3742. Today my testimony 
will focus on the value of our members' products, the 
sufficiency of current laws which regulate them, and specific 
comments on the bill.
    The use of our members' products protects consumers from 
criminal acts, such as identity theft, and ensure that they are 
treated fairly in the marketplace. Beneficial uses include 
preventing money laundering, making fair and sound underwriting 
decisions, researching fugitives, reducing government 
entitlement fraud, ensuring that pedophiles don't work in day 
care centers, and improving disaster assistance responses and 
services to victims.
    With these uses in mind, let me turn to the relevant 
Federal laws which are on the books today. The U.S. is at the 
forefront of establishing sector-specific laws regulating the 
uses of personal information of many types. The list of laws is 
extensive, but let me focus on two of these in greater detail.
    First, the Fair Credit Reporting Act regulates any use of 
personal information which is used to make decisions, such as 
approval of a credit application. Due to the fact that data 
regulated by the FCRA is used to make decisions, the law 
provides consumers with a full complement of rights, such as 
access, correction, as well as receiving notices regarding 
adverse action in risk-based decisions. Further, furnishers 
must provide accurate data to consumer reporting agencies and 
consumer reporting agencies must load that data accurately.
    Data regulated under the Gramm-Leach-Bliley Act is not used 
to make a yes-or-no decision, but GLB does impose strict 
limitations on how nonpublic personal information can be used. 
Many of our members' fraud prevention systems are regulated by 
GLB and annually U.S. businesses conduct an average of 2.6 
billion searches to check for fraud.
    Our members' location services are also regulated by GLB. 
Annually, hundreds of millions of searches are conducted to 
enforce child support orders, and contracts to pay debts. 
Pension funds use them to locate beneficiaries. Blood donor 
organizations ensure sufficient and safe blood supplies, as 
well as organizations focused on missing and exploited 
children.
    With both an understanding of our members' products and the 
laws that regulate them, let me now turn to S. 3742 and start 
by stating unequivocally that CDIA's members agree that 
sensitive personal information should be protected and that 
consumers should receive breach notices where there is a 
significant risk of them becoming a victim of identity theft. 
Though we support these goals, we believe provisions of S. 3742 
need improvement. Further, it is our view that the information 
broker provisions should be struck.
    To expand on this last point, let me touch on just some of 
the problems with the information broker provisions. These 
provisions impose accuracy, access, and correction standards to 
anyone defined as an information broker. However, on what 
industry or product the information broker provisions are 
intended to focus is very unclear. For example, the definition 
does not expressly and completely exclude consumer reporting 
agencies under the Fair Credit Reporting Act or financial 
institutions under GLB. This lack of clarity of scope and 
overlap with other Federal laws creates problems.
    For example, it creates a system of double jeopardy under 
FCRA. Rather than fully exempt consumer reporting agencies, the 
bill proposes an exception which establishes an ``in compliance 
with'' test. In essence, a consumer reporting agency under FCRA 
is also an information broker under this proposal where the 
consumer reporting agency is not in compliance with FCRA.
    Further, applying accuracy, access, and correction 
standards to fraud prevention and location tools can erode the 
performance of the very tools which are most effective in 
protecting consumers. None of these are used to deny or approve 
an application and the application of these standards does not 
make sense.
    Regarding the data security provisions of the bill, while 
CDIA supports the creation of a national standard, we believe 
that it is also critical that such a standard does not 
interfere with the regulation of products governed by other 
Federal laws. The bill currently stipulates that a company is 
exempt from the data security standard only when it is ``in 
compliance with'' a similar standard found in another law. As 
discussed above, this ``in compliance with'' approach imposes 
two sets of duties, two sets of costs, two sets of liabilities, 
on that company. We urge the Committee to adjust the exception 
so the company is exempt where it is subject to a similar 
standard in another law.
    In closing, CDIA also applauds the intent of this bill to 
set a true uniform national standard for data security and 
breach notification. However, the exception to this preemption 
standard which attempts to preserve State laws swallows the 
rule. Congress should not enact a 51st law. A true national 
standard will benefit consumers because they will enjoy the 
benefits of this standard no matter where they live.
    We thank you again for giving us the opportunity to 
testify, and I'm happy to answer any questions.
    [The prepared statement of Mr. Pratt follows:]

       Prepared Statement of Stuart K. Pratt, President and CEO, 
                   Consumer Data Industry Association

    Chairman Rockefeller, Ranking Member Hutchison and members of the 
Committee, thank you for this opportunity to appear before you today to 
discuss S. 3742, the Data Security and Breach Notification Act of 2010. 
For the record, my name is Stuart K. Pratt and I am President and CEO 
of the Consumer Data Industry Association.\1\ My testimony will focus 
on:
---------------------------------------------------------------------------
    \1\ CDIA, as we are commonly known, is the international trade 
association representing over 300 consumer data companies that provide 
fraud prevention and risk management products, credit and mortgage 
reports, tenant and employment screening services, check fraud and 
verification services, systems for insurance underwriting, skip-tracing 
tools, law enforcement investigative systems and also collection 
services.

  <bullet> The value and importance of the data systems and analytical 
---------------------------------------------------------------------------
        tools our members produce.

  <bullet> The sufficiency of current laws which regulate our members' 
        products.

  <bullet> Comments on S. 3742.

CDIA Members' Data and Technologies Help Both the Public and Private 
        Sectors to Manage Risk and Protect Consumers
    Whether it is counter terrorism efforts, locating a child who has 
been kidnapped, preventing a violent criminal from taking a job with 
access to children or the elderly or ensuring the safety and soundness 
of lending decisions our members' innovative data bases, software and 
analytical tools are critical to how we manage risk in this country, 
ensure fair treatment and most importantly, how we protect consumers 
from becoming victims of both violent and white-collar crimes of all 
types.
    Following are examples of how our members' products, software and 
data bases bring material value to consumers and our country:

  <bullet> Helping public and private sector investigators to prevent 
        money laundering and terrorist financing.

  <bullet> Ensuring lenders have best-in-class credit reports, credit 
        scoring technologies, income verification tools and data on 
        assets for purposes of making safe and sound underwriting 
        decisions so that consumers are treated fairly and products 
        make sense for them.

  <bullet> Bringing transparency to the underlying value of 
        collateralized debt obligations and in doing so ensuring our 
        Nation's money supply is adequate which militates against the 
        possibility and severity of economic crises.

  <bullet> Enforcing child support orders through the use of 
        sophisticated location tools so children of single parents have 
        the resources they need.

  <bullet> Assisting law enforcement and private agencies which locate 
        missing and exploited children through location tools.

  <bullet> Researching fugitives, assets held by individuals of 
        interest through the use of investigative tools which allow law 
        enforcement agencies tie together disparate data on given 
        individuals and thus to most effectively target limited 
        manpower resources.

  <bullet> Witness location through use of location tools for all types 
        of court proceedings.

  <bullet> Reducing government expense through entitlement fraud 
        prevention, eligibility determinations, and identity 
        verification.

  <bullet> Making available both local and nationwide background 
        screening tools to ensure, for example, that pedophiles don't 
        gain access to daycare centers or those convicted of driving 
        while under the influence do not drive school buses or vans for 
        elder care centers.

  <bullet> Helping a local charity hospital to find individuals who 
        have chosen to avoid paying bills when they have the ability to 
        do so.

  <bullet> Producing sophisticated background screening tools for 
        security clearances, including those with national security 
        implications.

  <bullet> Improving disaster assistance responses through the use of 
        cross-matched data bases that help first-responders to quickly 
        aid those in need and prevent fraudsters from gaming these 
        efforts for personal gain.

    Not only do our members' technologies and innovation protect us and 
ensure that we are managing risk in this country, but they reduce costs 
and labor intensity. Risk management is not merely the domain of the 
largest government agencies or corporations in America, it is available 
to companies of all sizes thanks to our members' investments. Consider 
the following scenarios:

Scenario 1--Effective Use of Limited Resources
    The following example was given during a Department of Homeland 
Security meeting on use of data by the department:

        ``One extremely well-known law enforcement intelligence example 
        from immediately post-9/11 was when there was a now well-
        publicized threat . . . that there might be cells of terrorists 
        training for scuba diving underwater bombing, similar to those 
        that trained for 9/11 to fly--but not land--planes. How does 
        the government best acquire that? The FBI applied the standard 
        shoe- leather approach--spent millions of dollars sending out 
        every agent in every office in the country to identify 
        certified scuba training schools. The alternative could and 
        should have been for the Federal Government to be able to buy 
        that data for a couple of hundred dollars from a commercial 
        provider, and to use that baseline and law enforcement 
        resources, starting with the commercial baseline.''

Scenario 2--Lowering Costs/Expanding Access to Best-in-Class Tools
    One commercial database provider charges just $25 for an instant 
comprehensive search of multiple criminal record sources, including 
fugitive files, state and county criminal record repositories, 
proprietary criminal record information, and prison, parole and release 
files, representing more than 100 million criminal records across the 
United States. In contrast, an in-person, local search of one local 
courthouse for felony and misdemeanor records takes 3 business days and 
costs $16 plus courthouse fees. An in-person search of every county 
courthouse would cost $48,544 (3,034 county governments times $16). 
Similarly, a state sexual offender search costs just $9 and includes 
states that do not provide online registries of sexual offenders. An 
in-person search of sexual offender records in all 50 states would cost 
$800.

Scenario 3--Preventing Identity Theft & Limiting Indebtedness
    A national credit card issuer reports that they approve more than 
19 million applications for credit every year. In fact they process 
more than 90,000 applications every day, with an approval rate of 
approximately sixty percent. This creditor reports that they identify 
one fraudulent account for every 1,613 applications approved. This 
means that the tools our members provided were preventing fraud in more 
than 99.9 percent of the transactions processed. These data also tell 
us that the lender is doing an effective job of approving consumers who 
truly qualify for credit and denying consumers who are overextended and 
should not increase their debt burdens.

Current Laws Regulating Our Members Are Robust
    The United States is on the forefront of establishing sector-
specific and enforceable laws regulating uses of personal information 
of many types. The list of laws is extensive and includes but is not 
limited to the Fair Credit Reporting Act (15 U.S.C. 1681 et seq.), The 
Gramm-Leach-Bliley Act (Pub. L. 106-102, Title V), the Health Insurance 
Portability and Accountability Act (Pub. L. 104-191), and the Drivers 
Privacy Protection Act (18 U.S.C. 2721 et seq.).
    Following are more probative descriptions of some of these laws, 
the rights of consumers and also the types of products that fall within 
the scope of the law.

Fair Credit Reporting Act
    Key to understanding the role of the FCRA is the fact that it 
regulates any use of personal information (whether obtained from a 
public or private source) defined as a consumer report. A consumer 
report is defined as data which is gathered and shared with a third 
party for a determination of a consumer's eligibility for enumerated 
permissible purposes. This concept of an eligibility test is a key to 
understanding how FCRA regulates an extraordinarily broad range of 
personal information uses. The United States has a law which makes 
clear that any third-party-supplied data that is used to accept or 
deny, for example, my application for a government entitlement, 
employment, credit (e.g., student loans), insurance, and any other 
transaction initiated by the consumer where there is a legitimate 
business need. Again, this law applies equally to governmental uses and 
not merely to the private sector and provides us as consumers with a 
full complement of rights to protect and empower us. Consider the 
following:

  <bullet> The right of access--consumers may request at any time a 
        disclosure of all information in their file at the time of the 
        request. This right is enhanced by requirements that the cost 
        of such disclosure must be free under a variety of 
        circumstances including once per year upon request, where there 
        is suspected fraud, where a consumer is unemployed and seeking 
        employment, when a consumer places a fraud alert on his or her 
        file, or where a consumer is receiving public assistance and 
        thus would not have the means to pay. Note that the right of 
        access is absolute since the term file is defined in the FCRA 
        and it includes the base information from which a consumer 
        report is produced.

  <bullet> The right of correction--a consumer may dispute any 
        information in the file. The right of dispute is absolute and 
        no fee may be charged.

  <bullet> The right to know who has seen or reviewed information in 
        the consumer's file--as part of the right of access, a consumer 
        must see all ``inquiries'' made to the file and these inquiries 
        include the trade name of the consumer and upon request, a 
        disclosure of contact information, if available, for any 
        inquirer to the consumer's file.

  <bullet> The right to deny use of the file except for transactions 
        initiated by the consumer--consumers have the right to opt out 
        of non- initiated transactions, such as a mailed offer for a 
        new credit card.

  <bullet> The right to be notified when a consumer report has been 
        used to take an adverse action. This right ensures that I can 
        act on all of the other rights enumerated above.

  <bullet> Beyond the rights discussed above, with every disclosure of 
        a file, consumers receive a notice providing a complete listing 
        all consumer rights.

  <bullet> Finally, all such products are regulated for accuracy with a 
        ``reasonable procedures to ensure maximum possible accuracy'' 
        standard. Further all sources which provide data to consumer 
        reporting agencies must also adhere to a standard of accuracy 
        which, as a result of the FACT Act, now includes new rulemaking 
        powers for Federal agencies.

Gramm-Leach-Bliley Act
    Not all consumer data products are used for eligibility 
determinations regulated by the FCRA. Congress has applied different 
standards of protection that are appropriate to the use and the 
sensitivity of the data. We refer to these tools as Reference, 
Verification and Information services or RVI services. RVI services are 
used not only to identify fraud, but also to locate and verify 
information for the public and private sectors.
    Fraud prevention systems, for example, aren't regulated under FCRA 
because no decision to approve or deny is made using these data. 
Annually businesses conduct an average more than 2.6 billion searches 
to check for fraudulent transactions. As the fraud problem has grown, 
industry has been forced to increase the complexity and sophistication 
of the fraud detection tools they use. While fraud detection tools may 
differ, there are four key models used.

  <bullet> Fraud data bases--check for possible suspicious elements of 
        customer information. These data bases include past identities 
        and records that have been used in known frauds, suspect phone 
        numbers or addresses, and records of inconsistent issue dates 
        of SSNs and the given birth years.

  <bullet> Identity verification products--crosscheck for consistency 
        in identifying information supplied by the consumer by 
        utilizing other sources of known data about the consumer.

    Identity thieves must change pieces of information in their 
        victim's files to avoid alerting others of their presence. 
        Inconsistencies in name, address, or SSN associated with a name 
        raise suspicions of possible fraud.

  <bullet> Quantitative fraud prediction models--calculate fraud scores 
        that predict the likelihood an application or proposed 
        transaction is fraudulent. The power of these models is their 
        ability to assess the cumulative significance of small 
        inconsistencies or problems that may appear insignificant in 
        isolation.

  <bullet> Identity element approaches--use the analysis of pooled 
        applications and other data to detect anomalies in typical 
        business activity to identify potential fraudulent activity. 
        These tools generally use anonymous consumer information to 
        create macro-models of applications or credit card usage that 
        deviates from normal information or spending patterns, as well 
        as a series of applications with a common work number or 
        address but under different names, or even the identification 
        and further attention to geographical areas where there are 
        spikes in what may be fraudulent activity.

    The largest users of fraud detection tools are financial 
        businesses, accounting for approximately 78 percent of all 
        users. However, there are many non-financial business uses for 
        fraud detection tools. Users include:

  <bullet> Governmental agencies--Fraud detection tools are used by the 
        IRS to locate assets of tax evaders, state agencies to find 
        individuals who owe child support, law enforcement to assist in 
        investigations, and by various Federal and state agencies for 
        employment background checks.

  <bullet> Private use--Journalists use fraud detection services to 
        locate sources, attorneys to find witnesses, and individuals 
        use them to do background checks on childcare providers.

    CDIA's members are also the leading location services providers in 
the United States. These products are also not regulated under FCRA 
since no decision is based on the data used. These services, which help 
users locate individuals, are a key business-to-business tool that 
creates great value for consumers and business alike. Locator services 
depend on a variety of matching elements. Consider the following 
examples of location service uses of a year's time:

  <bullet> There were 5.5 million location searches conducted by child 
        support enforcement agencies to enforce court orders. For 
        example, the Financial Institution Data Match program required 
        by the Personal Responsibility and Work Opportunity 
        Reconciliation Act of 1996 (PL 104-193) led to the location of 
        700,000 delinquent individuals being linked to accounts worth 
        nearly $2.5 billion.

  <bullet> There were 378 million location searches used to enforce 
        contractual obligations to pay debts.

  <bullet> Tens of millions of searches were conducted by pension funds 
        (location of beneficiaries), lawyers (witness location), blood 
        donors organizations (blood supply safety), as well as by 
        organizations focused on missing and exploited children.

  <bullet> There were 378 million location searches used to enforce 
        contractual obligations to pay debts.

  <bullet> Tens of millions of searches were conducted by pension funds 
        (location of beneficiaries), lawyers (witness location), blood 
        donors organizations, as well as by organizations focused on 
        missing and exploited children.

    Clearly RVI services bring great benefit to consumers, governmental 
agencies and to businesses of all sizes. Laws such as the Gramm-Leach-
Bliley Act and Fair Credit Reporting Act are robust, protective of 
consumer rights, but also drafted to ensure that products used to 
protect consumers, prevent fraud and to locate individuals are allowed 
to operate for the good of consumers and business.
S. 3742--The Data Security and Breach Notification Act of 2010
    Now let me turn to S. 3742. CDIA is pleased to provide our comments 
on the bill as a whole and in particular on provisions which propose to 
regulate and entity called an ``information broker.''
    Let me start by stating unequivocally that CDIA's members agree 
that sensitive personal information should be protected. CDIA agrees 
that consumers should receive breach notices when there is a 
significant risk of them becoming victims of identity theft. Our 
members agree with the Federal Trade Commission recommendation offered 
in multiple testimonies on the Hill and via their joint Task Force 
report issued along with the Department of Justice that if a Federal 
statute is to be enacted, it should be a true national standard and 
that it should focus on safeguarding sensitive personal information and 
notifying consumers when a breach has occurred which exposes the 
consumer to a significant risk of becoming a victim of identity theft. 
Though our members support these goals, we believe provisions of S. 
3742 need improvement and it is also our view that the provisions which 
propose to regulate an entity defined as an ``information broker'' 
should be struck. Following are more detailed comments regarding the 
bill.

Information Broker
    This section of the bill imposes accuracy, access and correction 
standards to a certain type of entity defined as an information broker. 
It is still unclear to us on what industry the information broker 
provisions are intended to focus. We believe the provision should be 
struck from the bill and encourage the focus of this bill to be on data 
security and breach notification. Following are concerns we have with 
this provision:

        Double Jeopardy with FCRA: As discussed above, consumer 
        reporting agencies which compile and maintain data for purposes 
        of producing consumer reports which are used for eligibility 
        determinations are regulated under the FCRA. These products are 
        subject to accuracy, access and correction standards. The 
        definition of ``information broker'' does not expressly exclude 
        consumer reporting agencies (FCRA). Rather than fully exempt 
        consumer reporting agencies, the bill proposes an exception 
        which establishes an ``in compliance with'' test. In essence a 
        consumer reporting agency is regulated as a consumer reporting 
        agency under FCRA and also as an ``information broker'' under 
        this proposal where the consumer reporting agency is not in 
        compliance with FCRA. CDIA appreciates the effort to exclude 
        consumer reporting agencies via Section 2(b)(3)(C) but we 
        oppose this approach to an exception. By contrast in Section 
        2(c) the bill unequivocally exempts certain service providers. 
        Consumer reporting agencies as defined under FCRA should not be 
        considered information brokers in any context.

        Interference with Fraud Prevention, Identity Protection and 
        Location Services--RVI products such as those designed for 
        fraud prevention and location are produced under laws such as 
        the Gramm-Leach-Bliley Act and Section 5 of the Federal Trade 
        Commission Act. financial institutions (GLB). The definition of 
        information broker does not exclude financial institutions 
        regulated under GLB. Therefore products developed under the 
        data-use limitations found in GLB Title V, Section 502(e) are 
        adversely affected by the information broker provision.

    Neither a product developed for fraud prevention nor location 
should be subject to accuracy, access and correction standards since 
neither product is used to deny or approve an application, etc. If they 
were designed for the purpose of making decisions about a consumer's 
eligibility, then they would already be regulated under the FCRA.
    Consider the effect of the information broker duties on fraud 
tools. While Section 2(b)(3)(A)(ii) provides a limited exception for 
fraud data bases consisting of inaccurate information, the exception is 
not sufficient, though we do applaud the effort to try and address the 
problem of imposing an accuracy standard on fraud tools. Fraud 
prevention tools are built based on data about consumers, data about 
confirmed fraud attempts, data about combinations of accurate and in 
accurate data used for fraud attempts and more. Fraud tools are 
designed to identify transactions or applications that are likely to be 
fraudulent in order to allow the user to take additional steps to 
prevent the crime and still process legitimate transactions. The 
current exception does not appear to address all types of fraud 
prevention tools used today and further the limitations of the 
exception impose statutory rigidity that will prevent the design of new 
tools as the strategies of the criminals change. It is our view that 
applying an accuracy standard to any aspect of a fraud prevention 
system that is not used to stop a transaction or used to make a yes-or-
no decision does not make sense.
    Similarly it is wrong to subject fraud prevention tools to be 
subject to an access and correction regime. While Section 2(b)(3)(iv) 
attempts to exclude fraud prevention tools from the duty to disclose 
(and therefore any right to dispute data), the exception is tied to a 
variety of tests such as where the use of the tool would be 
``compromised by such access.'' It is our view that fraud tools, 
because they are not used to make decisions, should be absolutely 
excluded from duties to disclose. If details of a fraud tool are 
disclosed it is akin to disclosing the recipe for fraud prevention. The 
fact that the exception to disclosure is not absolute leaves open the 
risk that a tool will have to be disclosed which simply reduces the 
value of fraud prevention tools which are protecting consumers. This 
result works against the premise of the bill which is to protect 
consumer's from crime, particularly identity theft.
    As discussed in this testimony, location services are materially 
important to how risk is managed. These tools are not designed to be 
used for decisionmaking and thus are not regulated under the FCRA, 
which already regulates all data used for eligibility decisions 
(including the imposition of accuracy, access and correction rights). 
Location services cannot have an accuracy standard applied to them as 
this bill would propose. The tools are about helping local law 
enforcement investigate crimes, attorneys to locate witnesses, and 
Federal agencies to cross match data in the pursuit of kidnappers, 
etc., nonprofit hospitals to collect debts from patients who have the 
ability to pay but refuse to do so and in the enforcement of child 
support orders. These systems are designed to, for example, help a user 
identify possible connections between disparate records and ultimately 
possible locations for the subject of the search. Measuring the quality 
of the possible connections is not akin to an accuracy standard, nor 
should an accuracy standard be applied to ``possible matches.'' 
Further, providing access to a database for purposes of error 
correction could affect the quality of the systems since matches are 
sometimes based on combinations of accurate and inaccurate data. 
Ultimately, the data is not used to deny a consumer access to goods or 
services and thus CDIA opposes the application of accuracy, access and 
correction duties to these fraud prevention systems or RVI services.

Information Brokers and Audit Logs
    Section 2(b)(4) establishes a duty for information brokers to 
maintain an audit logs for accessed or transmitted information. Such a 
duty is appropriate to a database used for eligibility and thus is 
appropriate under the FCRA. CDIA urges the Committee to reject the 
application of such a concept to data systems which are not used to 
determine eligibility. Audit systems impose costs on business both 
small and large. Based on even the current limited exceptions to 
information broker duties to ensure accuracy and provide access and 
correction, it appears that an audit log must be maintained.

Harmonizing Data Security Standards
    While CDIA's members support the creation of a national standard 
for data security, we believe that it is also critical that such a 
standard not interfere with the operation of other Federal laws which 
already exist. To accomplish this, additional work must be done to 
fine-tune the exception in the current bill. Allowing a company to be 
exempt from a data security standard only when it is ``in compliance 
with'' a similar standard found in another law imposes two sets of 
duties, two sets of costs and two sets of liability on that company. 
For CDIA's largest and smallest businesses this is an unnecessary 
burden. For our smallest businesses this duty likely increases the 
costs of the Errors and Omissions insurance policies which have to 
cover this dual liability risk. We urge the Committee to adjust the 
exception so that is not an ``in compliance with'' test and to instead 
use a ``subject to'' test.

FTC Website for Publishing Breaches
    The bill requires covered entities to report any breach to the 
Federal Trade Commission and further it requires the FTC to publish the 
fact of these breaches on a website. The fact that the bill has a 
breach notification standard ensures that all affected consumers are 
notified when there's a risk of being harmed by the breach. CDIA agrees 
that notices to consumers who are at significant risk of becoming a 
victim of identity theft makes sense. However, publishing the names of 
companies does not. A company could have deployed best-in-class 
technologies and procedures and still have been affected by the 
criminal actions of rogue employees or new technologies used by an 
organized gang. The business or governmental agency which suffered the 
breach due to criminal actions is a victim of a crime. The publication 
of the names of those who have suffered a breach would imply that the 
business did not work hard, did not care about their customers and by 
these implications, the publication of names imposes a guilty verdict 
on their good names, no matter how hard the business had worked to 
protect the data and no matter how responsible they were in working to 
protect their customers following a breach. We urge the Committee to 
strike this provision.

Preemption
    CDIA applauds the intent of this bill to set uniform national 
standards for data security and breach notification. However, the 
exception to this preemptive standard, which attempts to preserve state 
laws, swallows the rule. Congress should not enact a fifty-first law. A 
true national standard will benefit consumers because they will enjoy 
the benefits of this standard no matter where they live.

Enforcement
    CDIA believes that the preservation of uniform national standards 
for data security and breach notification are best achieved by limiting 
the enforcement of the law to a single Federal agency, in this case the 
Federal Trade Commission. By extending the enforcement powers to state 
attorneys general, which in turn can designate any other ``official or 
agency of the state'' to bring enforcement actions, as well will not 
increase a company's desire to comply but will lead to experimental 
litigation that may simply diminish the true national standard the bill 
sets out to establish. Further, the same issues and same facts of a 
given incident should not be open for multiple lawsuits. CDIA operates 
an errors and omissions insurance program for its small-business 
members and it is our experience that policy costs will rise where 
there is additional exposure. Even larger members who self-insure 
simply have to set aside more money for litigation rather than 
investing it in research and development. We urge the Committee to 
limit enforcement to the FTC.

Conclusion
    We thank you again for giving us this opportunity to testify. It is 
only through such dialogue that good laws are enacted. We welcome 
continued dialogue on S. 3742 and I'm happy to answer any questions.

    Senator Pryor. Ms. Bianchi.

STATEMENT OF MELISSA BIANCHI, HOGAN LOVELLS U.S. LLP, ON BEHALF 
              OF THE AMERICAN HOSPITAL ASSOCIATION

    Ms. Bianchi. Good afternoon, Chairman Pryor and Ranking 
Member Wicker. My name is Melissa Bianchi and I'm here today to 
testify on behalf of the American Hospital Association. Thank 
you for the opportunity to share the AHA's views today.
    The AHA represents nearly 5,000 member hospitals, health 
systems, and other health care organizations, as well as 38,000 
individual members. Our member hospitals are dedicated to 
safeguarding the privacy of their patients' personal 
information and are experienced in protecting this data.
    As I'll discuss today, hospitals are deeply familiar with 
the type of obligations that are proposed in this legislation 
and indeed already are subject to a very similar regulatory 
framework. In the past, Congress has recognized this by 
exempting hospitals from duplicate regulatory requirements and 
we believe that a similar approach make sense here.
    The Department of Health and Human Services has established 
detailed requirements under HIPAA for how hospitals must 
protect the privacy and security of the patient information 
they maintain. In 2009, Congress strengthened the HIPAA privacy 
and security requirements, as well as established new security 
breach requirement for HIPAA-covered entities. Under the HITECH 
Act, part of ARRA, HIPAA now contains stronger enforcement 
mechanisms and higher penalties for noncompliance. State 
attorneys general now have the power to bring enforcement 
actions under HIPAA and patients have more rights with respect 
to their own information. Also under HITECH, the HIPAA rules 
apply now not only to HIPAA-covered entities, but also directly 
apply to their subcontractors, known as business associates.
    The protections proposed under this legislation duplicate 
those already in place under HIPAA. For hospitals and other 
HIPAA-covered entities, this act would require a whole new set 
of compliance activities that largely mirror HIPAA. This act 
also may subject hospitals to two parallel sets of enforcement 
activities. Penalties could apply under each set of 
requirements. Requiring HIPAA-covered entities to establish 
compliance standards for two different regulatory systems will 
be costly.
    Because hospitals already must meet HIPAA's stringent data 
security standards, these additional compliance costs will not 
afford consumers any greater protection. Indeed, if hospitals 
are required to send both an HHS and an FTC notice to consumers 
in the event of a security breach, it will be confusing. In 
order for a consumer notice of a security breach to be 
meaningful, it is important that consumers not receive multiple 
notices of a single data breach.
    The HIPAA rules apply to protected health information. 
Basically, this is health information that is held by a HIPAA-
covered entity. Protected health information includes 
demographic information like a person's name and address. It 
includes payment information, such as credit card information 
or checking account information that a patient uses to pay for 
care. Generally, all identifiable information about a patient 
that is held by a hospital is protected by HIPAA.
    HIPAA contains detailed requirements for maintaining the 
security and privacy of health information, and that includes 
electronic health information. Covered entities must put 
safeguards in place to protect the confidentiality, the 
integrity, and the security of this information, and these 
requirements cover virtually every circumstance in which 
patient information is stored or transmitted in the health care 
setting.
    HIPAA regulations include new rules for responding to 
security breaches as the result of HITECH. A HIPAA-covered 
entity is required to notify each individual whose information 
is breached and also must notify HHS. For larger breaches, a 
hospital must also notify the media. HHS posts a list of 
breaches on its website.
    The HITECH Act also establishes security breach 
requirements for a different kind of information, personal 
health records. These are records that any one of us can set up 
on a publicly available website to store our own health 
information ourselves. This information is not protected by 
HIPAA because it's not maintained by a HIPAA-covered entity. 
Instead, the information is maintained by the vendor of the 
website. In this case, the FTC regulates these entities.
    These two sets of security breach rules do not overlap. 
This is because Congress recognized in HITECH that there is an 
existing privacy framework for HIPAA-covered entities, and we 
believe that this same approach makes sense going forward. 
HIPAA-covered entities and their business associates are fully 
and vigorously regulated by HHS. They are obligated to comply 
with detailed requirements designed to protect the security of 
patient information in both paper and electronic form. Where 
those systems fail, they must notify patients. Requiring HIPAA-
covered entities and their business associates to develop two 
parallel compliance programs, set up by two different Federal 
agencies, will be cumbersome and costly for both hospitals and 
for patients, but it will not increase the security of patient 
information.
    We appreciate the Subcommittee's interest in these issues 
and we thank you for the opportunity to testify.
    [The prepared statement of Ms. Bianchi follows:]

        Prepared Statement of the American Hospital Association

    The American Hospital Association (AHA), on behalf of our nearly 
5,000 member hospitals, health systems and other health care 
organizations, and our 38,000 individual members, appreciates the 
opportunity to share its views on the Data Security and Breach 
Notification Act of 2010. This proposed legislation would require the 
Federal Trade Commission (FTC) to establish regulations requiring a 
broad range of entities, including many hospitals, to implement 
security practices to protect personal information and to provide for 
notification in the event of any security breaches of that information.
    Hospitals already are regulated in this area. In the past, Congress 
has recognized this by exempting hospitals from duplicate regulatory 
requirements. We believe that a similar approach makes sense here.
    My testimony will focus on the following:

  <bullet> The scope and requirements of the Health Insurance 
        Portability and Accountability Act of 1996 (HIPAA), and how 
        HIPAA protections for patient information recently have been 
        strengthened.

  <bullet> How the FTC and the Department of Health and Human Services 
        (HHS) currently operate parallel and separate rules for 
        security breaches.

  <bullet> Why this approach--exempting HIPAA covered entities from the 
        FTC rules--makes sense.

    America's hospitals are dedicated to safeguarding the privacy of 
their patients' medical information. The AHA and its members have 
supported efforts by the Department of Health and Human Services (HHS) 
to implement HIPAA. Under HIPAA, HHS has established detailed 
requirements for how HIPAA covered entities must protect the privacy 
and security of the patient information they maintain. These include 
rules for notifying patients in the event of a security breach. 
Hospitals are deeply familiar with the type of obligations proposed in 
this legislation, and indeed already are subject to a very similar 
regulatory framework.
    HIPAA was first enacted in 1996. In 2009, Congress strengthened the 
HIPAA privacy and security requirements as well as created a Federal 
framework for data breach notification for HIPAA covered entities. 
Under the HITECH Act--part of the American Recovery and Reinvestment 
Act of 2009--HIPAA now contains stronger enforcement mechanisms and 
higher penalties for noncompliance. State attorneys general now have 
the power to bring enforcement actions under HIPAA, in addition to HHS. 
The HITECH Act also gave more rights to patients. Patients now have an 
even greater ability to control how their information is used and to 
whom it is disclosed. Perhaps the most significant change under the 
HITECH Act is that the HIPAA rules now apply not only to HIPAA covered 
entities, but also directly apply to their subcontractors, known as 
business associates.
    The protections proposed under the Data Security and Breach 
Notification Act duplicate those already in place under HIPAA. For 
hospitals and other HIPAA covered entities this Act would require a 
whole new set of compliance activities that largely mirror HIPAA. This 
Act may also subject hospitals to two parallel sets of enforcement 
activities; penalties could apply under each set of requirements. 
Requiring HIPAA covered entities to establish compliance standards for 
two different regulatory regimes will cost hospitals money. Because 
hospitals already must meet HIPAA's stringent data security standards, 
these additional compliance costs will not afford consumers any greater 
protection.

Information Protected by HIPAA
    The HIPAA privacy and security rules apply to ``protected health 
information.'' Basically, this is health information that is held by a 
HIPAA covered entity. It is information that either directly identifies 
an individual or for which there is a reasonable basis to believe that 
an individual could be identified. Protected health information 
includes demographic information, like a person's name and address. It 
includes payment information--such as credit card information or 
checking account information--that a patient uses to pay for care. 
Generally, all identifiable information about a patient that is held by 
a hospital is protected health information and is governed by HIPAA.
    For almost a decade, HIPAA has provided a comprehensive framework 
for protecting the privacy and security of this patient information. 
The AHA's members are experienced in taking the steps necessary--and 
required by HIPAA--to protect patient information. The HIPAA 
regulations include a number of components--most importantly, baseline 
privacy regulations as well as security regulations that apply 
specifically to electronic information. The privacy regulations under 
HIPAA impose detailed rules about how a hospital may use patient 
information and when and to whom a hospital may disclose that 
information to another party.
    For example, a hospital is allowed to use all of the information in 
a patient's medical record to treat a patient. Not all information, 
however, can be sent to a health plan to obtain payment for that care. 
The privacy regulations contain rules for almost every circumstance. 
There are rules about when a hospital can disclose patient information 
to a subcontractor--or business associate. There are rules establishing 
when a hospital must seek special permission from a patient before 
using that patient's information, such as to conduct research. There 
are rules for when and how patient information may be disclosed 
pursuant to a subpoena. And there are rules about how the information 
on minors and on deceased patients can be used. Hospitals simply do not 
and cannot do anything with patient information without referring to 
the HIPAA requirements.
    HIPAA also contains security requirements. These are detailed 
requirements for maintaining the security of electronic information. 
HIPAA covered entities must put in place safeguards to protect the 
confidentiality, integrity, and security of electronic protected health 
information. As with the privacy requirements, these security 
requirements cover virtually every circumstance under which patient 
information is stored or transmitted electronically in the hospital 
setting. For example, a hospital must have a process in place for 
identifying and assessing reasonably foreseeable vulnerabilities in its 
information systems. Corrective actions are required to address any 
vulnerabilities identified.
    HIPAA requires its covered entities to take a number of steps to 
comply with the privacy and security regulations. Hospitals are 
required to have detailed HIPAA policies and procedures and to train 
their employees on those practices. They also must appoint a privacy 
official and a security official responsible for managing the privacy 
and security practices.

HIPAA Requirements for Security Breaches
    In addition to detailed privacy and security regulations, the HIPAA 
regulations include new rules for responding to security breaches. This 
is a result of the HITECH Act. A HIPAA covered entity, such as a 
hospital, is required to notify each individual whose information is 
breached. For larger breaches--those involving the health information 
of 500 or more individuals--a hospital also must notify the media. The 
Secretary of HHS also must be notified of all breaches, big and small. 
HHS posts a list of breaches on its website.
    The HIPAA breach regulations include specific requirements for how 
individuals must be notified. These reflect the requirements Congress 
established under the HITECH Act. For example, individuals must be 
notified of a breach without unreasonable delay, and no later than 60 
days after the breach is discovered. The notice must be in writing; it 
must describe the type of information breached and the steps 
individuals should take to protect themselves from potential harm 
resulting from the breach. HIPAA covered entities already are obligated 
to carry out the kinds of security breach activities that this proposed 
legislation requires.

Separate Rules for HIPAA and Non-HIPAA Entities
    The HITECH Act established two parallel sets of rules for security 
breaches. One is under HIPAA, governed by HHS. Another set of rules 
covers a different kind of information--personal health records. These 
are records that any one of us can set up on a publicly available 
website to store our health information ourselves. They can contain 
personal, sensitive information. But the information isn't protected by 
HIPAA, because it is not maintained by a hospital or other HIPAA 
covered entity. Instead, the information is maintained by the vendor of 
the website and by the consumer. For these kinds of records, the 
Federal Trade Commission has authority to set the rules.
    These two sets of security breach rules don't overlap. This is 
because, in the HITECH Act, Congress recognized that there is an 
existing privacy framework for HIPAA covered entities. Congress 
established a separate set of breach requirements under HIPAA and 
excluded HIPAA covered entities from the new FTC requirements. The AHA 
believes that this same approach makes sense going forward. Hospitals 
already follow a strict set of requirements for protecting patient 
information and for addressing security breaches.
    Subjecting HIPAA covered entities and their business associates to 
the Data Security and Breach Notification Act would require hospitals 
to establish two parallel compliance programs, set up by two different 
Federal agencies. One to meet the long-standing HIPAA requirements, and 
another to comply with the FTC regulations that would be developed 
under this legislation. Inevitably, this will increase a hospital's 
compliance costs, but without increasing the security of patient 
information. Hospitals already are responsible for protecting patient 
information. Increased compliance costs have the effect of increasing 
health care costs, a result none of us wants.
    There also is the potential that hospitals would be subject to two 
sets of penalties--one from HHS and one from the FTC--for the same 
security incident. We understand that under the Act the FTC would have 
the discretion to determine that HIPAA covered entities and their 
business associates are deemed in compliance with the Act by virtue of 
their HIPAA obligations. But even if the FTC takes this step, it is 
possible that, where a HIPAA covered entity failed to comply with 
HIPAA, it would be subject not only to the new and enhanced HIPAA 
penalties, but also to the FTC's penalties.
    We believe it also is in the best interest of consumers for HIPAA 
covered entities and their business associates to be expressly exempted 
from the Act. If a hospital is required to comply with both the FTC and 
the HHS rules regarding security breaches, the hospital could be 
required to send two letters to the same patient for the same security 
incident. That simply doesn't make sense for patients, and it doesn't 
increase the protection of their information. In order for consumer 
notice of security breaches to be meaningful, it is important that 
consumers not receive multiple notices of a single data breach. It will 
be confusing for individuals to receive multiple letters about the same 
breach. If there are too many notices, at some point, letters about 
security breaches will become just more white noise. Consumers may end 
up disregarding important information and fail to take steps to protect 
against future harm or misuse of their information. Consumers should 
receive a single notice for a single breach.
    HIPAA covered entities and their business associates are fully and 
vigorously regulated by HHS. They already are obligated to comply with 
detailed requirements designed to protect the security of patient 
information. Where those systems fail, they must notify patients of a 
security breach, as HHS requires. An additional set of rules will be 
cumbersome and costly, both for hospitals and for patients.
    We appreciate the Subcommittee's interest in these issues and thank 
you for the opportunity to testify.

    Senator Pryor. Thank you.
    I'll call on Senator Wicker for his opening statement.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you very much, Mr. Chairman, and 
thank you to the witnesses. I was a little late because I was 
in your seat in another hearing room in another building. But I 
want to thank the Chair for holding this hearing and for his 
dedication to this important issue of protecting sensitive 
personal information. Data breaches over the last decade 
highlight the need to examine the way businesses and nonprofits 
currently protect consumer information. We should ensure that 
strong security features are in place and that consumers 
receive appropriate notification when a breach of their 
information occurs, exposing them to identity theft and similar 
threats.
    Congress has been monitoring this issue for several years 
and I appreciate your efforts, Mr. Chairman, in seeking a 
comprehensive solution. Let me commit to you today, Mr. 
Chairman, that I want to work with you before the end of this 
Congress to co-sponsor a bill and to move it as far as we can 
toward passage during this calendar year.
    The collection of personal information about consumers 
began as a commercial practice many years ago. Nevertheless, 
advancements in technology, particularly the continuing 
development of online commerce and the proliferation of 
electronic data, increase the amount of personal information 
that can be collected and maintained by companies and nonprofit 
organizations. These advancements greatly enhance the 
convenience for consumers in doing business all over the 
country. But they also increase the possibility for personal 
information to be unlawfully acquired and misused.
    Data breaches can happen in many ways, ranging from 
complicated computer schemes created by sophisticated hackers 
to business records carelessly discarded in a dumpster, for 
example, behind a store. No matter how the unlawful acquisition 
of personal information occurs, it can present a real threat to 
an individual's credit, finances, and peace of mind.
    The legislation before us today represents a comprehensive 
approach that would create a uniform standard throughout the 
country. Currently, no single Federal standard exists for 
guarding many types of consumer information.
    I want to explore one aspect of the bill further with our 
witnesses--the interaction between this legislation and data 
security laws that are already in place. Many entities covered 
by this bill already act under existing standards, such as the 
security or notification procedures required in the Gramm-
Leach-Bliley Act and the HIPAA Act, as we've already received 
testimony about.
    I'm interested to hear from those entities represented here 
today and from the FTC, who would be enforcing the new 
regulations, how would the interplay between these laws work 
and how can we ensure that we do not unintentionally create 
unnecessary, dual, or even conflicting standards.
    Another provision in this bill would impose additional 
requirements on entities that are considered data brokers. 
These entities possess large amounts of personal information 
about consumers. Not surprisingly, as availability of personal 
data has increased so has the market for businesses to gather 
and utilize that data. It is important for us to learn more 
today about how those specific provisions would affect data 
brokers and their ability to keep data secure and take 
appropriate measures when that data is breached.
    So thank you to all of our witnesses for sharing your time 
with us. I look forward to the questions and I want to work 
with each of you to achieve a goal that I know we all share, to 
ensure that sensitive personal information is protected.
    Thank you.
    Senator Pryor. Thank you.
    Let me go ahead and start with you, Ms. Mithal, if I may. 
You talked a little bit about the Rite-Aid case in your opening 
statement. As I understand it, you worked with the Department 
of Health and Human Services on that matter. Do you currently 
under existing Federal law, do you have the authority to file 
suit and did you do that in that case?
    Ms. Mithal. Yes, we did, Mr. Chairman. One of the things 
that we were very mindful of in that case is that we wanted to 
leverage our authority and HHS's authority to get the broadest 
possible relief for consumers without creating overlapping or 
duplicative requirements. So for example, HHS was able to get a 
civil penalty against the company under HIPAA. In our order 
provisions we didn't get a civil penalty. But our order 
provisions were much broader in the sense that they covered 
employee information, and they also covered certain electronic 
information that was not covered by the HHS order. So I think 
we worked together to leverage our authority and make sure we 
got the best result for consumers, without creating duplicative 
requirements for businesses.
    Senator Pryor. Can you tell us a little bit about the 
ChoicePoint case? This has come up a couple times. If you could 
just tell the Subcommittee what that is?
    Ms. Mithal. Certainly. I think it was widely reported that 
certain people were posing as others in order to get 
information from ChoicePoint. ChoicePoint was covered by the 
Fair Credit Reporting Act in that case, which requires an 
entity to maintain reasonable procedures before providing 
sensitive consumer report information to others. We alleged 
that ChoicePoint did not maintain such reasonable procedures 
and, because we were proceeding under the FCRA, we were able to 
get civil penalties.
    So we can get civil penalties if we sue a company under 
FCRA, but we can't get civil penalties for our other data 
security cases, such as in the Rite-Aid case.
    Senator Pryor. You said in your opening statement that you 
support the goals of this legislation. Are there areas in the 
bill that you think we need to work on?
    Ms. Mithal. Let me just mention one, Mr. Chairman. I think 
with respect to the scope of the bill--and I think the Rite-Aid 
case is a good example of this--the breach notification 
provisions would only cover a breach of electronic information. 
So for example, if a consumer's paper information were breached 
there would be no breach notification required under the bill.
    We would like to see the breach notification provisions 
extended to paper as well as electronic records. As I 
mentioned, in the Rite-Aid case they had just disposed of 
information into open dumpsters, and we think that consumers 
have a right to be informed in that case.
    Senator Pryor. You said that you like the provisions in the 
bill that allow the State attorneys general to I guess bring 
actions. Tell the Subcommittee why you like that and why you 
think that's important.
    Ms. Mithal. Well, I think it's a model that has certainly 
worked well in other areas of FTC enforcement. Under the Fair 
Credit Reporting Act, we have concurrent enforcement authority 
with the States. I believe that model has worked well. I 
mentioned in my opening statement our case against LifeLock. 
This was a case we brought together with 36 State attorneys 
general, and we were able to get a broad set of relief and we 
were able to get media publicity in both local markets as well 
as nationally arising from that action.
    Senator Pryor. Ms. Rusu, let me ask you about the State 
attorneys general. I think in your statement you said that you 
like the provision about the State attorneys general.
    Ms. Rusu. Correct.
    Senator Pryor. Could you elaborate on that?
    Ms. Rusu. Sure. As far as we've seen, the State attorneys 
general really have been at the forefront of the battle against 
data breaches and identity theft. I think it may have to do 
with the fact that they're a lot more plugged into what is 
going on at the ground level. They're more likely to hear about 
these issues, and a lot of times perhaps more able to meet with 
the people and see what's happening right down at the ground 
level.
    So from past experience, from what we've seen, the State 
attorneys general have really been the ones that have brought 
these issues to public and national consciousness. We like this 
model and we'd like it to continue.
    Senator Pryor. Ms. Bianchi, did you say in your statement 
whether you like the State attorneys general provision or not? 
I don't recall you mentioning that.
    Ms. Bianchi. The HIPAA rules do include, as a result of the 
HITECH Act, enforcement power for State attorneys general. So 
that's a new provision in the last year or so, and I understand 
the Department of Health and Human Services is currently 
working with the attorneys general to train them on HIPAA and 
on how to identify and proceed with cases, and they're required 
to coordinate with the Department in doing so.
    Senator Pryor. Mr. Pratt, did you have any comment on the 
State AG provision?
    Mr. Pratt. Thank you, Mr. Chairman. I think the only point 
we would make is we would like to continue some discussion 
around the question of not simply the attorneys general's 
powers, but the ability to name an official or agency of the 
State, so it expands it. It seems to expand it beyond the 
borders of just the attorney general him or herself, and I 
think that's probably where we'd like to see a little more 
discussion. I think we'd like to see that more limited. That 
can otherwise invite maybe second-tier or third-tier litigation 
that would probably confuse rather than help with a true 
enforcement action.
    Senator Pryor. Senator Wicker.
    Senator Wicker. Do any of you want to talk about the 
possibility of too much notification? The bill requires 
notification of a covered breach to be provided unless there's 
no reasonable risk of identity theft, fraud, or other unlawful 
conduct. Some have expressed the concern that this will result 
in notifications when there's little or no evidence that 
unlawful conduct is likely to occur, but it's not technically 
unreasonable to think it could.
    Is there such a thing as too much notification? Do any of 
you believe this is a legitimate concern? Raise your hands.
    [A show of hands.]
    Senator Wicker. Ms. Rusu, would you like to go first?
    Ms. Rusu. First of all, the first point I'd like to make is 
that we really do believe that consumers should be the ones to 
decide what is important and what is not. The reason that we 
are concerned about this is that if a company is the one that 
gets to decide in every situation whether or not something is 
relevant, whether it's not, then a lot of times we're worried 
that they'll decide in their own best interests. Of course, 
notification entails some costs, it entails negative public 
image in the media.
    So first of all, we think that consumers should be able to 
decide whether this is something they want to act on, whether 
this is something that they want to do in order to protect 
themselves.
    Second, however, we believe that these notifications should 
really decrease as a result of this law. The real purpose 
behind this seems to me to be providing incentives for 
companies to put in place much better, much more responsible 
data security practices, and if these data security practices 
are implemented correctly we should see a much decreased number 
of security breaches in general, and as a result we will 
require a lot less notifications.
    Senator Wicker. Ms. Mithal?
    Ms. Mithal. I would certainly agree that overnotification 
could be a concern. So for example, we wouldn't want consumers 
to receive so many notifications that they become numb to them. 
I don't think this bill is there. I think that certainly if 
there is a breach and every time there is a breach a consumer 
received a notification, it would be a problem. But I think 
this bill sets a high enough threshold that overnotification 
would not be a problem.
    Senator Wicker. Mr. Pratt?
    Mr. Pratt. I'm not sure there's a perfect science around 
what words you choose for the trigger to send a notice. So I 
would agree----
    Senator Wicker. I was afraid of that.
    Mr. Pratt. If I hire three lawyers, I get at least four 
answers, I can assure you, and I'm billed for all of them.
    We have seen other standards in other bills, for example 
``significant risk of identity theft.'' I think it's a 
worthwhile question because it is important to ensure that we 
don't end up with overnotification. It means that the consumers 
begin to simply file those notices in the same way that they 
sometimes file GLB privacy notices, because they're not really 
readable.
    So yes, I think it's a good question. I'm not sure I have a 
crystal ball to tell you perfectly what that answer is. I can 
tell you that ``any other unlawful conduct,'' for example, 
could mean a lot of different things, and so that alone expands 
this trigger somewhat beyond the borders of other statutes that 
we've seen in other States. We'd be happy after the hearing to 
see if we couldn't bring together some better experience from 
any of our members in terms of how different State statutes 
have affected the trigger of the notice.
    Senator Wicker. I think we would appreciate that.
    Anyone else want to comment on that question? Yes, sir, Mr. 
Bregman?
    Mr. Bregman. I think it's important that the bill includes 
provisions for the exclusion of data that has been rendered 
unusable through encryption and careful key management from 
notification. Without that, there could be significant 
overnotification where there really is no risk. The 
technologies will proceed to evolve and so it's important that 
we use best state-of-the-art technologies and that could be 
best determined probably by regulatory agencies and the 
industry as technologies advance.
    Senator Wicker. Mr. Pratt, you want to add?
    Mr. Pratt. Senator, if I could just echo support for that. 
That is a terribly important component of the bill. We 
compliment you, Senator Pryor, for having included that in the 
bill.
    I'm not sure we feel that the best motivation for data 
security is the low threshold of the trigger for a notice. It 
is a clear roadmap for us to find a means of compliance, and 
knowing that we have an ability to render data in a wide 
variety of ways, not just simply using an encryption 
technology, but using a wide variety of tools, is probably the 
best motivator for us to find a way to simply not ever have to 
send a notice because we are never breaching the kind of data 
that would put a consumer at risk or a customer at risk in the 
first place.
    Senator Wicker. What about the risk of false notices? Could 
the plethora of notifications make it easier for ne'er-do-wells 
to submit false notices and then ask for information from 
consumers? Does anybody worry about that?
    Mr. Pratt. I can just tell you, in certain experiences in 
certain States over the many decades I've worked in the 
industry, we've seen false notices as a means of obtaining 
sensitive personal information for purposes of perpetrating ID 
theft. I think the TechAmerica testimony tells you that, of 
course, there are the low-tech approaches, but there are also 
the very, very high-tech approaches that pose different risks, 
that are probably found on my laptop rather than in my mailbox. 
But both forms of risk exist, and they exist today because 
there are many State breach laws today in many States.
    Senator Wicker. Well, the Chair's been very generous with 
his time. Let me ask Mr. Pratt one other question. You believe 
the bill's information broker provisions would actually harm 
the industry's ability to use data for fraud prevention. Could 
you elaborate on this? What services do you provide consumers 
that might be negatively impacted by the inclusion of the 
brokers in this legislation?
    Mr. Pratt. Thank you, Senator. Fraud prevention and 
location services are two types of tools that our members make 
available in the marketplace, and I think our testimony, the 
full testimony, tries to explain in a little more--with a 
little more granularity what the problem is. The monolithic 
application of accuracy standards or a standard for access and 
correction would be wrong, and of course, Senator Pryor, your 
bill doesn't attempt monolithic application. You do have some 
exceptions. We feel that they're probably too rigid. It's hard 
for us to be sufficiently omniscient to know what the next 
product is and whether the current exception embraces our 
ability to innovate and build that next product.
    We would rather see--ultimately the question is who is the 
information broker that we're trying to get to? Consumer 
reporting agencies are regulated under the FCRA. Financial 
institutions would be governed under GLB. A fraud prevention 
tool--by the way, we wouldn't want to be compelled to disclose 
a fraud prevention tool's data because you're disclosing the 
recipe by which we prevent fraud. Senator Pryor, I know full 
well that that's not what you want either, so we understand. 
Your staff has been wonderful about allowing us to have a 
chance to talk about that.
    With a locator tool, it's really fairly irrelevant. Neither 
fraud tools nor location tools are used to make a decision 
about me. They are tools that are used to investigate. They are 
tools used to prevent crime. We see at least in those two cases 
where an information broker provision and the way it's 
structured would potentially impinge on the operation of those 
tools, on future innovation, and actually we still think 
overlap potentially with current laws that are in place today.
    Senator Wicker. Thank you.
    Senator Pryor. Senator Klobuchar, are you ready?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. I certainly am.
    Senator Pryor. All right. You're up.
    Senator Klobuchar. Thank you very much.
    Thank you, everyone. I'm sorry, I was over at a Judiciary 
Committee hearing, actually on this same, somewhat in the same 
subject, on fraud enforcement and some of the difficulties with 
prosecuting complicated cases. And certainly data security is a 
growing problem, with no easy solution.
    I personally have heard from a number of Minnesota 
businesses. Actually, Senator Thune and I have a bill on peer-
to-peer file sharing software and the issues with that, and I 
came across a number of victims in our State. I was actually 
quite surprised at the stories, including one involving a home 
garden center, where this woman actually just went home to work 
at home on her shared payroll documents. She didn't know her 
kids had installed one of these programs, and the next thing 
she knew her employees, a number of them were victims of 
identity theft because all of their personnel data was on the 
computer, the kids' program took it.
    I think there are an estimated 10 million Americans per 
year whose identities are stolen. So I am excited about the 
work we're doing here. I think it's very important.
    My first question would be of you, Ms. Mithal, and that is 
about these companies that are smaller. I think it's even 
harder for them to deal with it. While they may not be the 
major targets, but roughly a third of all data breaches happen 
at companies of less than 100 people. These companies, as I 
said, don't have that technical know-how. Will this legislation 
allow the FTC to tailor their regulations so they don't apply 
the same requirements to a company of 10 versus a company of 
10,000? And should the size of the company matter?
    Ms. Mithal. Thank you, Senator. I agree with your comment. 
I think the size of the company should matter, and I think the 
bill imposes a reasonable security requirement on companies. 
The reasonableness in that requirement would include such 
things as the sensitivity of the data at issue, the cost of 
fixing a problem, and the cost--and the size of the business. 
So I think costs are definitely included in the calculus in the 
bill.
    Senator Klobuchar. OK.
    Ms. Rusu, most consumers don't have the ability to evaluate 
a company's claim to good data security, because I know I've 
seen things that say that and you don't know, should I get on 
this website or not. How will establishing minimum data 
security requirements level the playing field for consumers and 
companies?
    Ms. Rusu. I think first of all what we need to work on is, 
like you mentioned, providing notices that are readable to the 
average consumer. I think today the disclosures that are 
provided by companies are perhaps readable to someone who's 
graduated law school. So simplifying those notices is crucial, 
it is extremely important.
    I think it's also important for notifications of breach to 
provide language that is very, very, simple, and clear. I think 
that a lot of times there's a tendency to provide too much 
information and this is where we get to the overnotification 
problem. When there's a long list of paragraphs that the 
consumer can barely get through, that's going to hinder their 
ability to take action. So simplifying language and helping 
consumers, regular day to day consumers, understand what these 
policies are will be a first big step.
    Senator Klobuchar. Very good.
    Mr. Pratt, I think using a national standard here when so 
many of these issues, problems, easily cross State borders, 
makes sense to me. Do your members often have to comply with 
numerous State regulations and would establishing a national 
standard help?
    Mr. Pratt. The easy answer is yes. A national standard does 
two things. Larger companies, of course, go out and hire a 
major law firm and ask those lawyers in that firm to set up a 
grid so they understand all the different State laws, and then 
they design their notification strategy around I guess the 
highest threshold that each State statute might require for 
those States where consumers are the subject of the breach.
    Yes, a single national standard would make that easier. 
Most importantly, though, when I get calls from my smaller 
corporate members they have a much harder time complying with 
those breach notification requirements because, of course, they 
have to ask me, what law firm should I hire in order to get a 
chart, in order to understand how to do it? So that's really 
important.
    I would like to step back and also say that the 
scalability, so, Mr. Chairman, the scalability of the standards 
for security I think is an excellent component of the proposal, 
because it is important to acknowledge a smaller business with 
a lower threshold of risk should design a strategy that's 
appropriate for the risk. The FTC has done a good job of 
producing small business guidance in that regard as well. It's 
been beneficial for our members.
    Senator Klobuchar. Very good.
    Ms. Bianchi, I know he turned to you about a large law 
firm. I used to work at one, so don't worry about it.
    Just from the Hospital Association, Minnesota, as you know, 
is a mecca of health care, and Mayo has done some amazing 
things with sharing data, actually, within the Mayo system as a 
way of establishing costs and other things, that is actually 
one of the hallmarks of how they've been able to keep costs 
down and quality up. It's actually a model we want to use 
nationally. We had some issues with legislation and fights at 
midnight at one point, not health care, believe it or not, 
before that, about sharing information.
    Do you want to talk a little bit about this--this will be 
my last question--from a hospital perspective and if you think 
this would be helpful, to have a national standard?
    Ms. Bianchi. Hospitals certainly really already have at 
least a national standard in place with respect to HIPAA. HIPAA 
establishes a floor. There are more restrictive State laws, but 
I think we certainly support a Federal standard. I think our 
concern really is that we're already subject to one.
    Senator Klobuchar. Right. You're concerned about another 
one.
    Ms. Bianchi. Right. So it's a concern about a second set of 
standards that would really in many ways duplicate the 
standards that hospitals have been operating under for several 
years, and hospitals certainly take these issues very 
seriously. We're just concerned about their compliance costs 
associated with parallel regulations.
    Senator Klobuchar. The other thing, just to get back to my 
point that I was making, was there are always issues where we 
want to be able to share data, not only for patients, so that 
one doctor in an emergency room will be able to access that 
data. I found that to be a huge issue and a problem. Then the 
second, again, would be what I was talking about, was sharing 
underlying medical information so you can figure out, how are 
we ever going to know how cost-effective a certain surgery is 
or a certain treatment is if we're not able to compile that 
data and figure that out as we look at how we reduce costs in 
health care.
    Do you want to comment about that?
    Ms. Bianchi. Sure. I think that's obviously a critical 
issue coming out of health reform and out of ARRA and HITECH. 
The Department of Health and Human Services, as the result of 
Congress's action in those laws, is enormously invested in 
developing a national network of health information. Health 
information does have some special issues associated with it. 
One of the things that components of HHS have spent a lot of 
time on is worrying about the privacy and security of 
information in the context of developing this national network.
    So I think it's important for those two sides of HHS to be 
able to work together to make health information available to 
improve quality and bring down costs, but at the same time not 
jeopardize the privacy and security of individual information. 
That is a challenge and HHS really has the expertise to do this 
in the health care context.
    Senator Klobuchar. Very good.
    Anyone else want to enter into the fray?
    [No response.]
    Senator Klobuchar. Thank you very much.
    Senator Pryor. All right, thank you.
    Let me, Ms. Bianchi, sort of pick up with you in a little 
bit of a follow-up on a previous answer that you gave. You 
talked about HIPAA and HITECH and other laws. Is it your 
position that the existing Federal laws, whatever they may be, 
really cover every instance of data breach or data security for 
the hospitals?
    Ms. Bianchi. For HIPAA-covered entities, HIPAA provides a 
very comprehensive set of security requirements, privacy 
requirements. They're very detailed. They are scalable, so that 
a rural single provider office, single doctor's office, doesn't 
have to do the same things that a large hospital network would 
need to do.
    But it is a very comprehensive system. It really is, I 
think, the best standard that we have now for data security 
and, particularly as the result of HITECH, a model for--many of 
the components of this bill really track the HIPAA standard. So 
yes, I do think it provides a very comprehensive system 
framework.
    Senator Pryor. Mr. Pratt, let me ask you. We've talked a 
little about having a national standard for information 
security, etcetera. In your opening statement you talked a 
little bit about this idea of double jeopardy, how your folks 
might be subject to two different laws or more and have to 
maybe send out multiple notices.
    Could you talk a little bit more with the Subcommittee 
about that? You talked about the term ``in compliance with'' 
and you also talked about this idea of ``where subject to.'' 
Could you tell us a little bit more about that?
    Mr. Pratt. Thank you, Mr. Chairman. In several places it's 
encouraging, the structure and the approach that you've taken, 
and it appears that the goal would be in fact to achieve some 
alignment between the requirements of this statute, to fill in 
the gap where there is no statute in place. So if there's no 
HIPAA in place, this kind of fills in the gap.
    In our view, if there's no FCRA in place this statute would 
fill in the gap, or similarly under the Gramm-Leach-Bliley Act, 
two statutes that we tend to live and work with every day. If 
the test, however, of determining whether or not I'm exempt is 
that I'm in compliance with another statute--and of course, 
every company works to be in compliance, but every company may 
find from time to time that they are not. You can simply go to 
the FTC website and you'll see an investigation of some company 
for not having been in compliance.
    That's the whole purpose of that law. Where you're not in 
compliance, there are penalties and consequences for that 
statute. So our only point would be to replace the phrasing 
``in compliance with'' with the phrasing ``subject to.'' In 
other words, I am subject to a standard of law that is similar 
to the one that you have outlined here, as opposed to I'm in 
compliance with.
    Of course I'm going to be in compliance with it. If I'm a 
consumer reporting agency under FCRA, I'd better be complying, 
and that is true under the Gramm-Leach-Bliley Act. And by the 
way, that would be true to the extent that our member would run 
a business that would now have to comply with the requirements 
of this statute as well.
    And we're happy to comply with all three of those statutes 
and to protect data relative to the sensitive personal 
information in all three cases. We just want to know that we 
don't end up with the tripwire being because you fell out of 
compliance you now are supposed to be in compliance over here 
as well. And there might be some differences in compliance 
requirements, so now it's almost an ex post facto application 
of duties that I was not first subject to, but I'm only subject 
to because I failed in some way relative to the duty that I had 
over here with this statute that is the primary statute that 
governs me, FCRA, GLB.
    So we just simply are urging the Committee to adjust the 
approach to the exception so that they make it clear that if 
you're subject to the Fair Credit Reporting Act we would simply 
make the argument FCRA would require similar standards, 
therefore we are in compliance with and exempt from. And if we 
are subject to the Gramm-Leach-Bliley Act and the safeguards 
rule in the Gramm-Leach-Bliley Act, we have a substantially 
similar set of requirements and therefore we're exempt from 
this, but we're of course not exempt from GLB.
    In no case are we asking to be somehow exempt from 
something that would allow us to therefore be sloppy with 
sensitive personal information.
    Senator Pryor. I understand the distinction you're trying 
to make.
    Ms. Bianchi, let me ask you. On HIPAA, as I understand 
HIPAA--and I know HIPAA's fairly comprehensive--I don't think 
it covers employee data, does it?
    Ms. Bianchi. It covers--it can in some cases, but mostly 
no, it does not, it does not cover employee data.
    Senator Pryor. Do you think the hospital should be subject 
to this law we're proposing for employee data purposes?
    Ms. Bianchi. I think to the extent that hospitals have 
information that is not part of their covered entity and is not 
subject to the requirements of HIPAA, that certainly hospitals 
support robust security standards. I think the importance would 
be for the exemption to be with respect to all protected health 
information, and where that does include employee information 
that that also would be covered under that.
    It's really a concern about not being subject to two 
different sets of rules for the same set of information.
    Senator Pryor. Right. I appreciate that.
    Mr. Bregman, I'm not going to let you off the hook. Maybe 
you thought I wasn't going to ask you any questions and you 
were going to slip the noose. But I have a few for you.
    Senator Klobuchar. ``Slip the noose''?
    Senator Pryor. Let me ask about your view of whether we 
should extend a law like this to nonprofits. I don't know if 
you mentioned that in your opening statement, but to schools 
and nonprofits, et cetera; is that in your view good policy?
    Mr. Bregman. I think it is good policy. If you look at the 
data, a large amount of data breach occurs from the nonprofit 
sector, where they do have sensitive data. And I don't think 
this legislation would impose an undue burden on them.
    Senator Pryor. I think in your statement you talked about 
personally identifiable information and the definition of that. 
Would this definition effectively capture the trigger for 
breach notification to the affected consumers where 
appropriate?
    Mr. Bregman. I think the intent is that personally 
identifiable information would be subject to this to the extent 
that it's not rendered unusable through technical means, such 
as encryption or other alternative accepted technologies.
    Senator Pryor. Do you like the way we've tried to set the 
trigger in our legislation, or could you improve on that? Or do 
you know enough about the bill to comment on that?
    Mr. Bregman. Well, to the extent I understand the bill, I 
think it's reasonably set at this point.
    Senator Pryor. Ms. Rusu, in your statement you talked about 
``unusable'' and ``unreadable'' data. You mentioned that data 
can sometimes be reconstructed in some way. I think I know what 
you mean by that, but tell me what you mean by that and what a 
viable solution there might be?
    Ms. Rusu. A lot of times data can initially appear 
encrypted, it can initially appear unusable or unreadable, but 
subsequently by using certain technologies that data could be 
reconstructed and actually re-attributed to the person to whom 
it belongs and then used for identity theft.
    So really our recommendation is that, together with the 
FTC, we work toward identifying those types of methods of 
encryption that really do render the data unusable and 
unreadable to the extent that it cannot be reconstructed.
    Senator Pryor. I asked Mr. Bregman a few minutes ago about 
extending the law to nonprofits and I assume that--I understand 
that Consumers Union is for that. But does Consumers Union 
think that there should be any exceptions to that? Is there 
anybody you think ought to be exempted or excepted?
    Ms. Rusu. Exempted from the nonprofit requirement?
    Senator Pryor. Right.
    Ms. Rusu. I would be happy to get back to you in writing on 
that, if possible.
    [The information referred to follows:]

    Consumers Union believes that it is important to require both non-
profit and private sector entities to protect the security of the 
personal consumer data they maintain and to provide breach notice. 
Consumers face the same risks, whether their data is compromised by 
for-profit or non-profit entities. While we are certainly cognizant of 
the fact that many non-profits may not have the resources to provide 
notification or credit monitoring, we believe that the bill's 
provisions exempting such action due to excessive cost are sufficient.

    Senator Pryor. Did you have any questions?
    Senator Klobuchar. Just one more follow-up with Mr. 
Bregman. I know that the Verizon business risk team, working 
with the United States Secret Service, recently released their 
2010 report on security breaches, and I think one of the most 
surprising findings of the report was that 96 percent of 
breaches were avoidable through simple or intermediate data 
security controls. Is this consistent with your experience and 
would provisions in the Data Security and Breach Notification 
Act that require companies to implement basic data security 
practices address many of these problems?
    Mr. Bregman. Absolutely. The vast majority of data breaches 
are avoidable through good practices, good data hygiene, and 
good IT practices. I think this legislation would put 
organizations on notice that, in the absence of that, they're 
going to have to make breach notification and they may be 
subject to other sanctions.
    I think the important point is that as we look at the 
methodologies to avoid data loss and data breach, those methods 
and techniques will change over time. So it's important not to 
try to define specific technologies in the legislation, but 
rather to assure that Federal regulators, in consultation with 
industry, will regularly update the best practices and make 
those the metrics for whether a company is in compliance.
    Senator Klobuchar. Ms. Rusu?
    Ms. Rusu. I'd also like to add that I think the strong 
point of this bill is not only to get companies to employ those 
best practices, but also to expand their practices toward data 
minimization and data retention limits. I think a lot of times 
maybe companies will realize that, if we're amassing this huge 
amount of data and we're keeping it in perpetuity, we may be 
subject to a lot more requirements. There is a much higher risk 
of losing it through data breach. So perhaps part of those best 
practices will be setting data retention limits or minimizing 
the amount of data the companies collect.
    Senator Klobuchar. The Cyber Protection Informed Users Act 
I mentioned that I have introduced with Senator Thune, focuses 
on some of the file sharing software and allows for users to be 
clearly notified that it's on their computer, so that they have 
a chance to opt out. Do you see this file sharing as a growing 
data security problem, Mr. Bregman, if you want to answer?
    Mr. Bregman. I think it is. I think it's really an example 
of a broader issue of particularly consumers taking advantage 
of technologies without having a deep understanding. You 
mentioned in an earlier question that, how do we help consumers 
understand whether the techniques being used by companies are 
adequate, and I think that's an example where we would hope 
that consumers could look to Federal regulators to evaluate and 
essentially apply that stamp of approval that this set of 
technologies has been tested and meets those needs. And those 
technologies will change rapidly in the marketplace.
    Senator Klobuchar. I just think people would be surprised 
that their kid can put something on their computer that--I 
speak as a mother of a 15-year-old--that their kid can just put 
something on the computer that will allow all the stuff they 
put on there to be shared with a bunch of people. I think it's 
pretty shocking and that we have to get that information out 
there to them.
    All right, thank you very much.
    Thank you, Chairman.
    Senator Pryor. Thank you, Senator Klobuchar. It's always 
good to have you here.
    Let me ask really just a couple of last questions. First, 
for Mr. Pratt. Do you think that consumers should have the 
ability to have access to their information, to go in and clean 
it up? And I guess, how would that work?
    Mr. Pratt. OK, fair enough. Let's start with what we 
definitely know, and that is, where data is used to make a 
decision about me I should always have access. I should have 
access before the data is used, any time I wish to see it. Of 
course, that occurs here in the U.S. primarily because the data 
is being used in the context of the Fair Credit Reporting Act. 
So any type of decision for eligibility is likely an FCRA 
transaction of some sort. So I have the right of access today.
    If you're talking about a fraud prevention tool, as I 
discussed earlier, I think that would be different. Yes, some 
of my information might be in a database that includes 
confirmed fraudulent applications that have been pooled 
together by a variety of large insurance and financial 
institutions who are trying to stop future fraud. That kind of 
information doesn't really--we don't want to clean up that 
information. We actually want to know about the combinations of 
data that were used to attempt to prevent the fraud. We don't 
want to disclose that we have all of that data and that we have 
certain pattern analyses that we then deploy at the point of 
the next application.
    So the answer to that would be no. But remember, the fraud 
prevention tool doesn't stop the transaction. The fraud 
prevention tool just raises a yellow flag and says to the end 
user: You should take additional steps to verify the consumer. 
That's what we want. We want the additional steps to be taken 
so the identity theft is stopped at the point of sale.
    A location service is yet again different. That's about 
possibilities. I am a law enforcement agency in a small town in 
the U.S., but I'm trying to investigate a crime and I'm looking 
at--I'm trying to locate possible witnesses, or I am trying to 
locate somebody who has skipped on a parole, and I use the tool 
to locate relatives, locate friends, see previous addresses at 
which the individual lived, and these are part of my 
investigative tools.
    But we wouldn't want somebody to be able to sever, quote 
unquote, ``clean that up,'' so that the noncustodial parent 
who's not paying child support can figure out a way to uncouple 
themselves from their responsibility.
    So a locator service is again, not a tool that stops a 
transaction or affects how I, as the real person, get to do 
business. But they are used in different ways.
    So, I guess those are just good examples of how the fair 
information practice of access is appropriate to some types of 
data uses and it's inappropriate to others. I think that's 
pretty consistent globally, that fair information practices are 
not applied monolithically to the nature of the data, but to 
some extent to the use of the data.
    Senator Pryor. Ms. Mithal, did you have any comments on 
behalf of the FTC about consumers cleaning up their data?
    Ms. Mithal. Yes. I would absolutely agree with Mr. Pratt 
that consumers should have access to data when it's used to 
deny them benefits or used for eligibility purposes. We do note 
that we had these three public roundtables and one of the 
things we learned is that consumers may be denied benefits that 
don't fall within the Fair Credit Reporting Act. So I think 
there are certain holes in the Swiss cheese that we want to 
fill with, potentially with an access provision similar to what 
you have in the legislation.
    So for example, I'm Maneesha Mithal. I don't have a 
criminal record, but if somebody denies me a benefit based on 
the fact that their database shows that I had a criminal 
record, I might want access to that and the ability to correct 
it. Even if it's not used for credit or employment purposes, I 
might just not want that to be out there. So that's why we 
think the access and correction provisions you have in the 
legislation could alleviate that concern.
    Senator Pryor. Yes, sir, Mr. Pratt?
    Mr. Pratt. So I guess just to add to that. The reason that 
we're asking for this provision to be struck is not because we 
want to just stick our head in the sand and ignore the kind of 
question that Ms. Mithal has just raised, but that it's an idea 
that deserves a good deal more scrutiny. What we try to put 
forward in our testimony is that we just don't know who is that 
type of entity that we're trying to target. And the way the 
definition is structured and the way the language of the 
section is structured, I don't think we're close yet to knowing 
how to apply that, who is that entity and what kind of entity 
are we trying to track down, on-line, off-line, and so on.
    It's a worthwhile dialogue. We're not afraid to have that 
dialogue. We're happy to have that dialogue. We just think that 
it's one that--this is a less matured, less fully understood 
provision than data security and security breach notice, where 
we have a very clear understanding and a plethora of hearings 
and an understanding of what it is and why it's important to 
get that part of the job done.
    Senator Pryor. Listen, I want to thank all of you for being 
here today and all your preparation and your time involved in 
getting here and testifying today. We really appreciate it.
    What we're going to do is we're going to leave the record 
open for a week. We actually, may actually try to mark up this 
bill next week, so we're going to encourage our Senators to get 
any follow-up questions that they may have to you ASAP and 
encourage you to get those back ASAP if at all possible. So we 
continue to work on this and, as Senator Wicker said a few 
moments ago, he wants to continue to work on this with us. We 
hope this is very much a bipartisan group effort as we go 
through the process.
    So I want to thank you all for being here and thank you for 
coming before the Subcommittee today. With that, we will 
adjourn.
    [Whereupon, at 3:48 p.m., the hearing was adjourned.]

                            A P P E N D I X

           Prepared Statement of Hon. John D. Rockefeller IV

    Thank you, Senator Pryor, for holding this hearing, and I want to 
commend you for your continued, excellent stewardship of the Consumer 
Protection Subcommittee.
    In today's economy, a vast array of businesses and organizations 
maintain information about consumers. When a person buys a book online, 
the company asks for the name, address and credit card information from 
the individual. When a student pays his or her tuition, a college may 
collect that student's debit card information. Employers gather 
information about their employees, including background data, and their 
bank account number for direct deposit. All these entities store 
consumers' personal information in databases--some of which are well 
protected and some of which are not. Every day, consumers run the risk 
that the entities holding their information will suffer a data breach, 
and their information will be compromised by no fault of their own.
    Data breaches plague businesses and organizations, putting millions 
of consumers at risk. According to the Privacy Rights Clearinghouse, 
over half a billion data records have been compromised by unauthorized 
access to consumer databases since 2005. In 2009 alone, there were 498 
data breaches involving 222 million sensitive records.
    The consequences of these breaches are grave: identity theft, 
depleted savings accounts, a ruined credit score, and trouble getting 
loans for cars, homes and kids are just some of the effects.
    To minimize data breaches, deter identity theft and protect 
consumers, Senator Pryor and I introduced S. 3742, the Data Security 
and Breach Notification Act of 2010. The legislation establishes needed 
protections for consumers, while at the same time providing regulatory 
certainty to businesses.
    In S. 3742, Senator Pryor and I address the dangers of data 
breaches and identity theft by imposing two key mandates on businesses 
and nonprofit organizations that maintain large consumer databases. 
First, the bill requires these businesses and organizations to adopt 
security protocols to reasonably protect their databases from 
unauthorized access. Second, the bill requires breached entities to 
notify all affected consumers of data breaches in a timely manner--
unless there is no reasonable risk of identity theft or harm to 
consumers.
    The bill also imposes new requirements on information brokers--the 
companies that amass, organize, and sell vast amounts of American 
consumers' information to third party buyers for a profit. 
Specifically, the Data Security and Breach Notification Act of 2010 
gives consumers the right to know what data information brokers are 
collecting on them; and the right to correct any inaccuracies they may 
find.
    It is important to note that our bill represents a carefully 
crafted compromise between consumer groups and the business community. 
On the one hand, consumers get strong protections and aggressive 
enforcement by states' attorneys general. On the other hand, the bill 
creates national standards that facilitate interstate commerce; and the 
Federal Trade Commission is provided with regulatory flexibility to 
accommodate technical complexities and small business concerns.
    The Commerce Committee has twice reported data security legislation 
out of Committee. Both times the Senate has failed to take it up on the 
floor. I fully intend to report this bill out of the Commerce Committee 
in next week's markup, and it is my sincere hope that this time--the 
third time--is the charm. The House has passed data security 
legislation on voice vote. I hope we can achieve a similar result in 
the Senate.
                                 ______
                                 
          Prepared Statement of the Confidentiality Coalition

    The Confidentiality Coalition thanks the Senate Commerce, Science 
and Technology Committee for the opportunity to submit a statement for 
the record on the ``Data Security and Breach Notification Act of 2010'' 
(S. 3742). The Confidentiality Coalition is composed of a broad group 
of hospitals, medical teaching colleges, health plans, pharmaceutical 
companies, medical device manufacturers, vendors of electronic health 
records, biotech firms, employers, health produce distributors, 
pharmacy benefit managers, pharmacies, health information and research 
organizations, patient groups, and others \1\ founded to advance 
effective patient confidentiality protections.
---------------------------------------------------------------------------
    \1\ A list of the Confidentiality Coalition members is attached to 
this letter.
---------------------------------------------------------------------------
    The Coalition's mission is to advocate policies and practices that 
safeguard the privacy of patients and healthcare consumers while, at 
the same time, enabling the essential flow of information that is 
critical to the timely and effective delivery of healthcare, 
improvements in quality and safety, and the development of new 
lifesaving and life-enhancing medical interventions. The 
Confidentiality Coalition is committed to ensuring that consumers and 
thought leaders are aware of the privacy protections that are currently 
in place. And, as healthcare providers make the transition to a 
nationwide, interoperable system of electronic health information, the 
Confidentiality Coalition members believe it is essential to replace 
the current mosaic of sometimes conflicting state privacy laws, rules, 
and guidelines with a strong, comprehensive national confidentiality 
standard.
    As such, the Confidentiality Coalition believes that the privacy of 
patients' health information is of the utmost importance. Nothing is 
more important to engendering trust in the healthcare system than a 
comprehensive set of privacy protections for personal health 
information. That said, we have concerns that S. 3742 would result in 
health information being governed needlessly by two entities--the 
Federal Trade Commission (FTC) under the current Senate bill and the 
Department of Health and Human Services (HHS) under the Health 
Insurance Portability and Accountability Act (HIPAA).
    The Data Security and Breach Notification Act of 2010 would require 
the Federal Trade Commission (FTC) to establish regulations requiring a 
broad range of entities, including healthcare organizations, to 
implement security practices to protect personal information and to 
provide for notification in the event of any security breaches of that 
information. The protections proposed by S. 3742 unnecessarily 
duplicate the protections already in place under HIPAA, and would 
likely have disruptive effects on the normal business activities of 
healthcare organizations by altering current and accepted practices 
across the industry. In other words, the legislation would create a 
parallel and inconsistent enforcement mechanism for the healthcare 
industry, which is already subject to comprehensive and effective 
privacy and security regulation at both the Federal and state levels.
    Accordingly, we encourage a clear statement in this legislation 
that exempts healthcare companies that are HIPAA ``covered entities'' 
\2\ and their ``business associates'' \3\ from the reach of this new 
legislation. This clarification would preserve the careful lines drawn 
by the HIPAA privacy and security rules and would permit the healthcare 
industry to continue to provide services to members and patients 
without the need to dramatically alter its current (and already heavily 
regulated) arrangements. We view this exemption as appropriate to avoid 
substantial disruption of the important work conducted by healthcare 
organizations on behalf of patients and consumers.
---------------------------------------------------------------------------
    \2\ 45 CFR 160.103 Covered entity means: (1) A health plan; (2) A 
health care clearinghouse; (3) A health care provider who transmits any 
health information in electronic form in connection with a transaction 
covered by this subchapter.
    \3\ 45 CFR 160.103 Business associate means, with respect to a 
covered entity, a person who: (i) On behalf of such covered entity or 
of an organized health care arrangement (as defined in 164.501 of this 
subchapter) in which the covered entity participates, but other than in 
the capacity of a member of the workforce of such covered entity or 
arrangement, performs, or assists in the performance of: (A) A function 
or activity involving the use or disclosure of individually 
identifiable health information, including claims processing or 
administration, data analysis, processing or administration, 
utilization review, quality assurance, billing, benefit management, 
practice management, and repricing; or (B) Any other function or 
activity regulated by this subchapter; or (ii) Provides, other than in 
the capacity of a member of the workforce of such covered entity, 
legal, actuarial, accounting, consulting, data aggregation (as defined 
in 164.501 of this subchapter), management, administrative, 
accreditation, or financial services to or for such covered entity.
---------------------------------------------------------------------------
Discussion
    The Confidentiality Coalition applauds Congress' effort to require 
entities holding sensitive consumer information to develop a 
comprehensive data compliance protection plan and adhere to strict 
breach reporting requirements. While we understand and support these 
goals in connection with currently unregulated arenas, these goals--and 
the consumer risks they are designed to address--have already been 
addressed for the healthcare industry. The healthcare industry is 
heavily regulated in its privacy and security obligations. These 
obligations have been in place since 2003 under HIPAA, and recently 
have been revised and expanded through the Health Information 
Technology for Economic and Clinical Health (HITECH) Act of the 
American Recovery and Reinvestment Act (P.L. 111-5).
    The HIPAA privacy and security rules apply to ``protected health 
information''--health information that is held by a HIPAA covered 
entity. It is information that either directly identifies an individual 
or for which there is a reasonable basis to believe that an individual 
could be identified. Protected health information includes demographic 
information, such as a person's name and address. It includes payment 
information--such as credit card information or checking account 
information--that a patient uses to pay for care. Generally, all 
identifiable information about a patient that is held by a HIPAA 
covered entity is protected health information and, therefore, governed 
by HIPAA.
    The HIPAA regulations include a number of components--most 
importantly, baseline privacy regulations as well as security 
regulations that apply specifically to electronic information. These 
HIPAA/HITECH provisions impose specific requirements on covered 
entities to provide notice to patients and members of all uses and 
disclosures of personal information obtained in the course of providing 
services to these individuals. In addition to the detailed privacy 
notice, the HIPAA/HITECH rules impose specific consent obligations, 
with certain areas where consent is assumed (primarily, the core 
healthcare purposes of treatment, payment, and healthcare operations), 
certain areas where use and disclosure is permitted without the need 
for consent (such as certain public health disclosures or disclosures 
in connection with litigation), and other areas--essentially, all other 
disclosures--where a specific, detailed individual ``authorization'' is 
required.
    ``Marketing'' in connection with the healthcare industry also is 
heavily regulated and limited--both through the original HIPAA rules 
and through new, stricter, provisions in the HITECH Act. These rules 
address the specific operations of healthcare companies and under these 
rules, most marketing activities require a specific patient 
authorization. The only marketing activities that are permitted without 
authorization are those that the Department of Health and Human 
Services (HHS) has deemed to be useful and appropriate for consumers in 
the healthcare industry. The HHS Office of Civil Rights has 
jurisdiction to enforce these provisions (including expanded new 
penalties created by the HITECH Act). In addition, the HITECH Act 
authorizes state Attorneys General to enforce the HIPAA rules.
    As evidenced above, the HIPAA privacy and security rules provide a 
comprehensive privacy and security framework for HIPAA covered 
entities. Initially, ``business associates'' under HIPAA--those 
companies that provide services to HIPAA covered entities--were 
regulated through contracts with these covered entities. Now, as a 
result of the HITECH law, these business associates also are directly 
subject to privacy and security requirements, subject to primary 
enforcement by HHS, and face the same penalties as covered entities for 
non-compliance. Thus, all organizations handling protected health 
information are subject to the same stringent requirements and 
penalties for violations or breaches of this information.
    Accordingly, while HIPAA does not apply to all entities that might 
collect, use, or disclose health-related information,\4\ HIPAA does 
create a comprehensive set of standards and an overall enforcement 
protocol for those entities--both covered entities and business 
associates--who are regulated directly under the HIPAA rules. Moreover, 
as a result of the HITECH law, both covered entities and business 
associates face significantly increased exposure for violations of 
these rules, as well as the ongoing possibility of criminal penalties.
---------------------------------------------------------------------------
    \4\ The Coalition supports efforts by Congress and the Federal 
Trade Commission to evaluate appropriate privacy and security 
obligations for these unregulated healthcare entities or for uses and 
disclosures of sensitive healthcare information that are outside the 
scope of HIPAA.
---------------------------------------------------------------------------
    Therefore, for these covered entities and business associates, 
regulation under HIPAA/HITECH is both comprehensive and substantial. 
HIPAA/HITECH incorporates a wide range of standards for the use and 
disclosure of health information, creating specific rules for all 
aspects of the operations of the covered entities and their business 
associates. Moreover, the HIPAA Security Rule imposes perhaps the most 
significant set of security-related requirements imposed by law under 
any standard.
    In addition to detailed privacy and security regulations, the 
HITECH Act includes new rules for responding to security breaches. 
HIPAA covered entities and their business associates are required to 
notify each individual whose information is breached. For larger 
breaches--those involving the health information of 500 or more 
individuals--these organizations also must notify the media. The 
Secretary of HHS also must be notified of all breaches, large and 
small. HHS posts a list of breaches on its website.
    The HIPAA breach regulations include specific requirements for how 
individuals must be notified. These reflect the requirements Congress 
established under the HITECH Act. For example, individuals must be 
notified of a breach without unreasonable delay, and no later than 60 
days after the breach is discovered. The notice must be in writing; it 
must describe the type of information breached and the steps 
individuals should take to protect themselves from potential harm 
resulting from the breach. Thus, HIPAA covered entities already are 
obligated to carry out the kinds of security breach activities that S. 
3742 requires.
    With these standards in place, we have significant concerns about 
the risks and burdens of creating unnecessary additional obligations 
related to breach notices for healthcare entities. S. 3742 would create 
a new and inconsistent set of obligations on both notice and consent 
for the healthcare industry. We recognize that there is language 
addressing entities in ``compliance with any other Federal law that 
requires such covered entity to maintain standards and safeguards for 
information security and protection of personal information in the 
legislation (in the section entitled ``Treatment of Entities Governed 
by Other Law''), but the effect of this language as drafted is unclear. 
Therefore, to the extent that this legislation applies to healthcare 
entities and their business associates, we believe strongly that these 
provisions would require fundamental changes in the healthcare industry 
without any identified need or specific rationale.
    The HIPAA rules--particularly with the additional obligations 
imposed by the HITECH Act--create a challenging set of standards for 
any affected healthcare entity. To apply different or additional 
standards to this information would create significant additional cost 
and unneeded complexity.
    Also, there is no need for an additional regulator to oversee these 
obligations. The Department of Health and Human Services has primary 
authority under these rules, with a significant new set of enforcement 
tools in its arsenal. There is no need for FTC to enter this arena to 
provide additional (and potentially inconsistent) regulatory oversight. 
To the extent that Congress wants FTC to have any involvement at all in 
the regulation of health information, it should limit this involvement 
(if any) to those entities that are outside the HIPAA/HITECH structure. 
Congress should not permit the FTC to regulate those companies--whether 
a covered entity or a business associate--who already face regulation 
by HHS and the Attorneys General around the country.
    Therefore, we encourage Congress to amend S. 3742 by crafting a 
clear and explicit exemption for personal information held by covered 
entities and their business associates that is already protected and 
regulated by HIPAA. Specifically, Congress should ensure that there is 
an explicit statement in the legislation that entities covered by HIPAA 
and their business associates are exempt to the extent that the 
information they hold is protected and regulated by HIPAA. This 
specific language should recognize that the privacy and security 
practices of the healthcare industry already are heavily regulated, 
with principles designed to facilitate the appropriate use and 
disclosure of healthcare information for appropriate purposes. Any 
change to these rules in legislation that is focused on the activities 
of the healthcare industry would be duplicative at best and disruptive 
and damaging for patients at worst.
    We look forward to working with you as this bill moves through the 
legislative process and hope you can address the concerns we have 
raised. The Confidentiality Coalition appreciates the opportunity to 
continue our discussion with you on this legislation. If you have any 
questions or would like further information, please contact Tina Olson 
Grande, Sr. Vice President for Policy, at the Healthcare Leadership 
Council and Executive Director of the Confidentiality Coalition 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="32465540535c5657725a5e511c5d4055">[email&#160;protected]</a>).

                   2010 Steering Committee Membership
Aetna
American Hospital Association
America's Health Insurance Plans
Association of Clinical Research Organizations
Blue Cross Blue Shield Association
CVS Caremark
Federation of American Hospitals
Greenway Medical Technologies
Gundersen Lutheran
Health Dialog
Healthcare Leadership Council
IMS Health
Marshfield Clinic
McKesson Corporation
Medco
National Association of Chain Drug Stores
Pharmaceutical Care Management Association
Pharmaceutical Research and Manufacturers of America
Premier, Inc.
Prime Therapeutics
Texas Health Resources
VHA
Walgreens
Wellpoint
                           General Membership
ACA International
Adheris
American Academy of Nurse Practitioners
American Benefits Council
American Clinical Laboratory Association
American Electronics Association
American Managed Behavioral Healthcare Association
Amerinet
AstraZeneca
American Pharmacists Association
Ascension Health
Association of American Medical Colleges
Baxter Healthcare
BlueCross BlueShield of Tennessee
Catalina Health Resource
CIGNA Corporation
Cleveland Clinic
College of American Pathologists
DMAA: The Care Continuum Alliance
Eli Lilly
ERISA Industry Committee
Food Marketing Institute
Fresenius Medical Care
Genentech, Inc.
Genetic Alliance
Genzyme Corporation
Health Care Service Corporation
Humana, Inc.
Intermountain Healthcare
Johnson & Johnson
Kaiser Permanente
Mayo Clinic
Medical Banking Project
Medtronic
Merck
MetLife
National Association of Health Underwriters
National Association of Manufacturers
National Association of Psychiatric Health Systems
National Community Pharmacists Association
National Rural Health Association
Novartis
Pfizer
Quest Diagnostics
SAS
Siemens Corporation
Society for Human Resource Management
State Farm
TeraDact Solutions Inc.
Trinity Health
U.S. Chamber of Commerce
Wal-Mart
Wolters Kluwer Health
      
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                            Maneesha Mithal

    Question 1. What is the risk that a data breach poses to consumers 
in today's economy?
    Answer. Data breaches pose many risks to consumers, including the 
risk of stalking, identity theft, or other unlawful practices such as 
fraud.\1\ For certain kinds of information, such as health information, 
data breaches may also cause reputational harm. For companies, data 
breaches can cause consumers to lose confidence in them.
---------------------------------------------------------------------------
    \1\ There is limited data regarding the incidence of these harms. 
However, the FTC is aware that some identity theft is caused by data 
breaches. According to a survey conducted on behalf of the FTC in 2006, 
about 11 percent of identity theft victims reported that they knew 
their information was stolen from a company. See Federal Trade 
Commission, 2006 Identity Theft Survey Report (Nov. 2007), available at 
http://www.ftc.gov/os/2007/11/SynovateFinalReport
IDTheft2006.pdf.

    Question 2. Are consumers concerned about identity theft these 
days?
    Answer. Yes. Unfortunately, identity theft remains a major concern 
for consumers. The Commission estimates that as many as 9 million 
Americans have their identities stolen each year. Indeed, the 
Commission has received more consumer complaints about identity theft 
than any other category of complaints every year since 2002.
    Identity theft has serious repercussions for victims. While some 
identity theft victims can resolve their problems quickly, others spend 
hundreds of dollars and many days repairing damage to their good name 
and credit record. Some consumers victimized by identity theft may lose 
out on job opportunities, or be denied loans for education, housing, or 
cars because of negative information on their credit reports. In rare 
cases, they may even be arrested for crimes they did not commit.

    Question 3. What is the average cost per incident of a data breach 
in the United States?
    Answer. According to an annual study conducted by the Ponemon 
Institute, the average cost of a data breach to companies was $204 per 
compromised customer record in 2009. The study indicates that the 
average total cost to companies of a data breach incident rose from 
$6.65 million in 2008 to $6.75 million in 2009. These costs may include 
expenses for detection of the breach, engaging forensic experts, 
notification of consumers, free credit monitoring subscriptions, the 
economic impact of lost or diminished customer trust, and legal 
defense.\2\
---------------------------------------------------------------------------
    \2\ Ponemon Institute, 2009 Annual Study: Cost of a Data Breach 
(Jan. 2010), available at http://www.ponemon.org/local/upload/fckjail/
generalcontent/18/file/US_Ponemon_CODB_
09_012209_sec.pdf.

    Question 4. Do you believe that companies should be required to 
maintain appropriate safeguards protecting sensitive consumer data?
    Answer. Yes. If companies do not maintain appropriate safeguards to 
protect the personal information they collect and store, that 
information could fall into the wrong hands, resulting in fraud and 
other harm, and consumers could lose confidence in the marketplace. 
Accordingly, the Commission has undertaken substantial efforts to 
promote data security in the private sector through law enforcement, 
education, and policy initiatives. For example, on the law enforcement 
front, the Commission has brought 29 enforcement actions since 2001 
against businesses that fail to implement reasonable security measures 
to protect consumer data.

    Question 5. What are the most necessary provisions of this 
legislation? Currently, how well are consumers protected against 
identity theft, fraud and other harm?
    Answer. The Commission believes that several provisions of the 
legislation are important. First, the Commission supports the 
requirement that a broad array of entities implement reasonable 
security policies and procedures, including both commercial enterprises 
and nonprofits. Problems with data security and breaches affect 
businesses and nonprofit organizations alike. Thus, requiring that this 
broad array of entities have reasonable security policies and 
procedures is a goal that the Commission strongly supports.
    Second, the Commission supports the breach notification provisions 
of the bill. Indeed, various states have already passed data breach 
notification laws which require entities to notify affected consumers 
in the event of a data breach. Notice to consumers may help them avoid 
or mitigate injury by allowing them to take appropriate protective 
actions, such as placing a fraud alert on their credit file or 
monitoring their accounts. In addition, breach notification laws have 
further increased public awareness of data security issues and related 
harms, as well as data security issues at specific companies.\3\ Breach 
notification at the Federal level would extend notification nationwide 
and accomplish similar goals.
---------------------------------------------------------------------------
    \3\ See, e.g., Samuelson Law, Technology, & Public Policy Clinic, 
University of California-Berkeley School of Law, Security Breach 
Notification Laws: Views from Chief Security Officers (Dec. 2007), 
available at http://www.law.berkeley.edu/files/cso_study.pdf; Federal 
Trade Commission Report, Security in Numbers: SSNs and ID Theft (Dec. 
2008), available at http://www.ftc.gov/os/2008/12/P075414ssnreport.pdf.
---------------------------------------------------------------------------
    Third, the Commission supports the legislation's robust enforcement 
provisions, which would: (1) give the FTC the authority to obtain civil 
penalties for violations \4\ and (2) give state attorneys general 
concurrent enforcement authority.\5\
---------------------------------------------------------------------------
    \4\ This recommendation is consistent with prior Commission 
recommendations. See Prepared Statement of the Federal Trade Commission 
Before the S. Comm. on Commerce, Science, and Transportation, 109th 
Cong. (Jun. 16, 2005), available at http://www.ftc.gov/os/2005/06/
050616databreaches.pdf; Prepared Statement of the Federal Trade 
Commission Before the S. Comm. on Commerce, Trade, and Consumer 
Protection, 111th Cong. (May 5, 2009), available at http://www.ftc.gov/
os/2009/05/P064504peertopeertestimony.pdf; Prepared Statement of the 
Federal Trade Commission Before the Subcomm. on Interstate Commerce, 
Trade, and Tourism of the S. Comm. on Commerce, Science, and 
Transportation Committee, 110th Cong. (Sep. 12, 2007), available at 
http://www.ftc.gov/os/testimony/070912reauthorizationtestimony.pdf; 
Prepared Statement of the Federal Trade Commission Before the S. Comm. 
on Commerce, Science, and Transportation, 110th Cong. (Apr. 10, 2007), 
available at http://www.ftc.gov/os/testimony/
P040101FY2008BudgetandOngoingConsumerProtectionandCompetitionProgramsTes
timonySena
te04102007.pdf. These recommendations also were made in an April 2007 
report released by the President's Identity Theft Task Force, which was 
co-chaired by the Attorney General and the FTC Chairman, as well as in 
a report on Social Security numbers released in December 2008. See The 
President's Identity Theft Task Force Report, Sep. 2008, available at 
http://idtheft.gov/reports/IDTReport2008.pdf; FTC Report, 
``Recommendations on Social Security Number Use in the Private 
Sector,'' (Dec. 2008), available at http://www.ftc.gov/opa/2008/12/
ssnreport.shtm.
    \5\ This recommendation is consistent with prior Commission 
recommendations. See The President's Identity Theft Task Force, 
``Combating Identity Theft: A Strategic Plan,'' (Apr. 2007), available 
at http://www.idtheft.gov/reports/StrategicPlan.pdf.
---------------------------------------------------------------------------
    With respect to current protections, the Commission enforces 
several laws and rules imposing data security requirements, including 
the Commission's Safeguards Rule under the Gramm-Leach-Bliley Act 
(``GLB''), the Fair Credit Reporting Act, and the FTC Act. However, at 
present, in most of the cases the Commission brings, it cannot obtain 
civil penalties. I believe the provision allowing FTC to seek civil 
penalties for violations of S. 3742 would have a significant additional 
deterrent effect.

    Question 6. Which provisions in my bill do you support most 
strongly?
    Answer. As noted above, the Commission supports the legislation's 
effort to require a broad array of entities to implement reasonable 
security policies and procedures, the creation of a breach notification 
requirement at the Federal level, and the legislation's robust 
enforcement provisions. Of all the provisions, perhaps the most 
beneficial is the provision giving the FTC the authority to enforce 
civil penalties against entities that do not maintain reasonable 
security. Such penalties would provide a strong incentive for companies 
to maintain adequate data security.

    Question 7. I understand that the Commission in the past has 
publicly supported and even recommended to Congress the enactment of 
Federal legislation enhancing data security across private industry. Do 
you also support applying data security requirements to other covered 
entities--such as nonprofits, as covered in my bill--that also maintain 
sensitive consumer data?
    Answer. Yes. It is important that nonprofits that collect 
consumers' personal information are covered by the bill because 
problems with data security and breaches affect businesses and 
nonprofit organizations alike. Indeed, many of the breaches that have 
been reported in recent years have involved nonprofit universities, for 
example. From consumers' perspective, the harm from a breach is the 
same whether their information was disclosed by a nonprofit or a 
commercial entity. Requiring reasonable security policies and 
procedures of this broad array of entities is a goal that the 
Commission strongly supports.

    Question 8. Have there been instances in which nonprofits leaked 
consumers' information making those consumers vulnerable to subsequent 
fraud or identity theft?
    Answer. Yes. A number of sources publicly report data breaches that 
have occurred at nonprofits. For example, the Identity Theft Resource 
Center \6\ and Privacy Rights Clearinghouse \7\ both list incidents of 
recent data breaches that include numerous non-profit organizations.
---------------------------------------------------------------------------
    \6\ See http://www.idtheftcenter.org/artman2/publish/lib_survey/
ITRC_2008_Breach_List
.shtml.
    \7\ See http://www.privacyrights.org/data-breach#CP.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                               Ioana Rusu

    Question 1. What is the risk that a data breach poses to consumers 
in today's economy?
    Answer. The most palpable risk posed by data breach to consumers is 
that of identity theft and fraud, either at the time of the breach or 
later, as the compromised information is sold and resold. When 
consumers' personal information is compromised in this way, a bad actor 
could appropriate that information and use it to obtain credit and 
government services, among other benefits.
    Identity theft and fraud, however, are not the only harms posed by 
data breaches. Even though a consumer's personal information is not 
ultimately used to commit identity theft or fraud, the simple fact that 
his or her information is now freely floating in the marketplace and 
the consumer has no control over its use reduces consumer confidence in 
the marketplace. If consumers exchange their personal information for 
services provided by a certain company, and that company ultimately 
loses control of that information, consumers may be less willing to 
reveal personal information to vendors in future transactions. 
Consumers should be able to engage in the marketplace with confidence, 
knowing that their information is being safely and responsibly guarded 
by marketplace actors.

    Question 2. What is the average cost per incident of a data breach 
in the United States?
    Answer. According to the Ponemon Institute Annual Cost of a Data 
Breach study conducted in 2009, the average cost of a data breach in 
2008 cost companies an average of $202 per compromised record--of which 
$152 pertains to indirect cost including abnormal turnover or churn of 
existing and future customers.\1\ Despite an overall rise in total data 
breach cost over the past 4 years, Ponemon Institute indicates that 
direct costs appear to be declining slightly from a high of $54 in 2006 
to a low of $50 in 2008.\2\
---------------------------------------------------------------------------
    \1\ ``Fourth Annual U.S. Cost of Data Breach Study,'' Ponemon 
Institute, January 2009 <http://www.ponemon.org/local/upload/fckjail/
generalcontent/18/file/2008-2009%20US%20Cost%20of
%20Data%20Breach%20Report%20Final.pdf>.
    \2\ Id.
---------------------------------------------------------------------------
    Consumers Union believes that a robust notice of breach requirement 
supports business investment in improved data protection, saving 
consumers the time, effort and cost incurred in dealing with a data 
breach, and saving companies the cost of future breaches.

    Question 3. Are consumers concerned about identity theft these 
days?
    Answer. Yes, we believe that consumers are extremely concerned 
about identity theft and fraud today.
    In December 2009, Mintel Comperemedia reported that nearly half of 
adults polled (46 percent) were worried about someone stealing money 
from their bank accounts or stealing their identities.\3\
---------------------------------------------------------------------------
    \3\ ``Recession increases people's fear of identity theft,'' Mintel 
Comperemedia, December 29, 2010 <http://www.comperemedia.com/
pressreleases/743>.
---------------------------------------------------------------------------
    In addition, in February 2010, the Federal Trade Commission 
published the Consumer Sentinel Network Data Book for 2009.\4\ In this 
report, the FTC aggregated and compiled all consumer complaints 
received during 2009 through a number of avenues, including FTC 
hotlines and complaints filed with the Better Business Bureau and the 
U.S. Postal Service. The number one consumer complaint category during 
calendar year 2009 was identity theft: a total of 278,078 consumers (or 
21 percent of all reported claims) were affected.\5\
---------------------------------------------------------------------------
    \4\ ``Consumer Sentinel Network Data Book for January-December 
2009,'' Federal Trade Commission, February 2010 <http://www.ftc.gov/
sentinel/reports/sentinel-annual-reports/sentinel-cy2009.pdf>.
    \5\ Id.
---------------------------------------------------------------------------
    This data seems to indicate that consumers remain justifiably 
concerned about identity theft and identity fraud.

    Question 4. Do you believe that companies should be required to 
maintain appropriate safeguards protecting sensitive consumer data?
    Answer. Consumers Union strongly believes that companies should be 
required to maintain appropriate safeguards protecting sensitive 
consumer data. When entities require or induce consumers to provide 
personal information in exchange for receiving a good or service, those 
entities must also ensure that the personal information they store and 
use is handled in a secure and responsible manner. Consumer confidence 
in the marketplace will decrease if consumers believe their information 
can easily be lost or stolen.

    Question 5. What are the most necessary provisions of this 
legislation? Currently, how well are consumers protected against 
identity theft, fraud and other harm?
    Answer. A number of states already require notification of data 
breach. However, the requirements differ from state to state, and many 
of the laws take different approaches vis-a-vis the risk threshold.
    The data broker provision, which requires defined entities to 
maximize the accuracy and accessibility of their records, as well as to 
provide consumers with a process to dispute information, is a 
particularly necessary provision of this legislation, as this issue has 
not been uniformly addressed at the state level.
    In addition, we appreciate the balanced approach this bill takes 
toward risk, allowing entities to circumvent the notification 
requirements only when there is ``no reasonable risk of identity theft, 
fraud, or other unlawful conduct.'' While some state laws do go even 
further by completely eliminating the risk threshold altogether, we 
believe the approach of this bill is sufficiently balanced to protect 
consumers.
    The provision granting enforcement authority to state attorneys 
general and other state officials is also particularly necessary and 
important. So far, state attorneys general have been at the forefront 
of the battle against identity theft. Giving state officials 
enforcement authority means placing more cops on the beat, thus 
increasing chances that bad behavior will be singled out and punished.

    Question 6. Which provisions in my bill do you support most 
strongly?
    Answer. Consumers Union strongly supports S. 3742. We believe this 
bill will allow consumers to better protect themselves and limit loss 
resulting from data breach, as well as provide incentives for 
compliance to put in place responsible information security practices. 
The provisions which we believe will best achieve these purposes are:

        1. The requirement that both for-profit and non-profit entities 
        put in place responsible information security policies;

        2. The bill's notification provisions, which require 
        notification to consumers within 60 days of the breach;

        3. The bill's requirement that all entities provide 2 years of 
        free credit reports or credit monitoring in case of breach;

        4. The bill's focus on information brokers, and its 
        requirements that such brokers maximize accuracy and access to 
        records, as well as providing a way for consumers to dispute 
        information; and

        5. The provision allowing state Attorneys General and other 
        state officials or agencies to bring enforcement actions 
        against any entity violating this bill.

    Question 7. Does Consumers Union believe it is important to require 
both non-profit and private sector entities to protect the security of 
the personal consumer data they maintain and to provide breach notice? 
Is the scope of the bill appropriate in your view?
    Answer. Consumers Union believes that it is important to require 
both non-profit and private sector entities to protect the security of 
the personal consumer data they maintain and to provide breach notice. 
Consumers face the same risks when personal data is compromised, 
regardless of whether the breach is associated with a for-profit or 
non-profit entity. While we are certainly cognizant of the fact that 
many non-profits may not have the resources to provide notification or 
credit monitoring, we believe that the bill's provisions exempting such 
action due to excessive cost are sufficient.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                            Stuart K. Pratt

    Question 1. What is the risk that a data breach poses to consumers 
in today's economy?
    Answer. CDIA believes that data breaches often do pose a risk to 
consumers, and that if there is a significant risk of harm, consumers 
should be notified of that risk. However, there are also many types of 
data breaches that do not pose specific risks to consumers, and in 
those cases, providing a notice to consumers could be counter-
productive.
    Specifically, CDIA agrees with the FTC, that:

        ``[t]he challenge is to require notices only when there is a 
        likelihood of harm to consumers. There may be security breaches 
        that pose little or no risk of harm, such as a stolen laptop 
        that is quickly recovered before the thief has time to boot it 
        up. Requiring a notice in this type of situation might create 
        unnecessary consumer concern and confusion. Moreover, if 
        notices are required in cases where there is no significant 
        risk to consumers, notices may be more common than would be 
        useful. As a result, consumers may become numb to them and fail 
        to spot or act on those risks that truly are significant. In 
        addition, notices can impose costs on consumers and on 
        businesses, including businesses that were not responsible for 
        the breach. For example, in response to a notice that the 
        security of his or her information has been breached, a 
        consumer may cancel credit cards, contact credit bureaus to 
        place fraud alerts on his or her credit files, or obtain a new 
        driver's license number. Each of these actions may be time-
        consuming for the consumer, and costly for the companies 
        involved and ultimately for consumers generally.'' \1\
---------------------------------------------------------------------------
    \1\ Prepared Statement of the Federal Trade Commission Before the 
S. Comm. on Commerce, Science, and Transportation, 109 Cong. (Jun. 16, 
2005), available at http://www.ftc.govios/2005/06/
050616databreaches.pdf.

    Question 2. Are consumers concerned about identity theft these 
days?
    Answer. Although CDIA has not reviewed any recently conducted 
polling on this issue, we believe that anecdotal evidence and press 
accounts demonstrate that some consumers are concerned about identity 
theft.

    Question 3. What is the average cost per incident of a data breach 
in the United States?
    Answer. CDIA does not have any basis to draw an estimate.

    Question 4. Do you believe that companies should be required to 
maintain appropriate safeguards protecting sensitive consumer data?
    Answer. Yes, CDIA has testified in favor of such requirements, as 
long as they are a true national standard that focuses on safeguarding 
sensitive personal information, scaled appropriately for size and type 
of company and sensitivity of data.
    However, as I stated in my testimony, ``While CDIA's members 
support the creation of a national standard for data security, we 
believe that it is also critical that such a standard not interfere 
with the operation of other Federal laws which already exist. To 
accomplish this, additional work must be done to fine-tune the 
exception in the current bill, intended to avoid duplicative and 
potentially confusing requirements.''

    Question 5. What are the most necessary provisions of this 
legislation? Currently, how well are consumers protected against 
identity theft, fraud and other harm?
    Answer. While CDIA supports the data security and breach 
notification provisions in this legislation, we believe that the most 
important provisions are the information broker provisions because if 
these provision are retained, their inclusion undermines the 
effectiveness of the bill, and could expose consumers and businesses to 
increased risk of identity theft, fraud and other harm.
    CDIA is not in a position to comment on how well consumers are 
currently protected, but we strongly believe that if the ``information 
broker'' provisions of this legislation are not removed, the ability of 
companies to fight identity theft, fraud and other harm could be 
severely compromised, as the effectiveness of the tools that CDIA 
members provide to assist companies in these endeavors could be 
weakened.

    Question 6. Which provisions in my bill do you support most 
strongly?
    Answer. While CDIA supports the data security and breach 
notification provisions in this legislation, we believe that he 
inclusion of the information broker provisions undermines the 
effectiveness of the bill, because if these provision are retained, 
their inclusion undermines the effectiveness of the bill, and could 
expose consumers and businesses to increased risk of identity theft, 
fraud and other harm. Therefore, CDIA urges you to strike these 
provisions from the legislation.
    Further, as I stated in my testimony: ``While CDIA's members 
support the creation of a national standard for data security, we 
believe that it is also critical that such a standard not interfere 
with the operation of other Federal laws which already exist. To 
accomplish this, additional work must be done to fine-tune the 
exception in the current bill. Allowing a company to be exempt from a 
data security standard only when it is `in compliance with' a similar 
standard found in another law imposes two sets of duties, two sets of 
costs and two sets of liability on that company. For CDIA's largest and 
smallest businesses this is an unnecessary burden. For our smallest 
businesses this duty likely increases the costs of the Errors and 
Omissions insurance policies which have to cover this dual liability 
risk. We urge the Committee to adjust the exception so that is not an 
`in compliance with' test and to instead use a `subject to' test.''

    Question 7. To what extent should your members be required to 
protect sensitive personal information?
    Answer. CDIA members take their responsibility to protect sensitive 
consumer information seriously, whether they are required to do so 
under law or not. They have developed sophisticated methodologies to 
ensure that the data that they hold is protected.
    In terms of legal requirements, CDIA members that operate as 
financial institutions under GrammLeach-Bliley are required to protect 
sensitive information. Other legal requirements, such as Section 5 of 
the FTC Act, also bind our members, even where they may not fall into 
the GLB data protection requirements, and CDIA companies take their 
responsibility to protect data seriously.

    Question 8. Is a national standard for information security 
requirements necessary in your view? If so, why?
    Answer. CDIA believes that a national information security standard 
would be helpful, but is not necessary. Specifically, there are already 
46 states that have enacted some form of data security requirement, and 
we believe that an additional Federal requirement is necessary only to 
the extent that it fully and completely establishes a real national 
standard and preempts these state laws.

    Question 9. How should businesses dispose of sensitive consumer 
information?
    Answer. CDIA believes that the appropriate standards for disposal 
have been established through Section 628 of the Fair Credit Reporting 
Act (FCRA), and the accompanying regulations. We would urge the 
Committee to retain that language.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                            Melissa Bianchi

    Question 1. What is the risk that a data breach poses to consumers 
in today's economy?
    Answer. The AHA has not undertaken any independent and/or 
systematic research specifically about this issue. Rather, we typically 
rely on--and are very aware of--publically available information about 
data breaches, including the likely incidence and impact of breaches 
both generally and in the health care field. A recent study, 2010 Data 
Breach Investigations Report, conducted by the Verizon Business RISK 
team in cooperation with the United States Secret Service (available at 
http://www.verizonbusiness.com/resources/reports/rp_2010-data-breach-
report_
en_xg.pdf), for example, found that healthcare accounts for only about 
3 percent of data breaches.
    HHS is now collecting and displaying information on data breaches 
of unsecured PHI under new expanded HIPAA requirements mandated by 
HITECH. The new requirements obligate HIPAA covered entities to report 
such breaches to HHS in addition to providing notice to affected 
individuals and, for larger breaches, the media. Specifically, if the 
breach involves more than a total of 500 individuals, regardless of 
their residency, the covered entity must notify the Secretary of HHS 
concurrently with the required notification sent to the affected 
individuals as well as notify the media. For all other breaches, the 
covered entity must maintain a log documenting the breaches that occur 
during the year and submit that log to HHS no later than 60 days after 
the end of each calendar year. HHS' breach notification rule also 
requires the Secretary to post on the HHS Website a list of breaches 
involving more than 500 individuals. This list must identify each 
covered entity involved in the breach where the unsecured PHI of more 
than 500 individual is acquired or disclosed. Such information will be 
helpful in understanding the incidence and impact of data breaches and 
effective strategies for reducing their occurrence and mitigating their 
impact.

    Question 2. Are consumers concerned about identity theft these 
days?
    Answer. Again, the AHA has not undertaken any independent and/or 
systematic research specifically about the issue, and we typically rely 
on publicly available information that suggests consumers generally 
remain concerned about identity theft. The AHA and its member hospitals 
share patients' concerns about identity theft, especially about the 
unique impact of identity theft in the health care delivery context.
    For hospitals and other health care providers, identity theft 
creates concerns for patient safety and quality of care; and, 
accordingly, hospitals and health care providers take the issue very 
seriously. In addition to the financial harm associated with other 
types of identity theft, identity theft in health care creates real 
risks of patients receiving improper medical care and may endanger 
patients' health because of inaccurate entries in their medical 
records. Patients who are victims of identity theft also may have their 
insurance depleted, become ineligible for health or life insurance, or 
risk becoming disqualified from some jobs.

    Question 3. What is the average cost per incident of a data breach 
in the United States?
    Answer. Again, the AHA has not undertaken any independent and/or 
systematic research specifically about the issue, and we typically rely 
on publicly available information.

    Question 4. Do you believe that companies should be required to 
maintain appropriate safeguards protecting sensitive consumer data?
    Answer. The AHA believes that it is important for companies to take 
appropriate measures to protect sensitive consumer information. 
Hospitals already do this as part of their HIPAA compliance 
obligations. HIPAA requires hospitals and other covered entities to 
implement detailed protocols for protecting the privacy and security of 
the patient information they maintain. HIPAA includes rules for 
notifying patients in the event of a security breach. Under the 
Security Rule, for example, a hospital must maintain the 
confidentiality, integrity, and availability of electronic protected 
health information that it creates, receives, maintains, or transmits. 
In practice these terms have the following meanings:

  <bullet> confidentiality--preventing disclosure of EPHI to 
        unauthorized persons or processes;

  <bullet> integrity--preventing unauthorized alteration or destruction 
        of EPHI; and

  <bullet> availability--ensuring that EPHI is accessible and useable 
        when needed by authorized persons.

    The Security Rule also requires the performance of a entity-wide 
risk analysis of all information systems that handle electronic 
protected health information and the implementation of a risk 
management program that includes security measures to reduce the 
identified risks to a reasonable and appropriate level. Hospitals also 
must periodically update security measures as necessary and appropriate 
to enhance the security of patient information and address new and 
emerging security threats. These are only a few of the HIPAA Security 
Rule's comprehensive requirements.

    Question 5. What are the most necessary provisions of this 
legislation? Currently, how well are consumers protected against 
identity theft, fraud and other harm?
    Answer. The legislation would provide consumers with better 
protection of their personal information held by a wide range of 
entities, similar to the protection already afforded personal 
information held by HIPAA covered entities. In the hospital setting, 
patient information--including demographic information, Social Security 
Numbers and financial information--already is well protected. HIPAA has 
mandated comprehensive protection of patient information for nearly a 
decade. Under the HITECH Act, Congress recently strengthened the HIPAA 
privacy and security requirements as well as HHS' ability to enforce 
HIPAA. The HITECH Act also increased penalties for noncompliance and 
gave state attorneys general the ability to enforce HIPAA directly as 
well as establish a Federal framework for data breach notification for 
HIPAA covered entities. As a result of the HITECH Act, business 
associates of HIPAA covered entities also are directly subject to 
HIPAA's provisions. This means that protected health information held 
by business associates also is protected under HIPAA's comprehensive 
framework.

    Question 6. Which provisions in my bill do you support most 
strongly?
    Answer. The AHA and its members support robust privacy protections 
for personal information. As applies to hospitals, however, we believe 
that the protections proposed under the Data Security and Breach 
Notification Act duplicate those already in place under HIPAA. We 
believe that the provisions of this Act are wholly duplicative of 
compliance requirements imposed by HIPAA and, therefore, that any 
provisions in the bill are unnecessary as applied to the protected 
health information held by HIPAA covered entities and their business 
associates.

    Question 7. Can you think of any instances in which it might be 
important for hospitals to follow the security safeguards and 
requirements outlined in S. 3742?
    Answer. Protected health information held by hospitals and other 
HIPAA covered entities, as well as by their business associates, 
already is protected by HIPAA. The protections proposed in S. 3742 
mirror the HIPAA protections. Subjecting HIPAA covered entities to S. 
3742 would require hospitals to establish two separate compliance 
programs--one for HIPAA, and one to comply with the FTC rules 
established under S. 3742. This will increase compliance costs for 
HIPAA covered entities--costs likely to ultimately be borne by patients 
in the form of higher health care costs. These additional compliance 
requirements, however, will not increase the protection of consumer 
information. The requirements proposed under S. 3742 are not more 
robust than HIPAA and will not afford consumers any greater protection.
    In some cases, hospitals do not maintain certain employee 
information as part of their HIPAA covered functions. These hospitals 
may instead maintain this information separate from their health care 
component. In these cases, the personal information of hospital 
employees (other than information held by a hospital's self-funded 
health plan, which is protected by HIPAA) would not be considered 
protected health information and would not be protected by HIPAA. Where 
this employee information resides outside of the sphere of HIPAA 
protection, we believe it would be appropriate to apply the protections 
of S. 3742 that apply to personal information held by employers 
generally.
                                 ______
                                 
                         Consumer Data Industry Association
                                   Washington, DC, December 7, 2010
Senator Roger Wicker,
Washington, DC.

Dear Senator Wicker,

    I again appreciate the opportunity to testify before the Senate 
Commerce Committee regarding S. 3742, The Data Security and Breach 
Notification Act of 2010, and I am writing today to follow up on the 
questions you asked about the breach notification trigger.
    CDIA has polled our members and some of the law firms which often 
advise companies which have been the victim of a crime resulting in the 
breach of sensitive personal information, and the one constant that 
they report is that there is no means of determining how individual 
state triggers operate due to the fact that breaches are multi-state 
and so decisions don't pivot off of an individual state's notice 
trigger. One very experienced outside counsel makes the following 
point:
    ``The best way to prevent extraneous notices from being sent would 
be a robust and uniform trigger appropriately tailored to areas where 
there is a significant risk of identity theft.''
    CDIA agrees with this.
    The question of the trigger is one way of measuring the likelihood 
of notices being sent, but not the only one. If the definition of 
sensitive personal information is very broad, for instance, then this 
too affects the frequency with which notices are sent. CDIA continues 
to disagree with giving the FTC regulatory powers which allow it to add 
to the statutory definition of sensitive personal information which, 
when breached, would lead to a breach notice. The definition of 
``harm'' could also have an impact on the number and usefulness of 
breach notification notices. For instance, as indicated by the 
Consumers' Union witness at the hearing, they are moving toward a 
theory that most types of data losses, including the loss of de-
identified data, should give rise to a notice. They also testified that 
most breaches of data should result in notices.
    I hope the above is of some help to you as you consider both the 
question of the threshold for a trigger and also the scope of the 
definition of the data associated with breaches. CDIA also remains very 
concerned about the data broker provisions and continues to believe 
that this section must be dropped from the bill in its entirety in 
order to even consider moving a uniform standard for data breach 
notification and data security.
    CDIA continues to support passage of an appropriately structured 
breach notification duty and a duty to secure sensitive personal 
information, but only if there is a true national standard and not just 
a 51st standard that layers into the various state laws.
    Thank you for your consideration.
            Sincerely,
                                           Stuart K. Pratt,
                                                 President and CEO.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
